<html>
<title> - HEARING ON PENDING NOMINATIONS</title>
<body><pre>[Senate Hearing 114-667]
[From the U.S. Government Publishing Office]







                                                       S. Hrg. 114-667

                  NOMINATIONS OF THE 114TH CONGRESS, 
                             FIRST SESSION

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

               May 5, September 30, and November 17, 2015

                               __________

       Printed for the use of the Committee on Veterans' Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
         
         
         
         
         
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-929 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
               
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                   Johnny Isakson, Georgia, Chairman
Jerry Moran, Kansas                  Richard Blumenthal, Connecticut, 
John Boozman, Arkansas                   Ranking Member
Dean Heller, Nevada                  Patty Murray, Washington
Bill Cassidy, Louisiana              Bernard Sanders, (I) Vermont
Mike Rounds, South Dakota            Sherrod Brown, Ohio
Thom Tillis, North Carolina          Jon Tester, Montana
Dan Sullivan, Alaska                 Mazie K. Hirono, Hawaii
                                     Joe Manchin III, West Virginia
                       Tom Bowman, Staff Director
                 John Kruse, Democratic Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              

                              May 5, 2015
Nominations of David J. Shulkin, M.D., to be Under Secretary for Health 
 and LaVerne H. Council to be Assistant Secretary of Veterans Affairs 
   Office of Information and Technology, U.S. Department of Veterans 
                                Affairs
                                SENATORS

                                                                   Page
Isakson, Hon. Johnny, Chairman, U.S. Senator from Georgia........     1
Blumenthal, Hon. Richard, Ranking Member, U.S. Senator from 
  Connecticut....................................................     2
Rounds, Hon. Mike, U.S. Senator from South Dakota................    71
Brown, Hon. Sherrod, U.S. Senator from Ohio......................    73
Tillis, Hon. Thom, U.S. Senator from North Carolina..............    75
Tester, Hon. Jon, U.S. Senator from Montana......................    77
Sullivan, Hon. Dan, U.S. Senator from Alaska.....................    79
Manchin, Hon. Joe, III, U.S. Senator from West Virginia..........    82
Moran, Hon. Jerry, U.S. Senator from Kansas......................    84
Hirono, Hon. Mazie K., U.S. Senator from Hawaii..................    86
Cassidy, Hon. Bill, U.S. Senator from Louisiana..................   109

                               WITNESSES

Casey, Hon. Robert, Jr., U.S. Senator from Pennsylvania..........     3
Shulkin, David J., M.D., Nominee to be Under Secretary for 
  Health, U.S. Department of Veterans Affairs....................     4
    Prepared statement...........................................     6
    Questionnaire for Presidential nominees......................     9
    Letter from the Office of Government Ethics..................    64
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................    65
    Response to posthearing questions submitted by:
      Hon. Dan Sullivan..........................................   113
      Hon. Sherrod Brown.........................................   114
Council, LaVerne H., Nominee to be Assistant Secretary of 
  Veterans Affairs for Information and Technology, U.S. 
  Department of Veterans Affairs.................................    88
    Prepared statement...........................................    90
    Questionnaire for Presidential nominees......................    91
    Letter from the Office of Government Ethics..................   103
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................   104
    Response to posthearing questions submitted by:
      Hon. Richard Blumenthal....................................   115
      Hon. Dan Sullivan..........................................   116
      Hon. Sherrod Brown.........................................   116
                              ----------                              

                           September 30, 2015
Nomination of Michael H. Michaud, Nominee to be Assistant Secretary of 
 Labor for Veterans' Employment and Training, U.S. Department of Labor
                                SENATORS

Isakson, Hon. Johnny, Chairman, U.S. Senator from Georgia........   119
Blumenthal, Hon. Richard, Ranking Member, U.S. Senator from 
  Connecticut....................................................   120
Rounds, Hon. Mike, U.S. Senator from South Dakota................   233
Brown, Hon. Sherrod, U.S. Senator from Ohio......................   234
Moran, Hon. Jerry, U.S. Senator from Kansas......................   236
Hirono, Hon. Mazie K., U.S. Senator from Hawaii..................   237
Boozman, Hon. John, U.S. Senator from Arkansas...................   238
Manchin, Hon. Joe, III, U.S. Senator from West Virginia..........   239
Sullivan, Hon. Dan, U.S. Senator from Alaska.....................   241

                               WITNESSES

King, Hon. Angus, U.S. Senator from Maine........................   121
Michaud, Michael H., Nominee to be Assistant Secretary of Labor 
  for Veterans' Employment and Training, U.S. Department of Labor   122
    Prepared statement...........................................   124
    Questionnaire for Presidential nominees......................   126
    Letters from the Office of Government Ethics.................   166
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................   167
    Response to prehearing questions submitted by Hon. Johnny 
      Isakson....................................................   168
    Response to posthearing questions submitted by Hon. Thom 
      Tillis.....................................................   243

                                APPENDIX

Walz, Hon. Timothy J., Member of Congress; letter................   245
Rowan, John, National President, Vietnam Veterans 
  of America (VVA); letter.......................................   247
                              ----------                              

                           November 17, 2015
       Nomination of Michael J. Missal to be Inspector General, 
                  U.S. Department of Veterans Affairs
                                SENATORS

Isakson, Hon. Johnny, Chairman, U.S. Senator from Georgia........   249
Blumenthal, Hon. Richard, Ranking Member, U.S. Senator from 
  Connecticut....................................................   250
Rounds, Hon. Mike, U.S. Senator from South Dakota................   274
Manchin, Hon. Joe, III, U.S. Senator from West Virginia..........   275
Boozman, Hon. John, U.S. Senator from Arkansas...................   277
Tester, Hon. Jon, U.S. Senator from Montana......................   278
Cassidy, Hon. Bill, U.S. Senator from Louisiana..................   280
Brown, Hon. Sherrod, U.S. Senator from Ohio......................   282
Sullivan, Hon. Dan, U.S. Senator from Alaska.....................   283

                               WITNESSES

Missal, Michael J., Nominee to be Inspector General, U.S. 
  Department of Veterans Affairs.................................   252
    Prepared statement...........................................   254
    Questionnaire for Presidential nominees......................   256
    Letters from the Office of Government Ethics.................   266
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................   267
    Response to request arising during the hearing by Hon. Mike 
      Rounds.....................................................   275
    Response to posthearing questions submitted by:
      Hon. Johnny Isakson........................................   289
      Hon. Dean Heller...........................................   293
      Hon. Mike Rounds...........................................   294

 
                     HEARING ON PENDING NOMINATIONS

                              ----------                              


                          TUESDAY, MAY 5, 2015

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:29 p.m., in 
room 418, Russell Senate Office Building, Hon. Johnny Isakson, 
Chairman of the Committee, presiding.
    Present: Senators Isakson, Moran, Boozman, Cassidy, Rounds, 
Tillis, Sullivan, Blumenthal, Brown, Tester, Hirono, and 
Manchin.

   OPENING STATEMENT OF HON. JOHNNY ISAKSON, CHAIRMAN, U.S. 
                      SENATOR FROM GEORGIA

    Chairman Isakson. This hearing of the Senate Veterans' 
Affairs Committee will come to order.
    I would like to welcome our two nominees and witnesses for 
their testimony. Dr. David Shulkin to serve as VA's Under 
Secretary of Health and Ms. LaVerne Council to serve as VA's 
Assistant Secretary for Information Technology. We will make 
opening statements to begin with and start first with Dr. 
Shulkin's testimony after we are finished and after the 
introduction by Senator Casey.
    Dr. Shulkin, you are going to be in charge of an agency 
that has 1,600 facilities and 300,000 employees. We have 
criticized Wall Street as being too big to fail. I am not sure 
you have the skill to manage a group of 300,000. I do not think 
anybody does. It is a monolithic, huge organization and it is a 
tremendous challenge. However, we are grateful that somebody 
like yourself is willing to take on that challenge. We want you 
to be mindful it needs to be improved to be a responsive 
organization to the needs of our veterans, and also the needs 
of this Committee.
    Quite frankly, to me, I think there is an attitude within 
the VA health system of denial in terms of some of the problems 
that exist in the system. We found that out most recently in 
our trip to Denver, CO, where the Ranking Member and I saw a 
hospital that has been 13 years in the making. It is now up to 
$1.6 billion in cost when it was initially going to cost $348 
million. Further, it does not seem that anybody has been in 
charge. I think we need to get the VA health system out of the 
business of building buildings and into the business of saving 
lives. So, I hope your testimony will focus on how you intend 
to do some of those things.
    For Ms. Council, who I had the pleasure of meeting a moment 
ago and will be second on our panel, I would just like to say 
that information technology is everything in this day and time. 
I understand the Department of Defense has a $4 billion Request 
for Proposal (RFP) out for somebody to come in and work with 
their health IT, and I understand the health IT supplier to the 
Veterans Administration is not one of the finalists. I am 
interested in finding out what you might think about the 
interoperability of VA health care and DOD health care in terms 
of information technology, because one of the biggest problems 
we have with our veterans, they come home from Afghanistan, 
they get out of Walter Reed or Fisher House or Malone House, 
they sever from the military, and then they go into VA health 
care. Then, they fall through the cracks because there is not a 
smooth, seamless transition for the veterans. So, how 
information technology can help solve that problem is something 
I would be interested in hearing from you.
    We are proud of both of you and your nominations. We look 
forward to your testimony.
    I will recognize Richard Blumenthal, the Ranking Member, 
for his comments.

 OPENING STATEMENT OF HON. RICHARD BLUMENTHAL, RANKING MEMBER, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman. Let me begin by 
thanking both the nominees here today for their willingness to 
serve and thank you to Senator Casey for being here, a staunch 
and very vigorous advocate of our veterans. We are all proud to 
serve with him in the U.S. Senate.
    I do not need to tell anyone in this room, certainly 
neither of our nominees, that we continue to be in crisis mode 
management in the Department of Veterans Affairs. As the 
Chairman has remarked, the poster building for that crisis is 
in Colorado, a half-completed, vacant shell which will cost a 
billion dollars more than was projected. That is a billion 
dollars that should not come from other veterans health care. 
That is a principle that I will fight to uphold.
    In addition to the construction delays and cost overruns, 
there are more than 430,000 veterans who still cannot access 
health care within 30 days. Even more than a year after the 
Phoenix debacle and the approval of the Veterans Access, 
Choice, and Accountability Act of 2014 by the Congress, there 
remain delays and inadequacies in that system of health care 
that I know you will help to address.
    The concern I want to highlight here really relates to the 
fact that we have only two nominees present today. There are 
seven positions that require Senate confirmation occupied by 
officials serving in an interim or acting capacity and we only 
have two to fill those seven vacancies with us today. Your 
being here is in no way to blame. In fact, it is a good thing 
that the administration is moving forward with your 
nominations. But, we need people in positions of permanent 
leadership to guide and set policy for the VA and the people in 
those positions need to have the assurance and the permanency 
of Senate confirmation.
    Finally, the claims backlog continues to be a problem. In 
fact, the Board of Veterans Appeals is chaired by an acting 
person, and continues to be without a Senate confirmed 
chairman.
    Likewise, the position of Inspector General, important to 
accountability, remains under the leadership of an acting 
official. I have called for outside investigations, in part 
because I have doubts about whether or not the Inspector 
General in the VA has the resources, the expertise, and 
independence to do these investigations vigorously and 
aggressively. I think it is important for the American people 
to be assured that there is accountability.
    So, I welcome you here today. I want to thank you very 
wholeheartedly for bringing to the VA the kinds of 
extraordinary backgrounds that each of the nominees has and the 
expertise and experience that you volunteered to give the 
United States and for your background of service to our Nation. 
Thank you.
    Chairman Isakson. Thank you, Senator Blumenthal.
    I am pleased to welcome Senator Casey to the Committee for 
the purpose of introducing the first nominee. Senator Casey.

     STATEMENT OF HON. ROBERT P. CASEY, U.S. SENATOR FROM 
        PENNSYLVANIA, INTRODUCING DAVID J. SHULKIN, M.D.

    Senator Casey. Mr. Chairman, thank you very much. I am 
honored to be able to appear before you and to appear on behalf 
of Dr. Shulkin. I want to thank you, Chairman Isakson and 
Ranking Member Blumenthal for this opportunity.
    I am honored to be here and also honored to introduce Dr. 
David Shulkin, a fellow Pennsylvanian, as the nominee for Under 
Secretary of Health for the Department of Veterans Affairs. 
Pennsylvania is home, as some here might know, to one million 
veterans and also numerous VA medical centers, outpatient 
clinics, and regional offices.
    I had the opportunity recently to sit with Dr. Shulkin and 
to walk through some of the major concerns that I have, many of 
which, if not all of which, have been outlined and articulated 
by the Chairman and the Ranking Member. Among those, of course, 
are lack of reporting and accountability during--in Pittsburgh, 
the Legionnaires outbreak, something we had not seen on a 
broad-based scale in years, also, the challenges with regard to 
access to quality care at all VA centers and hospitals around 
the country. We do not have time to itemize all the challenges, 
but they are many, they are substantial, and they have played 
out in my homestate of Pennsylvania, unfortunately, as well as 
many other places around the country.
    It is evident that we have challenges. It is also evident 
to me that Dr. Shulkin will bring significant experience and 
sterling credentials to this job, and he will, as you both 
indicated, need all of that experience to do this job well.
    It is clear that the challenges facing the VA are enormous 
and there is, indeed a crisis of confidence within the VA 
itself, certainly within VA health care.
    Just by way of his educational background, Dr. Shulkin 
received a B.A. from Hampshire College and an M.D. from the 
Medical College of Pennsylvania. He performed his internship at 
Yale University School of Medicine and a residency and 
fellowship in general medicine at the University of Pittsburgh 
Presbyterian Medical Center. He then finally received advanced 
training in outcomes research and economics as a Robert Wood 
Johnson Foundation Clinical Scholar at the University of 
Pennsylvania. I mention those not simply to reiterate his 
Pennsylvania ties but to highlight his academic credentials.
    More recently, as the President of Morristown Medical 
Center, Dr. Shulkin oversaw a 658-bed facility which has 
received awards for excellence in care and its high quality 
work environment. He served in leadership positions in major 
health centers, including as CEO of Beth Israel Medical Center 
in New York and Chief Medical Officer of several Philadelphia 
hospitals.
    With experience as president of a large and well regarded 
private hospital network, I believe Dr. Shulkin has the 
experience necessary to oversee the largest integrated health 
care system in the United States of America and make the needed 
changes to improve this system.
    It is crucial that the person who fills this position is 
committed and passionate--passionate--about taking care of our 
veterans. Our veterans and their families have sacrificed 
greatly for our country and they deserve nothing less than the 
highest quality of care that they have earned. I have 
confidence that Dr. Shulkin will be successful and I urge his 
confirmation.
    Thank you very much.
    Chairman Isakson. Thank you very much, Senator Casey.
    Under the rules of the Committee, the testimony of all 
Presidential nominees appearing before the Committee must be 
taken under oath. I would ask you to stand, Dr. Shulkin. Please 
raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give to the Senate Veterans' Affairs Committee will be 
the truth, the whole truth, and nothing but the truth, so help 
you God?
    Dr. Shulkin. I do.
    Chairman Isakson. Thank you. Please be seated.
    You are recognized for up to 5 minutes for your testimony, 
Dr. Shulkin.

   STATEMENT OF DAVID J. SHULKIN, M.D., NOMINEE TO BE UNDER 
   SECRETARY FOR HEALTH, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Dr. Shulkin. Thank you. Chairman Isakson, Ranking Member 
Blumenthal, distinguished Members of the Committee on Veterans' 
Affairs, and to everyone who is here today that cares deeply 
about the health of our veterans, thank you for the opportunity 
and privilege to address you. I am deeply honored to come 
before you today to seek your endorsement as the Under 
Secretary of Health in the U.S. Department of Veterans Affairs.
    Briefly, I am grateful that my wife, Dr. Merle Bari, is 
here with me today. I met her in medical school and have been 
married to her for 27 years. Her encouragement and support 
during this process and her commitment to our veterans has 
inspired me.
    We are here with our daughter, Jennifer, who will graduate 
this month with a degree in Communication and Public Service 
from the University of Pennsylvania then will attend law school 
in the fall. Not able to join us today is our son, Daniel, who 
will graduate this month from NYU with a Master's in Public 
Administration.
    Chairman Isakson. Where is Jennifer?
    Dr. Shulkin. Jennifer.
    Chairman Isakson. She is very pretty. We are glad to have 
you, Jennifer.
    Dr. Shulkin. Thank you. [Laughter.]
    Senator Blumenthal. And your wife?
    Dr. Shulkin. My wife, Merle.
    Senator Blumenthal. She is very pretty, too.
    Dr. Shulkin. Thank you. [Laughter.]
    She got me a lot of credit, Senators. Thank you.
    Over the past few weeks, I have had the opportunity to 
speak to many of you, as well as countless others around the 
country, about their concerns for the VA health system. I 
appreciate both the candor of these conversations and the 
overwhelming support and commitment I have encountered for 
improving VA.
    I know this past year has been extraordinary difficult for 
veterans and all of those who care so much about providing the 
type of care and services our American heroes deserve. We all 
agree the status quo is simply not acceptable.
    I want to assure you that, if confirmed, it would be my 
sole mission each and every day to transform the VA health 
system into one that provides our veterans with the highest 
level of quality care. If confirmed, I pledge to work with you 
to restore the trust and pride in our VA health care system. I 
recognize the gravity of the mission before us and what is at 
stake if together we do not succeed in making the necessary 
changes and improvements.
    My connection to those who have served this country is well 
ingrained in my fabric. I was born on an Army base in Highland 
Park, IL. My father, Dr. Mark Shulkin, was a captain in the 
U.S. Army, and as a psychiatrist cared for active military on 
the base. Both of my grandfathers served in the U.S. Army in 
World War I, and my paternal grandfather, Joseph Shulkin, 
served as Chief Pharmacist at the Madison, WI, VA. He very 
strongly believed it was our duty to give back to those who 
served, and I have wholeheartedly embodied this message.
    My wife and I spent considerable time at numerous VA 
hospitals during medical school and in our residency training. 
Given that experience and continued engagements with VA during 
the course of my career, it was difficult for me to watch from 
the sidelines last year as the failings of the VA system 
continued to come to light.
    I am honored that President Obama has nominated me to be 
part of the team that puts the pieces back together again and 
builds a stronger and more capable system to serve our 
veterans.
    I was trained as an internal medicine physician and a 
researcher in health outcomes. My career has focused on 
managing large health care systems and improving quality, 
patient safety, and integrating systems of care. Although I 
have spent much of my time in management and administration, my 
core identity has remained as a physician and caregiver. I have 
focused on helping patients and their families obtain better 
quality care, improving the access and scheduling of patient 
appointments, and working to facilitate the transparency of 
outcomes.
    I have led a number of complex health care organizations, 
including a large inner-city hospital, and I have worked in 
some of the country's best academic health care systems and 
medical schools. I have worn the hat of entrepreneur, 
clinician, author, teacher, and researcher.
    I have learned there are no shortcuts to achieving great 
results. Success requires creating a vision, setting high 
standards, engaging the workforce, focusing on implementation, 
ensuring open and regular communication, and holding ourselves 
accountable.
    During these past 25 years, I have learned a great deal 
about how to help complex organizations achieve excellence, and 
I believe this experience will serve me in working with 
Secretary McDonald and each of you to guide the transformation 
of the VA system.
    The VA needs change. The VA needs more doctors, more 
nurses, and greater efficiency from its current systems. It 
needs to advance its culture of accountability and eliminate 
those from the system that have lost their commitment for doing 
what is right for our veterans. Progress is being made, but 
there is still much work to be done.
    While recognizing the extraordinary work that occurs in the 
VA every day, the time has come to create the VA system of the 
future, a system that has superior access and the highest 
standards for quality and quality of caring. I have spent time 
with Secretary McDonald and his team and have seen his passion 
and vision for doing what it will take to make these changes.
    I seek the position of Under Secretary of Health because I 
believe it is my duty to utilize my experience and my expertise 
to find a solution for the best health care possible for our 
veterans. With the support of Members of this Committee and 
others in Congress, Veterans Service Organizations, the 
dedicated employees at VA, and the American people, together, 
we can make the VA the finest health care system in the 
country.
    There is no more noble mission and it will be my distinct 
honor and privilege to be at the forefront of this effort. Our 
veterans deserve the very best, and with your support, I am 
confident that we will succeed in our mission.
    Thank you. I look forward to answering any questions.
    [The prepared statement of Dr. Shulkin follows:]
   Prepared Statement of David J. Shulkin, M.D., Nominee to be Under 
        Secretary of Health, U.S. Department of Veterans Affairs
    Chairman Isakson, Ranking Member Blumenthal, Distinguished Members 
of the Committee on Veterans' Affairs, and to everyone who is here 
today that cares deeply about the health of our Veterans, thank you for 
the opportunity and privilege to address you. I am deeply honored to 
come before you today to seek your endorsement to become the 
Undersecretary for Health in the United States Department of Veterans 
Affairs.
    I'm grateful that several members of my family are with me today. 
First, my wife, Dr. Merle Bari, who I met in medical school and have 
been married to for 27 years. Her encouragement and support during this 
process and her commitment to our Veterans have inspired me. We are 
here with our daughter Jennifer, who will graduate next month from the 
University of Pennsylvania and will be attending law school in the 
Fall. My parents are also here with us today. My dad, Dr. Mark Shulkin 
is a psychiatrist who served as a Captain in the United States Army and 
my mother Sunny Shulkin, a psychotherapist. Both of my parents inspired 
me not only to pursue a career in medicine, but to always put the 
patient first. Not able to join us today is our son, Daniel, who will 
graduate next month from NYU where he will receive a Masters in Public 
Administration.
    Over the past few weeks I have had the opportunity to speak to many 
of you, and heard from many others around the country about their 
concerns for the VA health system. I appreciate both the candor of 
these conversations and the overwhelming support and commitment I have 
felt from so many about improving the VA Health System. I know these 
past several months have been extraordinarily difficult for Veterans 
and all of those who care so much about providing the type of care and 
services our American heroes deserve. I hear the disappointment and 
frustration that so many feel about the VA. We all agree: The status 
quo is simply not acceptable. I want to assure you, that if confirmed, 
It will be my sole mission and focus each and every day to ensure that 
we rebuild the VA health system to be one that provides our Veterans 
with the highest level of quality care. If confirmed, I pledge to work 
with you to restore trust and pride in our VA health care system. I 
also want to ensure you that I recognize the gravity of the mission 
before us and what is at stake, if together we do not succeed in making 
the necessary changes and improvements.
    My connection to those that have served this country is well 
engrained in my fabric. I was born on an Army base in Highland Park 
Ill. My father cared for active military on the base and throughout my 
life has sensitized me to the psychological and medical needs of those 
who served our country. Both of my grandfathers served in the US Army 
in World War I and my paternal grandfather, Joseph Shulkin, served as 
Chief pharmacist at the Madison Wisconsin VA. He would regularly share 
with us that it was all of our duties to give back to those who served 
our country. My wife and I both spent considerable time in numerous VA 
Hospitals during both medical school and in our residency training. I 
am indebted to the dedicated health professionals at the Philadelphia 
VAMC, the West Haven VAMC and the Pittsburgh VAMC who contributed to my 
training and learning. Given that experience, and continued engagements 
with VA during the course of my career, it was difficult for me to have 
watched from the sidelines last year, as the failings of the system 
came to light. I am honored that President Obama has nominated me to be 
part of the team that puts the pieces back together again and builds a 
much stronger and more capable system to serve our Veterans.
    I was trained as an internal medicine physician and a researcher in 
health policy and the assessment of clinical outcomes. .My career has 
focused on managing large health systems and improving quality, patient 
safety, and integrated systems of care. Although I have spent much of 
my time in management and administration, my core identity has remained 
as a physician and caregiver. My focus remains on providing patients 
and their families with quality care by accountable organizations. Over 
my career I have developed systems that helped people choose better 
quality doctors and hospitals, enhanced reporting and learning from 
patient safety incidents, improved access and scheduling patient 
appointments, and facilitated the transparency of outcomes. I have also 
launched and run an accountable care organization and a physician 
organization that have worked tirelessly to identify and eliminate gaps 
in care and have demonstrated real improvements in quality. If 
confirmed, I look forward to bringing this experience, and my 
priorities and focus to support the VA system.
    Over the past 25 years, I have led a number of complex health care 
organizations, including a large inner city hospital and some of the 
country's best academic healthcare systems and medical schools. I've 
worked as an entrepreneur, clinician, author, teacher, and researcher. 
In my current capacity as President of Morristown Medical Center, a 
large tertiary care hospital in Northern New Jersey that is part of the 
Atlantic Health System, I have provided leadership during a period of 
great transformation. Over the last five years, we have been recognized 
by Inside New Jersey and Castle Connelly as the ``Best Overall'' 
hospital in the state in almost all clinical categories. We've been 
identified as the safest hospital in the state by Consumer Reports, 
selected by Fortune Magazine as one of the best places to work in 
America, and named by US News and World Report as having five 
specialties in the top 50 in the country. All of this occurred during a 
time that we have improved both our clinical outcomes, our patient 
satisfaction scores and our financial strength.
    While leading this institution, I have learned there are no 
shortcuts to achieving great results. It requires creating a vision, 
setting high standards, engaging the workforce, focusing on 
implementation, ensuring open and regular communication, and holding 
people accountable. During these past 25 years I have learned a great 
deal about how to help complex organizations achieve excellence and I 
believe this experience will serve me well in working with Secretary 
McDonald and each of you to guide in the transformation of the VA 
system.
    The VA needs change. The VA needs more doctors, more nurses, and 
greater efficiency from its current systems. It needs to advance its 
culture of accountability and eliminate those from the system that have 
lost their commitment to doing what is right for our Veterans. While 
progress is being made, there is much more work still to be done, while 
recognizing the extraordinary work that occurs in the VA every day, the 
time has come to create the VA System of the future. A system that has 
superior access and the highest standards for quality of care and the 
quality of caring. I have spent time with Secretary McDonald and his 
team and have seen his passion and vision for doing what it will take 
to make these changes. The Blue Print for Excellence to improve VA is a 
well thought out and comprehensive plan. The Choice Plan and the 
ability to offer seamless care between VA and the DOD and care in the 
private sector are also critical and efforts I would fully support. It 
would be my intent, if confirmed, to ensure that these strategies and 
initiatives are implemented.
    The Undersecretary of VHA is a significant position with 
significant opportunities. The most important reason I seek this 
position is my duty to do whatever I can to provide the best healthcare 
possible to our Veterans. The VA also offers the potential to impact 
the training and education of countless future physicians, and to bring 
new research discovery and practice changes that will impact all 
Americans. We have the opportunity to end homelessness and prevent 
suffering and suicides for countless of brave Veterans. This is clearly 
the most exciting time in healthcare that I've experienced in my 
career. The innovations of today and tomorrow, new technology, and 
human creativity will allow us to dramatically change the way we 
deliver healthcare and improve our results.
    With the support of the Members of this Committee and others in 
Congress, the Veterans Service Organizations, the dedicated employees 
at the VA, and the American people, together we can make VA the finest 
healthcare system in the country. There is no more noble mission and it 
would be my distinct honor and privilege to be part of this effort. Our 
veterans deserve the very best, and with your support, I am confident 
we will succeed.

    Thank you and I look forward to your questions.
                                 ______
                                 
    [The Committee questionnaire for Presidential nominees 
follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    [Attachments A, B, & C follow:]

 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
 
                                ------                                

    [A letter from the Office of Government Ethics follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                ------                                

    [Letter from David J. Shulkin, M.D., to the Office of 
General Counsel, U.S. Department of Veterans Affairs:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Isakson. Thank you, Dr. Shulkin.
    I have a homework assignment for you. I want to ask one of 
the staff members to give you a business card that I just 
handed off. I would like for you to take it home tonight--thank 
you, Senator Casey--and make a phone call to the person who is 
on that card.
    You know, I am fortuitous in that sometimes having good 
luck is better than being smart. In my life, that has always 
been the case. [Laughter.]
    This morning, I spoke to the National Academy of 
Anesthesiologists. This card is the Chief Anesthesiologist at 
the Johnson VA Hospital in Charleston, SC, where I happen to 
have been breaking ground for a new clinic in Savannah in that 
VISN 7. He made some comments to me about the vertical 
communication within the VA and difficulties that a lot of 
doctors were experiencing, something I had heard many times 
before, referring to the previous administration, the previous 
Secretary and his problems, but understanding that he is still 
at the VA.
    I think it would be a nice touch for you to call him, tell 
him you and I met today; and I met him today. Please hear him 
out on what he has got to say, because he was a very impressive 
doctor, physician, a very impressive individual. I think it 
would be helpful to you, as well as to make me look good.
    Dr. Shulkin. I will do that, Senator. [Laughter.]
    Chairman Isakson. Thank you very much.
    Dr. Shulkin. Thank you.
    Chairman Isakson. Let me ask you a question. You are 
overseeing a hospital with 658 beds in Morristown, NJ, yet you 
are going to take over an agency that has 1,600 locations. Are 
you prepared to take on something of that scope and size, and 
in what way are you going to embrace that challenge?
    Dr. Shulkin. Senator, it is a massive system, there is no 
question about it, and I cannot tell you that I have ever taken 
on a challenge like this. But, I do believe the principles of 
leadership are transferable and they are to be able to, from 
the top, set the vision, have goals, set accountability, and 
make sure that you are making progress on a regular basis and 
making sure that your workforce and those that you serve 
understand what you are trying to do and are on the same page 
with you.
    So, I would take my 25 years of experience and do 
everything that I can to make sure that we are all successful, 
because our veterans deserve better than the care that we are 
able to give right now.
    Chairman Isakson. Both the Ranking Member and I referred to 
the Denver situation in terms of the terrible cost overruns. Do 
you think the VA ought to be in the business of building 
buildings, or should they get out of it?
    Dr. Shulkin. Well, Senator, I watched your hearing and I 
listened very carefully to what both you and the Ranking 
Member--I believe Senator Rounds, I think you were there, as 
well and others--and I believe that what happened there was 
something that really is a situation that could never be 
repeated, should never be allowed to be repeated.
    I understand some of the problems with the integrated 
design concept. I understand that the VA has asked for help in 
this from the Corps, and it has never--it should never be a 
problem asking for help when you are in over your head. I think 
that they have recognized that they need to have systems in 
place so that this could never happen again, and that in 
complex projects that they are going to ask for help, because I 
think as many of you made clear in your statements, this type 
of situation requires the expertise of others to help manage 
this. So, I think that your comments and the comments that were 
heard are certainly going to be taken into account to make sure 
that a situation like this could never occur again.
    Chairman Isakson. Well, I agree with you, and if outcomes 
are the measure by which health care is judged and construction 
is judged, the outcome in terms of that hospital is horrible. 
If any patient had an outcome like that medically, they would 
probably die on the gurney getting into the hospital. So, it is 
going to be very important as a leader in VA medical health 
that you be outspoken in what you think VA's key focus ought to 
be. I think it ought to be in saving lives, providing care and 
comfort to our veterans, and seeing to it those with post-
traumatic stress disorder (PTSD) and traumatic brain injury 
(TBI) are getting the treatment they should get. Get the 
construction problems and the construction jobs in the hands of 
the Corps of Engineers with your input in terms of what you 
need.
    A physician knows better than anybody the way in which a 
design of the most efficient ward ought to be, depending on 
what it is for, whether it is cardiology, whatever it might be. 
But, they do not need to build it, as well. You need to get 
that information first and then have somebody contract and 
execute it. So, I hope you will be a leader in doing precisely 
that.
    Have you ever worked within the government before in any 
job?
    Dr. Shulkin. No, sir, I have not.
    Chairman Isakson. Always been private sector?
    Dr. Shulkin. Always been private sector.
    Chairman Isakson. If you continue to apply your private 
sector knowledge to the government job, you are probably going 
to do just fine.
    Ranking Member Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman. Again, I want 
to thank you for your willingness to serve and thank your 
family, Dr. Bari, if I have that name right, and your daughter, 
Jennifer, who are highly accomplished in their own right, but 
their support for you, I think, will be important to your 
success and your success will be so important to our country, 
not your personal success, but your success in improving the 
quality and access and availability of health care to our 
veterans.
    I note that you spent your internship in West Haven. I 
assume that was about a year or----
    Dr. Shulkin. Yes.
    Senator Blumenthal [continuing]. Thereabouts, and it was 
some time ago, but I would like to invite you back and ask you 
to come back, assuming you are confirmed, which I believe you 
will be. So, perhaps one of your first visits can be to West 
Haven to see what is necessary to improve quality of health 
care there. I hope you will come.
    Dr. Shulkin. Senator, it will be on my initial list of 
visits. It will be a great honor to be able to go back and 
visit. It was my intention to stay at Yale. My wife dragged me 
to the University of Pittsburgh because she did her residency 
there in dermatology, so I would love to come back.
    Senator Blumenthal. That is good to hear.
    Let me ask you more broadly, your dad was a captain and a 
psychiatrist----
    Dr. Shulkin. Yes.
    Senator Blumenthal [continuing]. And obviously dealt with 
issues of mental health care. How big a priority will that area 
of medical care be for you?
    Dr. Shulkin. Yes. The mental health of our veterans is 
paramount. The continued statistics of the number of suicides 
and people suffering, I think, is something that none of us can 
be satisfied with. So, I do believe that this has to be a 
priority and I think that there are several areas of mental 
health that are a priority: surveillance, so we know how big 
the problem is; identification of risk factors, particularly 
for suicide; and then the multiple interventions that are 
required in the treatment of mental health disorders.
    Senator Blumenthal. Well, I am glad to hear that response, 
because I agree that it has to be one of the very top 
priorities, given the rate of 22 suicides per day. We passed 
the Clay Hunt Suicide Prevention for American Veterans Act, 
which I helped to lead along with Senator McCain, Senator 
Isakson, and others. My hope is that that bill will be a 
downpayment, a foundation that we can build upon, because the 
quality of mental health care right now is nowhere near what it 
should be.
    Let me ask you about that monstrosity in Colorado. I think 
there is no other word for the failure that it reflects. It is 
a monument to ineptitude in construction, and the proposal from 
the VA is that the billion-dollar cost overrun be paid out of a 
billion dollars in Choice programming, what is referred to as 
maintenance and minor construction costs, which would require 
sacrifices in quality of health care for other veterans 
elsewhere around the country, which to me is a non-starter and 
I hope that you agree.
    Dr. Shulkin. Yes. Senator, I have certainly heard your 
concerns, in particular, to make sure that this does not affect 
important projects like primary care expansion at West Haven, 
but I know your concerns are much broader than that.
    I believe that people at VA are working hard to try to find 
a way to complete the Denver project, and they are working 
together, I think, with all of you in this room to be able to 
get that done. I think that there is no doubt that the concerns 
about making sure veterans get the right care has to be front 
and center on this, more important than anything else. So, my 
concerns are the ones that you have. I can tell you that if I 
am confirmed, that I will work with the Secretary and his team 
to make sure that any solution does not come at the expense of 
treatment of the veterans.
    Senator Blumenthal. Well, stay tuned. More to be said about 
it.
    My time is about to expire, so let me just ask one last 
question, which is with respect to whistleblowers. I hope you 
will agree with me, also, that whistleblowers really are to be 
welcomed and, in fact, recognized for their courage when they 
step forward and they, in effect, speak truth to power, or more 
bluntly, tell us what is wrong and what has to be righted and 
that, certainly, retaliation ought to be absolutely abhorrent.
    Dr. Shulkin. Yes, Senator, I absolutely agree with that, 
and if confirmed, that would be my position. I think the 
Secretary has taken a strong position on that and I certainly 
support that.
    Senator Blumenthal. Thank you.
    Thank you, Mr. Chairman.
    Chairman Isakson. Following up on Senator Blumenthal's 
statement, I know that the heads of State back in the VA are 
watching this hearing on television. I hope they are. I hope 
they got Senator Blumenthal's message loud and clear. We need 
to know what their proposal is going to be in terms of what 
they are going to contribute to make up the differential so we 
can get that hospital finished. We are prepared to work with 
them, but only if they are prepared to put some skin in the 
game and some stuff on the table. I just wanted to throw that 
in since I knew they would probably be watching.
    Senator Blumenthal. Thanks, Mr. Chairman.
    Chairman Isakson. Senator Rounds.

        HON. MIKE ROUNDS, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Rounds. Thank you, Mr. Chairman.
    Dr. Shulkin, first of all, thank you for the comments that 
you made so far. I would concur with the Chairman and the 
Ranking Member with regards to the Choice program. I understand 
that that is part of the thought process, that in order to gain 
the cash necessary to pick up the billion-dollar overrun in 
Colorado, at the hospital there, that they are looking at other 
alternatives inside. I most certainly would be very hesitant to 
accept the proposal if it impacts the ability to provide care 
to any of our veterans across the rest of the State, including 
in Colorado.
    But, I am curious, because it is not just the urban areas, 
but it is the rural areas, as well, that need the additional 
attention. What I am going to ask is, basically, in your 
position as the Under Secretary of Health, will you continue to 
encourage veterans to use private care? How do you feel about 
the use of private care by veterans? What are your thoughts on 
that?
    Dr. Shulkin. Senator, I think if you put the central 
mission of caring for veterans square in the forefront, you 
come up with an answer that says that the care that is provided 
within the VA system is extraordinary in many areas. We are 
doing work in the VA system that cannot be replicated in the 
private sector.
    But, I think what we have learned is it is not yet a 
complete system. So, in order to give the veterans the care 
that they need, I believe you have to take the best of what is 
in VA, which is considerable, and supplement it with the best 
that is in the private sector that cannot be replicated in the 
VA; that is the way, together, you look at a new VA health care 
system. It is really a transformed system where the role 
becomes the coordination of care, because we cannot do it 
without the private sector right now.
    I really see that this is a different approach. This is a 
different time. I would really endorse a VA that really looks 
at focusing first on the veterans' priorities.
    Senator Rounds. In Hot Springs, SD--you and I spoke earlier 
about this----
    Dr. Shulkin. Mm-hmm.
    Senator Rounds [continued]. Hot Springs is a case--it was 
one of the first hospitals ever developed for the VA in the 
United States, back in the time of the Civil War, as a matter 
of fact, for Civil War veterans. One of their thoughts is that 
they believe truly that they can become and compete as a Center 
of Excellence when it comes to treating PTSD.
    Would you give me your thoughts in terms of the concept of 
a Center of Excellence, specifically, just your thought as to 
whether or not Centers of Excellence work and whether or not 
you think that that is an appropriate direction that we should 
be looking at within the VA system.
    Dr. Shulkin. Yes. Senator, I do believe in Centers of 
Excellence. Throughout my career, I have worked hard to help 
establish them within the private sector. I believe, then, that 
what a Center of Excellence can do is really serve as a 
resource across the country for VA. But, then, you have to 
disseminate those best practices. You do not have to replicate 
all the resources, but you have to disseminate the best 
practices, and that is part of what I think VA needs to do more 
of.
    I think it was Senator Tillis who said last week in the 
hearing, the solutions in VA already exist in the VA. We just 
need to get them out there and we need Centers of Excellence to 
be able to identify those practices and make them consistent 
across the country.
    Senator Rounds. I think you do have some very qualified 
individuals within the VA. I know that in Sioux Falls, SD, we 
have got a group of physicians there that my veterans tell me 
do a great job for them. When you talk to the doctors 
themselves, they say, look, if it comes time to make a change, 
they have, literally, 13 levels of bureaucracy to get through 
to get a change done. Are you prepared to tackle that 
bureaucracy?
    Dr. Shulkin. Senator, this, no doubt, is one of the 
challenges of a system this big. My belief and my philosophy 
about management is that while you do need to have consistency 
of best practices, you have to empower people at the local 
level if you are going to get the best from people. People do 
not want to be receiving memos all day long. They want to feel 
that they have the ability to influence patient care at the 
local level.
    So, that would be my philosophy. And trying to get through 
some of the bureaucracy, that really is the job of leadership 
to cut through that, which is something I would be committed 
to.
    Senator Rounds. I think when we spoke with Secretary 
McDonald and also Deputy Secretary Gibson, we mentioned that we 
understand that they walked into, literally, a very deep pond 
with a lot of gators in it. While I am not from the part of the 
country that has got them, I we have learned about them. They 
voluntarily went in, and you are doing the same thing. It is a 
pretty deep pond, which you are going to have to drain and then 
you are going to have to clean stuff out.
    One of those gators that is in there, I think, is this 
construction project, and a series of them. It is not just one, 
it is a whole series.
    Dr. Shulkin. Mm-hmm.
    Senator Rounds. I really have a question as to whether or 
not they ought to be doing the construction, because I did not 
see where they brought a heck of a lot of expertise to the 
projects that they are doing. If we can get that one out of the 
way, it means you can focus on some of the more direct care 
providing systems that are out there right now. I really hope 
that you would consider looking at in a very serious light the 
elimination of construction as a part of the responsibility of 
Veterans Affairs, just as the Chairman and the Ranking Member 
have suggested, as well, sir.
    Dr. Shulkin. Yes. Senator, I agree with you. Part of the 
reason why I am so committed to this position is because I have 
spent time with Secretary McDonald and Deputy Secretary Gibson. 
These are people who are committed and doing everything they 
can to change the system. And, as you know, the construction 
project predated them.
    If I were confirmed, I would join with them to not only get 
us through this by working together with all of you, but to 
make sure that we are focused on the right things so that this 
would never happen again. Thank you.
    Senator Rounds. We want you to succeed.
    Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Rounds.
    Senator Brown.

           HON. SHERROD BROWN, U.S. SENATOR FROM OHIO

    Senator Brown. Thank you, Mr. Chairman. Thank you for 
holding this hearing. Dr. Shulkin, thank you for being here, 
and Ms. Council, thank you for testifying and for your 
willingness to serve our country.
    Dr. Shulkin, a Reservists at Rickenbacker Air National 
Guard Base in Columbus flew and worked on C-123s in the decade 
after Vietnam. When we met last week, you said you knew of the 
Institute of Medicine study that reported, ``with confidence'' 
that those working on these 123s and C-123s had been exposed to 
Agent Orange residue toxins, but you were not at that point 
aware of how the VA, since you were not in the position yet, or 
are not in the position yet, and we expect you to be, but were 
not aware of how the VA was actually proceeding on the issue.
    Ranking Member Blumenthal and I, along with several 
colleagues, wrote to Secretary McDonald regarding the statutory 
authority that the Department has used in past cases to 
determine health and disability benefits. Our staffers were 
told these veterans would receive health benefits, yet when 
they go to treatment, they are told at VA facilities that they 
do not qualify. This discrepancy must be addressed. That must 
be one of your top priorities, if confirmed. We are awaiting a 
response from Secretary McDonald. We hope you will bring this 
to his attention immediately. Do you care to comment?
    Dr. Shulkin. Yes. Senator, I do appreciate you bringing 
this to my attention when we met. As you know, I only have 
publicly-available information to read, but I have gone back 
and reviewed the Institute of Medicine report in detail that 
was released in January of this year. I agree with your 
interpretation of it. There is no question that the Reservists 
were potentially exposed to harmful agents and the VA is here 
to take care of the health problems of people that were injured 
serving our country.
    I do know that the VA is very interested in resolving this. 
I am not in the position today to officially comment on it, as 
I am sure you know. But, I believe the Secretary is committed 
to getting back to you in short fashion, and if confirmed, I 
would work with the Secretary to be able to address this very 
expeditiously.
    Senator Brown. Thank you. We will act legislatively if we 
need to. We should not have to, and we expect not to have to, 
so thank you for that.
    I wanted to follow up on the Ranking Member's question, 
Senator Blumenthal's question related to whistleblowers. 
Secretary McDonald, one of the first things in our first couple 
of conversations that we had together said he will hold those 
accountable for taking retaliatory action. I have not seen that 
happen yet. How has your--partly, you gave a similar answer on 
prior experience to the Chairman. How has your experience 
managing hospitals and medical staff prepared you to deal with 
those kind of systemic problems at VHA facilities?
    Dr. Shulkin. Well, Senator, one of my passions throughout 
my career has been patient safety, and it is a principle in 
patient safety that if you are not having people on the front 
line feeling comfortable to report errors and near misses--we 
have learned this from the airline industry--that you are never 
going to get better as an organization.
    Part of the job of a leader is to set the culture. The 
culture has to be the one where people feel not only 
comfortable, but also responsible for raising issues that are 
hurting the organization, and in this case, hurting our ability 
to care for veterans. So, it is not only protecting 
whistleblowers, which I think is absolutely vital and key and I 
would be committed to, but it is creating a culture where 
people feel that they should and they must speak up when they 
see something wrong. That is something I have done all my 
career, I have supported all my career, and I would continue to 
do if I were confirmed.
    Senator Brown. We had a significant--thank you for that. We 
had a number of problems when I first came to the Senate almost 
a decade ago in Dayton, one of the oldest VAs in the country. 
It was a lot about whistleblowers and we have to make sure, 
obviously, that they are protected.
    The last point I will make in my last minute, Mr. Chairman, 
I was pleased to see the VA move on the issue of 40 miles as 
the crow flies or driving 40 miles. Good step. Veterans, 
however, are being turned away if that VA sometimes does not 
have the particular specialized care that they need when it 
might be available somewhere else. I would ask, if you are 
confirmed, if you would work with the VHA to interpret the law 
so that veterans who are enrolled in the program are able to 
seek treatment at a medical facility that actually offers the 
necessary care, if you would commit to us to look at that law 
and work with us.
    Dr. Shulkin. Yes, Senator. I do recognize the concern of 
the veteran who has to--who has a facility within 40 miles, but 
they do not offer that type of specialized treatment, and I do 
think that, if confirmed, my goal would be to make sure that we 
find a way to get them services. That is going to probably mean 
a multitude of solutions. It is going to mean being able to get 
more specialty care out into the CBOCs, the 800 or so 
Community-Based Outpatient Clinics, that currently today do not 
have those types of facilities, use of technology, and use of 
other ways to make sure that we are serving the veterans in 
that way.
    Being able to legislate, or being able to interpret the law 
in a different way than was legislated is something that is 
probably beyond my area of expertise to comment on today, but 
certainly something I would look at.
    Senator Brown. Thank you, and Mr. Chairman, thank you.
    Chairman Isakson. Thank you, Senator Brown.
    For your benefit and the rest of the Members of the 
Committee and Senator Moran, who has been outspoken on this 
issue, we are working with VA staff now and we hope in a couple 
of weeks to have statutory language for the care you need being 
determined in such a way as to meet exactly what you said and 
exactly what Senator Moran has been looking for. So, the VA 
staff is working closely with our staff to do so and we look 
forward to that happening.
    Senator Blumenthal. I want to also thank both Senator Brown 
and Senator Moran for raising this issue as strongly as they 
have done.
    If I may just comment on the C-123 issue, if I may be so 
bold. Nothing will be a test of your effectiveness in this job 
than to have that policy changed as quickly as possible, which 
I am very, very glad that you agree with us, that we do not 
need to go through the legislative process, but it can be done 
by the VA. I hope that you will bring that message back to the 
Secretary and maybe you will effectuate change. Thank you.
    Dr. Shulkin. I understand.
    Chairman Isakson. Senator Tillis.

       HON. THOM TILLIS, U.S. SENATOR FROM NORTH CAROLINA

    Senator Tillis. Thank you, Mr. Chair.
    Dr. Shulkin, thank you for being here. I had a great 
meeting with you and enjoyed the discussion we had. 
Congratulations to you and to your family on the honor of being 
nominated. I look forward to voting in favor of your 
confirmation.
    Now, I am kind of new to this role, so I do not really know 
how the nominations process goes or how much due diligence you 
are allowed to complete before you decide whether or not you 
want to jump into the fire or the frying pan, but can you give 
me some sense of the amount of work that you did to kind of 
get--to understand what you are getting into, first, just in 
terms of due diligence.
    Dr. Shulkin. Yes, absolutely. This process, surprisingly, 
started toward the end of the summer of 2014. Since that time, 
I have worked to listen carefully, obviously, to only publicly-
available information, and many, many people have come forward 
to share their concerns, but overwhelmingly, their interest in 
working together and finding ways to make this work. I mean, 
this is an area that I am just amazed, whether it is 
corporations, individuals, organizations, my individual 
meetings with all of you, overwhelmingly suggests to me that 
everybody wants to see the problems in the VA fixed.
    Well, I have done a lot of reading. I have done a lot of 
listening. I have read the public briefings as much as I 
possibly could to be able to get up to speed. I feel like--
nothing like once you get into a job, I understand that, but I 
feel pretty well prepared, and I heard your comments last week 
about--in the GAO hearing about the major concerns that you and 
other Members of this Committee have about what has been going 
on in VA.
    Senator Tillis. Now, I am glad to hear that, and I am 
hoping that I have time to ask Ms. Council similar questions. I 
have another commitment, but I look forward to supporting her 
confirmation if I am not able to.
    But, with all that background, what does your first 90 days 
look like? What are your priorities going to be?
    Dr. Shulkin. Well, I think the priority of everyone who 
leads a health care organization is to provide safe and 
effective care, to make sure that the care is serving its 
customer, in this case, the veterans, and then planning for the 
future. So, while--those are the overarching aims.
    The real specifics are fix the access problem. No question 
about it, that has to be fixed. We cannot continue not to 
allow----
    Senator Tillis. Any ideas on how you are going to do that?
    Dr. Shulkin. Oh, absolutely. This is what I have been doing 
throughout my career. This is operations. This is being able to 
expand capacity, being able to use weekend and evening hours, 
being able to look at the issues. We have 11 percent no-shows 
in the VA, and I know how to deal with those issues. So, I 
think we can continue to make progress. Progress is being made, 
but we can continue to accelerate that.
    Second, as Senator Blumenthal said, the mental health 
issues are an absolute key priority.
    Third, as Senator Rounds was saying, to really help put a 
model in place, a new operating model to transform the VA from 
one that takes the best of the private sector and the best of 
what we do, which is extraordinary, in the VA system.
    Last and most important, really to work to restore the 
trust and confidence of not only the veterans--that is the most 
important--but also the people who work in VA, because I want 
the VA to be a place that people want to come to work and to 
serve the country.
    Senator Tillis. In your past experience, which is 
extensive, can you think of any major transformation or 
operational initiative that you consider to be successful there 
that has application here within the VA?
    Dr. Shulkin. Yes, Senator. I think throughout my career, I 
have taken on challenges that have shown, as I said, leadership 
commitments that are transferable to the situation. I think the 
most significant was when I went to Beth Israel in New York to 
be their CEO. This was an organization that was essentially 
deteriorating in its metrics, financially, quality-wise, and 
service-wise. Working together with the employees, the unions, 
the patients themselves, and the community, we were able to get 
that organization back on track with all those balanced 
measures of performance. So, I think it is some of those skills 
and learning from my failures--I certainly have had failures in 
the past--that will allow me to be able to help the 
organization.
    Senator Tillis. Dr. Shulkin, it sounds like you at least 
heard some of the comments that I made last week, and I hope 
that I can count on you to be one of the people that I will 
reach out to, along with Ms. Council and others, who are 
committed to truly understanding what it means to transform an 
organization, to break down barriers, to remove old practices, 
put in new best practices that exist. I hope I have your 
commitment to have your door open so that I can help you become 
an advocate on this Committee to really produce results.
    We know what needs to be done; we have to do it. It 
requires us to support you, but it requires you all to think 
differently and to get a lot of people in that organization who 
may think they are going to transcend us, to have another 
committee to talk to years from now, to understand now is the 
time to change.
    Dr. Shulkin. You have my commitment on that, Senator.
    Senator Tillis. Thank you.
    Chairman Isakson. Senator Tester.

           HON. JON TESTER, U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman.
    Dr. Shulkin, your resume is impressive. As I looked through 
it, I was trying to figure out what connection got you here. 
How did you get this appointment? Could you enlighten me on 
that?
    Dr. Shulkin. Yes, Senator. Five-and-one-half years ago, 
when I left my position as CEO of Beth Israel, you were looking 
for a new Under Secretary and I put my name in the hat then. I 
got pretty far down the process. At that point I really wanted 
to give back and to serve our veterans, serve the country. That 
has been in my fabric for a long time. But, I did not get the 
nomination; I became the CEO at Morristown.
    Senator Tester. Got you.
    Dr. Shulkin. Then, I watched over the past year, as you 
did, as this crisis unfolded, and it was very, very hard for me 
to sit on the sidelines. I said at that time, I really need to 
be able to do everything I can if I contribute.
    Senator Tester. Yes. Well, I appreciate your willingness to 
serve.
    Senator Tillis already asked the first question on what is 
on top of your agenda. You answered it well.
    You have to have a relationship with stakeholders, 
particularly VSOs and maybe, unfortunately or fortunately, 
either way, Congress. How will you approach that?
    Dr. Shulkin. Well----
    Senator Tester. On both of those.
    Dr. Shulkin. Yes. Yes, absolutely. You know, let me take 
Congress first. In my meetings with you, Senator, and my 
meetings with many of the people around this dias, I have to 
tell you, I came away feeling extremely optimistic, because 
each and every one of you really, I believe, wants to see a 
strong working relationship to make this system work better for 
its veterans, which was very encouraging to me.
    Senator Tester. Mm-hmm.
    Dr. Shulkin. I would commit, as several of you have already 
asked, to having an open relationship and really looking to 
have this relationship work together to make us serve the 
veterans better.
    Senator Tester. OK.
    Dr. Shulkin. Regarding the VSOs, I consider them a major 
gift. To have people that are that concerned and dedicated and 
willing to speak up and willing to meet, that is something that 
I am going to take every advantage of if I am confirmed.
    Senator Tester. So, your door will be open to them if they 
want to talk to you?
    Dr. Shulkin. Absolutely.
    Senator Tester. OK. You have been in the private sector, as 
president of a major medical center. What was your impression 
of the VA's relationship with local providers, maybe the last 
provider you worked for?
    Dr. Shulkin. Yes. Yes. I still am the CEO of----
    Senator Tester. Oh, sorry.
    Dr. Shulkin. No, that is OK----
    Senator Tester. What is the VA's relationship----
    Dr. Shulkin. Right. Right. Right. We have several VAs near 
us. We have the West Orange VA and the Lyons VA. We are there. 
We work with them when they cannot provide the services. We 
make sure that we have good continuity of care.
    Senator Tester. Is communication good?
    Dr. Shulkin. Communication is good, but I think that in a 
new VA, I think that we can do better than we have.
    Senator Tester. How about reimbursement for services?
    Dr. Shulkin. Slow. Adequate, but slow.
    Senator Tester. Do you think you can speed that up?
    Dr. Shulkin. Uh----
    Senator Tester. Do you think it is important to speed up?
    Dr. Shulkin. I think it is important that VA be seen as a 
good partner to the private sector, and that means good 
reimbursement and adequate reimbursement.
    Senator Tester. All right. One of the things that we have 
done here, right, wrong, or indifferent--we did it during the 
banking meltdown, we did it during the VA meltdown--is we went 
after staff. We talked about folks that need not be working at 
the VA anymore when, in fact, the folks who are incompetent, I 
think, are a small minority. I think this has had some impact 
on recruitment, and I think it has had some impact on 
retention, quite frankly, of the good people, the people we 
want to keep. Is there anything that you would do that would 
help with recruitment and retention----
    Dr. Shulkin. Yes.
    Senator Tester [continuing]. Other than what they are doing 
already?
    Dr. Shulkin. Yes. I do think we need to take some practices 
from the private sector and make sure that we are doing 
everything that we can to do recruitment.
    Senator Tester. What would those be?
    Dr. Shulkin. Well, I think that there are several. First of 
all, as you said, you have to have an environment that people 
want to come to work to.
    Senator Tester. Mm-hmm.
    Dr. Shulkin. VA is blessed by training 70 percent of all 
doctors, so they come through our doors. If they see an 
environment is one that puts patients first and cares about the 
people who work there, they are going to want to stay there. 
So, I think we have to fix our own internal house first.
    But, I think the best practices from the private sector 
regarding loan repayment--I know the Choice Act has essentially 
helped to address some of that.
    Senator Tester. Yes.
    Dr. Shulkin. We have to have competitive pay. I know that 
we are working on that. We have to be out there working with 
private outsourcing techniques. We have to have recruitment 
bonuses. We have to do the things that are going to make us 
competitive to get the very best people to want to work at the 
VA.
    Senator Tester. OK. Last question. We have got a shortage 
of medical professionals all over this country, particularly in 
areas of mental health. What can you do, more than the VA is 
already doing, to increase medical residencies, internships, I 
would say from a rural perspective, somebody else might say 
from an urban perspective.
    Dr. Shulkin. Yes. Well, two things. One is you have 
authorized us to have additional Graduate Medical Education 
spots. I think we have to be very strategic about where we are 
going to use those and how we are going to use them to make 
sure we are training professionals in the areas that we need 
and the specialties we need.
    But, second, I think our academic affiliations are 
absolutely critical, and I think working in areas like working 
with the University of Washington or working with the Billings 
Clinic or working with other academic centers, that is really 
something that has worked well for the VA and we have to 
continue to work to make that even stronger.
    Senator Tester. One more, which you can answer really 
quickly. Did you pay your taxes?
    Dr. Shulkin. Yes.
    Senator Tester. Thank you. [Laughter.]
    Chairman Isakson. Thank you very much for doing that.
    Senator Sullivan.

          HON. DAN SULLIVAN, U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman, and Dr. Shulkin, 
thank you for being willing to go through the confirmation 
process, willing to serve. I want to thank your family, as 
well. I know it is not always an easy process.
    Let me get to a very basic question. You obviously have a 
very impressive resume. The description of the job that you, if 
you are confirmed, would undertake is the Under Secretary is 
the highest official directly responsible for the largest 
agency within the Department of the Veterans Health 
Administration (VHA). You know, a lot of the members of the VA, 
particularly over the last couple years, have come here, sat 
before this Committee, been hammered, bad press, things like 
that. Why do you want this job?
    Dr. Shulkin. I want this job because I believe that it is 
my duty to serve those who have served our country, and second, 
because I believe I can help. There would be no other reason 
why I would want to be able to do this than to really give back 
and to make a difference.
    Senator Sullivan. Good. I would like to ask a more specific 
question. So, I come from Alaska. We have the highest number of 
veterans per capita of any State in the Union. We are very 
proud of that. A lot of them are actually doctors who served in 
the Air Force, Army, stayed in Alaska because they see what a 
beautiful place it is, wonderful place.
    By the way, if you are confirmed, I would welcome a 
commitment from you to get up to Alaska soon and see what is 
going on up there.
    Dr. Shulkin. I have never been. I would absolutely commit 
to coming and seeing Alaska.
    Senator Sullivan. Good. Great.
    Senator Blumenthal. Connecticut is closer.
    Dr. Shulkin. It is. [Laughter.]
    Senator Rounds. South Dakota is on the way. [Laughter.]
    Senator Sullivan. None are as big, though. [Laughter.]
    One of the things that--I am a lawyer and I, at one point 
in my career, actually tried to be a doctor, but found out I 
was not smart enough. But, our doctors--I have heard this from 
a number of doctors--they see the problems in the VA. Some of 
them are veterans. A lot of them are veterans, as I mentioned. 
They want to help. If you are an attorney, you want to help. As 
a matter of fact, most attorneys have pro bono legal 
requirements. They are supposed to go do public service, go 
help. If you are a doctor and you want to help the VA, my 
understanding from talking to doctors is the VA does not want 
your help. You cannot even volunteer to help the VA if you are 
a world class surgeon.
    Dr. Shulkin. Hmm.
    Senator Sullivan. Do you think that is a problem? Do you 
think that is a culture of accepting the kind of people who 
want to help with regard to the system?
    Dr. Shulkin. Umm, Senator, I was not aware of that----
    Senator Sullivan. Well, I might be wrong, but I have heard 
that from a number of folks. I have talked to the Secretary 
about it.
    Dr. Shulkin. When I mentioned that during this process I 
have talked to people, I cannot tell you the amount of people 
who have said exactly that; doctors, my dad being one of them, 
who said, ``I would like to come and help as a psychiatrist.'' 
I did not know that that was a problem, and if confirmed, I am 
going to try to find out the reason why, because, frankly, we 
need the help.
    Senator Sullivan. Right.
    Dr. Shulkin. We have to have standards for--we cannot let 
everybody come in. They have to be competent and they have to 
be qualified to help. But, if they are competent and qualified 
and they want to help this country and help the veterans, I 
want to find out why.
    Senator Sullivan. Good. I would like your commitment on 
looking at that issue. We should be addressing that issue. 
That, to me, seems like a cultural issue, not an issue that 
makes a lot of sense. If we have a lot of doctors in this 
country, which we do, who want to help, who want to give free 
time to help our veterans, we should not make that hard on 
them. We should make it easy on them. So, if you can commit to 
that, I think that is important.
    Dr. Shulkin. I will commit to look into that, Senator.
    Senator Sullivan. Mr. Chairman, I am looking at my clock 
here. I am not sure which way it is going. It seems to be kind 
of going backwards, so I am trying to figure out how much time 
I have left.
    Chairman Isakson. It is going back and forth. I cannot 
figure it out, either. [Laughter.]
    Senator Sullivan. OK. I will keep talking until I am told 
to be quiet.
    Chairman Isakson. I think you have got 2 minutes.
    Senator Sullivan. Thank you, Mr. Chairman.
    You know, Chairman Isakson and Ranking Member Blumenthal 
have been very focused, which we all have been, on the issue of 
suicide, and already had the President signing the Clay Hunt 
Suicide Prevention Act. But, as Senator Blumenthal mentioned, 
that is a downpayment, right. We have got a lot more work to do 
than just that Act.
    As you know, on average, 22 veterans per day commit 
suicide. That will be, on average, two that will have happened 
during the course of this hearing. Yet, I think, there is some 
good news. The American Psychiatric Association recently had a 
report that talked about the veterans who actually get into the 
VHA for these kind of issues, who see somebody, have a much, 
much lower rate of suicide than those who do not.
    How can we further look at fixing that, particularly when 
we know that if our veterans see the right people in the 
system, it is going to help right there?
    Dr. Shulkin. Right. Right. I think you are correct. One of 
the things that is going well within VA are the effective tools 
like our Crisis Intervention Centers, like our Counseling 
Centers, our Adjustment Centers that are out there. But, if we 
are not connecting with people, if we are not getting them into 
VA, then that is what I think our highest-risk veterans are, 
particularly for mental health disorders.
    I think that as we have talked about today, we have to 
focus on getting the right number of individuals who are mental 
health professionals into the system, making sure that we 
identify those that are at highest risk, and we are not doing 
that early enough, and making sure that our treatments are 
effective. And, I think, one of the things about VA is using 
our research in this area and then putting it into clinical 
action.
    Senator Sullivan. Thank you. Just one more final quick 
question. I know my time is out. You have run a lot of major 
health organizations. Give me a sense of how you have in the 
past and how you can in the future help change the culture of 
an organization, particularly an organization this large, 
which, to be honest, needs some cultural changes, which are not 
always easy to implement.
    Dr. Shulkin. Yes. Yes. Culture, no doubt, is hard to 
change, but I think we all know in the VA system that is one of 
the reasons why we got into the trouble we did. So, I think the 
way that you go about changing culture is making sure that you, 
as a leader: articulate your priorities; you back up your 
actions by essentially walking the walk on there; you regularly 
communicate and make sure that you are in contact; and that you 
are out there in the field and you are listening, because no 
one wants to be spoken to. People want to be listened to. 
Working with our VSOs, working with our unions, working with 
our employees, our veterans groups, working with all of you, I 
think that is the way that you stay consistent on point to be 
able to change culture.
    Senator Sullivan. Great. Thank you.
    Thank you, Mr. Chairman.
    Chairman Isakson. Senator Manchin.

     HON. JOE MANCHIN III, U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you very much, Mr. Chairman, and 
thank you, Dr. Shulkin and your family, for having the desire 
to serve your country, and I appreciate that very much.
    I am sure you are aware that prescription drug abuse is a 
crisis in America. In the State of West Virginia, it is the 
number 1 killer we have. It is not what is being dealt 
illegally on the street; it is what is coming out of the 
medicine cabinet. So, this is a very important issue for me.
    I hear from veterans every day, especially those with 
PTSD,--which we have so many being diagnosed--as well as 
Traumatic Brain Injuries, chronic pain, and mental health 
issues. They are often given one prescription after another, 
which is having a devastating effect on them and their 
families. If you look at the highest unemployment rate in our 
veterans, it is because, I think, a lot of this addiction. I 
think we are to blame, not intentionally, but it is basically 
the culture we live in.
    I am finding that the VA does not always offer an 
alternative to drugs. I mean, anymore, you can go to a dentist 
and they will give you oxycontin. It is just ridiculous.
    In West Virginia, according to the information provided by 
the VA, at the Beckley VA medical center there are zero 
alternative treatments available. At the Clarksburg hospital 
there is only one.
    So, I guess my question would be, sir, are you looking at 
other effective treatment plans? Because I would think that for 
us to attack culturally the prescription drug abuse that this 
country is experiencing right now and us being able to provide 
a clean generation of young adults, if we look to VA, if we 
look to Medicaid and Medicare, those three are about the 
largest in the world as far as health care delivery. If we 
change the culture of what we prescribe and how we prescribe 
it, I think we can make a tremendous change in the whole 
concept of the problem. Are you looking at that? Are you 
familiar with that? Or, would you look at something about 
alternative prescriptions--basically, not drugs--alternative 
areas of handling PTSD, some of the effects we have, and 
chronic pain?
    Dr. Shulkin. Yes, Senator. I recognize that this is a very 
important problem, and as you mentioned, this is not just a 
problem within VA. This is a problem in all of health care 
right now.
    Senator Manchin. Sure.
    Dr. Shulkin. In fact, the percentage of patients on 
narcotics in VA is actually lower than in the private sector. 
The doses are higher, but actually, the percent is lower.
    But, I do think that you have identified a key area. We 
have to be looking at alternatives and we have to make sure 
that those practices, those best practices are disseminated 
throughout VA with mandatory training, and if you have the 
ability to prescribe those drugs, you have to go through 
programs and academic detailing that I know VA has begun to 
start rolling out throughout the organization. Then, effective 
surveillance so we can detect when there are problems earlier, 
which is something that we always have not done in the past.
    Senator Manchin. On that, you testified that you were 
troubled hearing about the many problems our veterans were 
experiencing. I have heard that many times. Like you, I am also 
troubled by these problems. Right now, I am carefully watching 
how the VA deals with a problem that we are having in Beckley, 
in the Beckley, West Virginia VA medical center.
    A couple of weeks ago, the Office of Special Counsel 
released a report that substantiated allegations of switching 
antipsychotic drugs based solely on cost. I am sure you have 
been brought up to speed on this.
    Dr. Shulkin. Yes.
    Senator Manchin. Even the providers would provide drugs 
they knew were effective and the patients, our veterans, were 
not getting it because someone made, at the executive level, a 
decision that that is too costly and we will not support it.
    Dr. Shulkin. Right.
    Senator Manchin. What steps would you take and could you 
take, and how quickly can you do that to retrofit this problem?
    Dr. Shulkin. Right. Well, I am sure you know, being a 
nominee and not confirmed, I do not have all the details, but I 
did hear this talked about in one of the recent hearings. I 
know that there is an ongoing investigation. I know that that 
practice, if it is found to be confirmed as the facts as we 
understand them today, is not an acceptable practice. Steps 
need to be taken, both disciplinary----
    Senator Manchin. Doctor, the way I am understanding where 
it is coming from, is coming from the executive, administrative 
branch. They are saying, basically, because of our cost 
constraints, no matter what the doctor may prescribe, we are 
not offering those because they are much more expensive. 
Instead, we will offer these. They have been proven in many 
cases, but the doctors have said that has not worked and they 
are being overridden by administrative decisions----
    Dr. Shulkin. Yes.
    Senator Manchin [continuing]. In the VA, which would not be 
allowed in the private sector.
    Dr. Shulkin. Yes. Yes. Well, you know, Senator, prescribing 
drugs that are not effective is not good medicine, and if 
confirmed, my only support is going to be for practices that 
support good medicine. So, if those are practices that are 
ongoing, I would not be supporting those practices. It is 
important that people get the right medications.
    Senator Manchin. Well, Doctor, I think you are going to 
enjoy bipartisan support, which is not that readily available 
here.
    Dr. Shulkin. Thank you.
    Senator Manchin. Because of the quality of your past 
practices and, basically, your professional standing and also, 
I think, all that you have accomplished in your life, it is 
going to be a breath of fresh air. The drug problem is a severe 
problem in our culture and with veterans, too. We need to help 
defeat that. I thank you very much, sir.
    Dr. Shulkin. Thank you.
    Chairman Isakson. Senator Moran.

           HON. JERRY MORAN, U.S. SENATOR FROM KANSAS

    Senator Moran. Mr. Chairman, thank you very much, and to 
the Ranking Member, Mr. Blumenthal. My understanding is before 
I came in, you indicated opposition to the issue of 
transferring money from the Choice Act to the cost overruns at 
the Denver VA and I would like to associate myself with your 
remarks.
    Dr. Shulkin, thank you very much for your interest in 
serving in this capacity. Thank you for caring about veterans 
in a way that lends itself to your willingness to become a 
significant part of the VA's effort to meet their needs.
    Let me ask, because as I was walking in, you were answering 
a question from the Senator from Ohio, Senator Brown; you were 
talking about the 40-mile issue, which is one that this 
Committee spends a lot of time and attention on. You were 
talking about finding other ways to meet those veterans' needs, 
which I am not opposed to, but what I want assurance on is that 
that is not the theme of solving this 40-mile--there is still a 
reason to allow veterans who live more than 40 miles, some 
distance from a VA facility, to access community care, and part 
of what I heard you say in response to Senator Brown was that 
we are going to be finding other ways to meet those veterans' 
needs. You talked about telemedicine, specialized services, 
extending weekends and longer days.
    Again, I am not opposed to that, but I would like to hear 
you tell me that that, in and of itself, is not the complete 
solution to the problem, particularly in a State like Kansas. 
The distance between--I represented a Congressional district 
before being elected to the U.S. Senate. The Congressional 
district is larger than the State of Illinois. There is no VA 
hospital in that district. So, distance matters. What I would 
like to hear you say is to confirm that you understand there 
still is a role despite all these other things the VA might do 
for allowing veterans to access health care in their home 
communities because of distance or because of timeliness.
    Dr. Shulkin. Yes. Senator, I think if you put the health 
needs of the veteran as the primary goal, that is going to 
drive you to finding the solutions. I do think, again, watching 
this from the outside where I sit today, I think the VA took 
the right steps in making the adjustments from the 40-mile 
change from as the crow flies to how you drive.
    I know the people who work in VA want to see veterans get 
the right care and get it in their communities and I am 
committed to doing that. I do know that if we make changes that 
the Office of Management and Budget have estimated huge, tens 
of billions of dollars changes. My role, if I am confirmed, 
would be to put the veterans' health care front and center, but 
to do it in a way that evaluates all the options to use this 
country's resources to the very best way possible and that is 
the commitment that I would do if I were confirmed.
    Senator Moran. Well, certainly, we want to do whatever we 
do in a cost-effective, cost-appropriate way. We are still 
looking at--we have been asking for cost estimates of changing 
the 40-mile rule probably before you were nominated, and 
certainly before you were being considered, and we are still 
looking for details on how the VA calculates what it would cost 
to, in my view, appropriately implement that provision about a 
facility within 40 miles, even though the facility does not 
provide the service the veteran needs. We will continue to seek 
that information from the Department.
    But, what I want to hear from you is that you understand 
that there are veterans, when you are--if you are confirmed and 
your goal is to put the veteran first, you do recognize there 
are veterans that would benefit from the Choice Act and having 
care at home, in their home community, if that is what they 
choose.
    Dr. Shulkin. That is my commitment and I think you have 
articulated it right. It would be my goal, if I am confirmed, 
to understand this, along with you, in a way that would allow 
us to evaluate those best options.
    Senator Moran. Part of the--I mean, there is skepticism, 
for me, at least, about the VA's commitment to Choice, hometown 
services, and one of those things is the suggestion that we use 
part of the money from the Choice Act to pay for the cost 
overruns in Denver. Now, my understanding is the suggestion 
from the VA to do that was on the--we appropriated $15 billion, 
$5 billion of that to increase the number of professionals at 
the VA to provide services, $10 billion to pay for the Choice 
Act at home, and my understanding that the Aurora, CO, hospital 
is the part that would come from the $5 billion that is for 
providing hiring medical care.
    What I would remind you in this circumstance is that we 
have waited for 4 years for a physician to be recruited to an 
outpatient clinic in Kansas, the Liberal CBOC. So, it is 
troublesome when we discover that $5 billion is coming the VA's 
way, but we are still 4 years away from having a physician at a 
CBOC in Kansas. We are still awaiting an emergency room at the 
Topeka Veterans Hospital, the Cotton-O'Neil Hospital, which 
closed about 2 years ago for lack of personnel. So, the 
struggle that I always have is I want to make certain the 
commitment is to fulfilling the needs of the veterans, 
particularly with $5 billion that is designed to hire more 
people at the VA.
    Dr. Shulkin. Senator, I absolutely hear and understand the 
concern. Having facilities or buildings without doctors and 
appropriate staff does not do anybody any good. The Choice Act 
was legislated with certain purposes in mind. I think that VA 
is committed to trying to find a way to open up, to finish the 
Denver debacle. But, to leave it half-built, I do not think 
serves anybody well, either.
    I think that right now, people are putting solutions on the 
table. I think the overriding way that you make decisions is by 
saying that the care for the veterans has to be front and 
center and we cannot sacrifice that, but we are going to have 
to find a way to figure out where we can find the resources to 
finish the VA hospital in Denver.
    Senator Moran. Dr. Shulkin, my time has expired and I look 
forward to finding solutions to those problems by working with 
you. Thank you.
    Dr. Shulkin. Thank you.
    Chairman Isakson. Senator Hirono.

         HON. MAZIE K. HIRONO, U.S. SENATOR FROM HAWAII

    Senator Hirono. Thank you, Mr. Chairman. It is good to see 
you again, Doctor.
    There is an understanding that our women veterans have 
particular kinds of needs, and I would like to have your 
commitment, should you be confirmed, that you will ensure that 
women veterans have better access to the full range of gender-
specific services from the VA.
    Dr. Shulkin. Yes, Senator. Nine percent of our veterans are 
women and it is an area that I think VA has been catching up 
on, which I think they have had some very strong efforts. They 
have trained over 2,000 providers now in women's health care 
issues. My commitment would be to continue to support and 
accelerate those efforts.
    Senator Hirono. The support for women veterans is a 
particular interest of this Committee, as the Chairman did have 
a hearing specifically focused on the needs of women veterans.
    This is a vast system that you will be in charge of, and it 
is probably bigger than any other arena that you have worked 
on. I realize that your commitment to make a difference is 
clear, but I am wondering whether you bring or you have a 
particular trait or an ability that you bring to this huge 
system that will enable you to succeed.
    Dr. Shulkin. Senator, I would say that single trait is that 
I do not give up. You know, I am absolutely committed that we 
have to fix this, we have to make a difference. I think the 
trait that helps me is that I believe in empowering people, 
creating a strong leadership team that shares the goals and the 
mission that the VA has which is a noble mission. We are going 
to make a difference.
    Senator Hirono. Since you mentioned the goals of the VA, 
one of the key issues highlighted by the Government 
Accountability Office's (GAO) High-Risk Report and the GAO's 
testimony is the ambiguous policies set at the national level. 
It is one of the reasons that we heard that there are different 
clinics and hospitals, VA hospitals, that were doing things 
very differently where we could not even compare apples with 
apples.
    So, do you know if there is anyone at the VA right now who 
is tasked with creating or clarifying the policy to ensure that 
the best practices are followed and that we are able to ensure 
that the care across the board--we understand that there are 
certain localities that may have, you know, they would want 
flexibility--but do you know if there is anyone at the VA who 
is already doing this? Should you be confirmed, would this be a 
responsibility that you would want to see through?
    Dr. Shulkin. Yes. I do believe the Chairman actually asked 
this question, and at that hearing somebody was identified. 
Unfortunately, I do not know the individual, but I do believe 
there is. If I was confirmed, I would certainly want to get 
together with her and make sure that there is a clear sense 
about accountability for not only addressing the ambiguous 
policies and procedures, but the other areas that the GAO 
report defined.
    I think, Senator, the nice thing about what the GAO has 
done for VA is it is now an open book test. It is pretty clear. 
There are 100 recommendations.
    Senator Hirono. Yes.
    Dr. Shulkin. We have got to get them done. There has to be 
accountability. That should be done quickly, and that would be 
something, if I was confirmed, I would be committed to seeing 
through.
    Senator Hirono. Good.
    I have a question for LaVerne Council. I believe she is 
here. Ms. Council, I am working on a proposal to automate 
survivors' benefits that would provide VA authority to initiate 
and pay veterans' survivor compensation claims without receipt 
of a formal application whenever sufficient evidence is of 
record to begin processing such claims. We have heard from 
claimants that there is delay, et cetera. This change is 
essential to automating payments of certain survivor benefits. 
Do you have any thoughts on the technology necessary to support 
such an automated system and whether a system could be 
implemented for all VA benefits?
    Chairman Isakson. Ms. Council is going to testify in just a 
minute. She is not yet under oath.
    Senator Hirono. Oh, I am sorry.
    Chairman Isakson. No, that is quite all right. Are you 
going to be able to stay a minute?
    Senator Hirono. Yes.
    Chairman Isakson. Then I will defer to you for the first 
question, OK.
    Senator Hirono. Thank you.
    Chairman Isakson. That will give you time to think about 
it, Ms. Council. [Laughter.]
    Senator Hirono. Yes. Well, one last question. We know 
that--you mentioned, Doctor, that getting the veterans into the 
system is really important, and we have heard that it is not 
that easy to identify who the veterans are. A lot of them are 
not in the system, and there is a thought about issuing 
identification cards, perhaps before they depart from active 
duty. Is this something that you think has merit and would you 
work with the Department of Defense in figuring out how best to 
make sure that the people who are exiting the active service, 
whether they can be deemed to have the full panoply of 
veterans' benefits, that at least they will have a card of some 
sort that they can bring to the VA so that you at least have 
that verified, that they actually were in the military.
    Dr. Shulkin. Yes, Senator. This seems like a solvable 
problem. You know who is serving in our military and you know 
that you want to connect them, and right now, we have a gap in 
between. So, if confirmed, I would be committed to finding a 
best mechanism to connect them, and looking into the 
identification card issue makes sense to me. I would certainly 
commit to looking into that and working with DOD to fix this.
    Senator Hirono. I would certainly like to follow up with 
you on that.
    Dr. Shulkin. OK.
    Senator Hirono. Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Hirono.
    Dr. Shulkin, I want to thank you for your time and 
comprehensive answers. As you leave and Ms. Council comes 
forward, I want to remind you of a quote I wrote down that you 
mentioned about 35 minutes ago. You said, ``My focus is first 
on the veterans' priorities.'' That is exactly what we want you 
to do, and the veterans' priorities are timely appointments, 
good quality outcomes, and a VA health care system that is 
responsive.
    The Veterans Choice Act was what we passed as a Congress 
when the Veterans Administration had failed in appointment 
times, consults, and results. We hope you will be just as 
committed as you indicated in your statement to making those 
things work in Veterans Choice.
    Dr. Shulkin. I will. Thank you, Senator.
    Chairman Isakson. Thank you for your testimony.
    Ms. Council, please come forward. We will take a quick 
break so our Clerk can put a name tag up there. [Pause.]
    If you will raise your right hand. Do you solemnly swear or 
affirm that the testimony you are about to give before the 
Senate Committee on Veterans' Affairs will be the truth, the 
whole truth, and nothing but the truth, so help you God?
    Ms. Council. I do.
    Chairman Isakson. Please be seated.
    You have demonstrated great patience for an Information 
Technology person in going second. We are delighted to have you 
and I will recognize you for your opening statement.

  STATEMENT OF LAVERNE H. COUNCIL, NOMINATED TO BE ASSISTANT 
 SECRETARY OF VETERANS AFFAIRS FOR INFORMATION AND TECHNOLOGY, 
              U.S. DEPARTMENT OF VETERANS AFFAIRS

    Ms. Council. Thank you very much. Chairman Isakson, Ranking 
Member Blumenthal, and distinguished Members of the Committee 
on Veterans' Affairs, and veterans here and around the country, 
thank you for the privilege to appear before you today. I am 
honored to be nominated for the position of Assistant Secretary 
for the Office of Information and Technology at the Department 
of Veterans Affairs.
    I would like to take a moment just to recognize my best 
friend and husband of over 25 years, Bennie. Bennie and I are 
blessed with one lovable and joyful son, Troy, and one 
surviving parent, my mother-in-law, Corrie.
    Chairman Isakson. Now, is Troy here?
    Ms. Council. No. Troy could not make it.
    Chairman Isakson. Welcome. We are glad to have you, Bennie, 
and thank you for your support of your wife.
    Ms. Council. I truly appreciate the confidence of President 
Obama and Secretary McDonald in nominating me for this 
position. I am fully committed to bringing my experience as a 
global executive in the development and execution of high-tech 
and health care technologies to the VA.
    This role is an incredible opportunity for me, given my 
family's history of service to this country. You see, my father 
was a Navy veteran. My stepdad serves--retired from the Army 
after 20 years of service. My father-in-law served in the Air 
Force. Last year, my nephew retired from the Navy after over 20 
years of service. I represent a family that believes in this 
country and is willing to step forward when needed.
    Although I have not personally served in the Armed 
Services, I was raised and influenced by many in my family who 
willingly served the country to protect the privileges we 
benefit from today. I have learned a lot from veterans, from 
how to make the perfect bed to how to hold my head up and be 
proud of who I am. Now, it is my time to serve them.
    Over the last few weeks, I have had the opportunity to meet 
with many of you and have learned a lot. I have a better 
understanding of your concerns and priorities for the VA. You 
are looking for a secure, high service, accountable, and 
responsive organization. If confirmed, I plan to bring all of 
my experience and leadership to the IT team and quickly work 
with them to develop and implement a road map that will enable 
Secretary McDonald's vision to provide excellent customer 
service to veterans.
    I believe that good technology requires solid engagement 
with people and focused processes that are developed to meet 
the veterans' needs. My focus will be to ensure that the team 
is fully engaged in working on the problems within IT and on 
implementing solutions to create effective interfaces to our 
veterans' and user communities.
    Great technology requires solid engagement with people and 
sound business processes. When you have these two attributes, 
not only do you get a system to be proud of, you get a system 
that makes everyone proud because it is seamless and invisible. 
It is not the topic, but the enabler. Great systems provide 
insights and free up the clinician or benefits processor to 
provide the answers needed.
    During my career, I have had the responsibility for leading 
some of the largest global technology groups in the world. I 
brought solid leadership to the forefront by collaborating with 
the business leaders to meet the goals and expectations of the 
user, but most importantly, the customer. We developed high 
quality, secure solutions and processes for our enterprise.
    This required three core practices within IT: the first 
being transparent governance; the second being accountable risk 
management; and the third being team-enabled innovation. When 
these three capabilities are in place, IT works best.
    If confirmed, I plan to bring these core capabilities to 
the VA and create a fiscally responsible organization led by 
employees that have the ability to quickly drive to the 
expected results.
    We are best when the customer, in this case the veteran, is 
the focus of the solution. The ability to put the core 
recipient first has always been my driver. Good technology is 
secure and steps up the big challenges, not with complexity, 
but with simplicity that can only lead to excellence. It 
requires courage and curiosity and a willingness to fail fast 
and move forward. It also requires a ``can do'' spirit and a 
passion for success.
    If confirmed, I will bring this insight and my passion to 
benefit the VA and our veterans everywhere.
    Thank you, Chairman Isakson, Ranking Member Blumenthal, and 
Members of the Committee on Veterans' Affairs for your time 
today. I look forward to answering your questions.
    [The prepared statement of Ms. Council follows:]
 Prepared Statement of Ms. LaVerne H. Council, Nominee to be Assistant 
  Secretary of Veterans Affairs Office of Information and Technology, 
                  U.S. Department of Veterans Affairs
    Chairman Isakson, Ranking Member Blumenthal, Distinguished Members 
of the Committee on Veterans' Affairs, and veterans here and around the 
country--Thank you for the privilege to appear before you today. I am 
honored and humbled to be nominated for the position of Assistant 
Secretary for the Office of Information and Technology at the 
Department of Veterans Affairs.
    I would like to take a moment to recognize my husband of over 25 
years, Bennie. Bennie and I are blessed with one lovable and joyful 
son, Troy, and one surviving parent, my mother-in-law, Corrie.
    I truly appreciate the confidence of President Obama and Secretary 
McDonald in nominating me for this position, and I am fully committed 
to bringing my proven experience as a Global Senior Executive in the 
development and execution of healthcare and Hi-tech information 
technology strategies to the VA.
    This role is an incredible opportunity for me given my family's 
history in service to this country. My father was a Navy veteran; my 
stepdad retired from the Army after 20 years of service; and my father-
in-law served in the Air Force. Last year my Nephew retired from the 
Navy after over 20 years of service. I represent a family that believes 
in this country and is willing to step forward when needed.
    Although I have not personally served in the Armed Services, I was 
raised and influenced by many in my family who willingly served this 
country to protect the many privileges we benefit from today. I have 
learned a lot from veterans, And now it is my time to serve them.
    Over the last few weeks, I have had the opportunity to meet with 
many of you and I have a better understanding of your concerns and 
priorities for the VA. You are looking for a secure, high service, 
accountable and responsive organization.
    If confirmed, I plan to bring all of my experience and leadership 
to the OI&T team and quickly work with them to develop and implement a 
roadmap that will enable Secretary McDonald's vision to provide 
excellent customer service to Veterans. I believe that good technology 
requires solid engagement with people and focused processes that are 
developed to meet the veteran's needs. My focus will be to insure that 
the team is fully engaged in working on the problems within IT and on 
implementing solutions to create effective interfaces to our veterans 
and users communities.
    Great technology requires solid engagement with people and sound 
business processes. When you have these two attributes not only do you 
get a ``System'' to be proud of . . . you get a system that makes 
everyone proud because it is seamless and invisible. It is not the 
topic, but the enabler. It provides insights that were not expected and 
frees up the user (i.e., clinician, benefit analyst) to provide the 
answers needed.
    If confirmed, I plan to create a roadmap that the team can 
successfully follow well beyond my time in this role to insure 
interoperability and continued delivery to the veteran. I also hope to 
show how agile and new technical strategies can result in useful 
solutions that will support the needs of the veteran faster than 
previously believed.
    What I like about IT and what makes it so frustrating for so many 
is that the science is new and ever changing. It requires people that 
do not fear the new frontier but that understand the life cycle of 
technology to know how to bring the best in class to bear on behalf of 
those that have given their best.
    During my career I have had the responsibility for leading some of 
the largest global technology groups in the world. I brought solid 
leadership to the forefront by collaborating with the business leaders 
to meet the goals and expectations of the user and most importantly the 
customer. We developed high quality; secure solutions and processes for 
the enterprise. This required three core practices within IT: 
Transparent Governance, Accountable risk management and Team enabled 
innovation. When these three key capabilities are in place IT works 
best.
    If confirmed, I plan to bring these core capabilities to the VA and 
create a fiscally responsible organization led by employees that have 
the ability to quickly drive to the expected results. This will also 
increase the ability to attract and maintain highly qualified 
personnel, which is a requirement if you hope to have world class IT.
    I have always enjoyed addressing tough challenges and have worked 
very hard to maintain problem-solving skills that support the 
capability to merge strategic, operational and tactical initiatives to 
drive growth and innovation. I am best when the customer--and in this 
case, the veteran--is the focus of the solution. The ability to put the 
core recipient first has always been my driver.
    Good technology is secure and steps up to big challenges not with 
complexity, but with simplicity that can only lead to excellence. It 
requires courage and curiosity and a willingness to fail fast and move 
forward. IT also requires a can do spirit and a passion for success. If 
confirmed, I will bring all that insight and my passion to benefit the 
VA and our Veterans everywhere. Thank you.
                                 ______
                                 
    [The Committee questionnaire for Presidential nominees 
follows:]





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                ------                                

    [A letter from the Office of Government Ethics follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                ------                                

    [Letter from LaVerne H. Council to the Office of General 
Counsel, U.S. Department of Veterans Affairs:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Isakson. Thank you, Ms. Council. We welcome you. 
And, as I promised Senator Hirono, I will let her ask her 
question now.
    Senator Hirono. Thank you very much, and again, I apologize 
for jumping the gun.
    Since you already heard the beginning part of my question, 
this has to do with enabling the VA to automate certain kinds 
of, in this case, survivor benefits. I think it would be really 
helpful if there was a system that could then also automate 
other benefit payments. So, is this something that you would 
like to opine upon? Do you have--since I expect you to be 
confirmed----
    Ms. Council. Thank you, Senator Hirono, and thank you for a 
second opportunity to answer that question. I do believe that 
good processes should be enabled by systems, especially where 
it makes sense. Having an enterprise architecture, a process 
that everyone can follow to know what would happen, especially 
in survivors' benefits, really makes a difference.
    As a child of a mom who had to leverage those benefits, and 
as a person that has engaged with many veterans and spouses who 
have leveraged those benefits, it can be very difficult today. 
I would like to see it be easier and I think technologies can 
enable that.
    Senator Hirono. Yes, and especially as so many payments, 
for example, Social Security payments that go out to millions 
of people in our country are automated, so this would be an 
area where I think we can really help our beneficiaries in a 
much more efficient way.
    Mr. Chairman, may I go on, or do I just get to ask that one 
question----
    Chairman Isakson. No, you may. I am going to let you go 
first. You go ahead. You have got 3 minutes and 26 seconds.
    Senator Hirono. Thank you.
    Now, I am sure that you have also heard of the millions and 
millions of dollars that have already been put into, basically, 
to improve the electronic record of our active duty and then 
our veterans between DOD and VA and we are still not there. 
Would this be a responsibility that you would have, assuming 
that this is still a goal for both the VA and the DOD? I think 
it is a good goal, but apparently rather elusive.
    Ms. Council. Yes. That is a question that has been raised, 
and if confirmed, one of the focuses of my time would be to 
ensure that handshake between the active duty servicemen and 
the VA prior to them leaving active duty. I believe that the 
best information is information that is gotten at point of 
disposition, which means well before the person actually needs 
the benefit. That is probably the best way for us to ensure the 
accuracy of the data, and I think data should be the focus, not 
systems. This is a data accuracy, a data interoperable 
question, and I think there are ways with new technology that 
we can do that securely and also engage the active servicemen 
to let them know what their benefits and opportunities are with 
the VA well before they need them.
    Senator Hirono. I think that if we can develop a way that 
the information for the active duty person, all of the medical 
information, et cetera, could be in more of a data kind of a 
way, computerized in some way, because an issue is that they 
constantly--it is paper being shuffled back and forth where 
claim documents are lost. It is highly frustrating. So, if we 
can develop a way for the information to be input, as so much 
information currently already is in other arenas, I think this 
would be a really fantastic step forward for our active duty 
who are going on to veteran status. I hope that this is 
something that you would work on.
    One of the issues that also keeps coming up with the 
veterans that I meet with is that they do not have access to 
enough information as to the kinds of programs that they can 
apply for and qualify for. Not all of them, for example, have 
computers, but that is one of the best ways that we can reach 
them.
    I realize that you are going into an information technology 
position, should you be confirmed, but the whole idea of how we 
can transmit information not just electronically or through the 
Internet but in some other ways, would that also--would those 
other methods be within your scope of responsibility?
    Ms. Council. One of my beliefs is that as an executive in 
any role, you have a responsibility to figure out how to get 
things done, not just what is in your area of control. I think 
that through mobility, smart phone usage, which most people 
have today, as well as smart devices that now can read and give 
you information on your medical well being, there are ways to 
get information utilizing technology that can help the veterans 
stay healthy, share with the doctor where the veteran is, as 
well as engage them on how and what they need to do as far as 
their services. So, I think we have opportunities and I would 
look forward to looking into that.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Hirono. Thank you very 
much.
    Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman.
    As you probably know, Ms. Council, there has been repeated 
criticism, perennial criticism, of the lack of seamless 
interoperability between the VA and the Department of Defense, 
and I wonder if you could tell the Committee what steps you 
intend to take to make sure that this system works better so 
that veterans who leave the military have the benefit of all 
their medical records, the continuity of care they need and 
deserve, both with respect to treating physicians and 
pharmaceutical drugs.
    Ms. Council. Thank you, Senator Blumenthal, for that 
question. This is something that has arisen as I have talked to 
many of you over the last few weeks, and the need to have that 
handshake and the transference of information is real. I think 
the focus initially was on the development of a system, but the 
reality is, is really the sharing of the data and having 
accurate data follow the individual as they move through their 
lifetime. That is how we have to look at it.
    We would have to manage this in many ways like the 
experience I had managing the supply chain. You do it from the 
beginning to the end and the data stays with the person. With 
today's capabilities through everything from cloud technology 
to--it will change the interoperability flow.
    I think there are some real opportunities for us, and 
fundamentally, under the MyVA program, which is part of 
Secretary McDonald's strategy, that creates an opportunity for 
us to really have that handshake and carry that information 
through with the veteran, again, well before they become--well 
before they leave the active services.
    Senator Blumenthal. My understanding is that the two 
systems still do not mesh properly----
    Ms. Council. Yes----
    Senator Blumenthal [continuing]. Is that correct?
    Ms. Council. That is correct. That is also my 
understanding.
    Senator Blumenthal. So, my question to you, with your 
expertise in the IT area, is where steps need to be taken, what 
those specific steps are. Is it software? Is it hardware? Is it 
other possible deficiencies?
    Ms. Council. No, I think it is data, and that is my point. 
I think it is not necessarily interoperability of the systems. 
It is interoperability of the data, and that would be the first 
thing we would go after is giving access to the active service 
veteran to get the data as well as working with the DOD on 
getting the data accurate so we can have it for the lifespan. I 
was not being clear, but that will be the way that we will get 
that handshake. Versus trying to make two systems work, you 
make the data work, and you move the data, you use the data, 
you analyze the data, and that is the data we share.
    Senator Blumenthal. What is your timetable for achieving 
the interoperability of the data?
    Ms. Council. If confirmed, I will spend time with the team 
to lay that out and that would be part of the road map that we 
would put in place that they would be able to follow once I am 
there and once we get going.
    Senator Blumenthal. Well, I would just make the observation 
that I have sat at this table for a number of years and we have 
heard a lot about plans and blueprints and road maps, and the 
problem, as you have observed, continues to this day. That is 
not a criticism of you because you are coming into this 
situation----
    Ms. Council. Mm-hmm.
    Senator Blumenthal [continuing]. But, I would ask that you 
provide the Committee with a time table and specific steps as 
part of your confirmation process.
    Ms. Council. If I may----
    Senator Blumenthal. Please.
    Ms. Council. One of the reasons that I think I was called 
for this job is because of my reputation of being able to do 
what I said I will do. I will assure you that you will have a 
road map that will lay out a score card and the capability of 
providing that information; how it should be done. As I have 
gone through this process and spoken to many, what I have 
focused on is what they can do, not what they cannot. This is 
something that is doable, it is something that has been done, 
and in my 30 years of experience, I have seen the complexity 
that we see here and the non-standardization that we see here. 
It is surmountable, sir.
    I will tell you as I stand on the many veterans that I 
represent, this has got to be right. The veterans deserve it 
and I will make it my duty to make it right.
    Senator Blumenthal. Well, thank you. We will be counting on 
you.
    Let me just finish with one last area, the security of 
data. What steps need to be taken to assure that there are no 
breaches, no hacks, no intrusions into the VA data system?
    Ms. Council. That is always my primary place to start. Once 
confirmed, I will dig into security initially. I was the head 
of security at my relationship with Dell, as well as with 
Johnson & Johnson, which are global organizations across 57 
countries. Good security requires solid risk management. We 
will have to put that in place. That will be the first question 
that I go into. I want to understand our security posture, what 
issues we have had. But, what I can assure you is at no time 
during my career has there ever been a zero day infarction or 
hack on my time.
    Senator Blumenthal. Thank you very much.
    Thanks, Mr. Chairman.
    Chairman Isakson. Dr. Cassidy.

         HON. BILL CASSIDY, U.S. SENATOR FROM LOUISIANA

    Senator Cassidy. Hey, Ms. Council. Good afternoon. I 
listened to your response to Mr. Blumenthal. Now, we may just 
be using different terms, but interoperability of a system--I 
am a physician, and so I know if I am trying to access data 
that is resident at another hospital and the patient is 
comatose, I really cannot rely upon the patient to hand me the 
data themselves. I have to be able to get into their system.
    I am concerned. I have read recently about DOD's $11 
billion RFP for a new system and it is not clear it is going to 
be interoperable. In fact, the best I can figure out, it is not 
going to be interoperable with the VA. Now, it is the DOD 
putting the RFP, not you----
    Ms. Council. Mm-hmm.
    Senator Cassidy [continuing]. But, I was in another 
committee hearing and I asked Karen DeSalvo, who is with the 
Office of Something-Something, and she said, no, they have some 
role in this. She says it is very frustrating. She thinks it is 
going to have a requirement of interoperability; not quite 
sure. She also said there is a culture problem, implying that 
DOD and VA and their cultures do not share data.
    So, I guess this is a kind of a multi-pronged question. 
First, I like Senator Blumenthal's position. I would love to 
have some daggone deadlines where we are going to have 
interoperability. I know that you have not yet been approved 
yet, but just to say what will make Dick and I happy guys.
    Second, the culture. If there is a culture which is not 
sharing data, that somehow we isolate the reasons for that 
culture and begin to change it.
    Third, the RFP that DOD is putting out in some way 
guarantees that VA is going to share data.
    Now, obviously, I am venting a little bit, but what are 
your thoughts upon that which I just said.
    Ms. Council. I totally agree with the opportunity to have 
the data shared between the DOD and the VA. There is no reason 
that the data should not be shared.
    I do believe that, if confirmed, it would be my 
responsibility to come back and show you the road map and how 
we will get that corrected. I would see that as part and parcel 
responsibility of this role. I hope to have the time and the 
effort to put that in place.
    I do believe there is an answer, although I have not looked 
at all the information because I have not seen it all. But, I 
will tell you, if there is an issue around interoperability, it 
has to do with one being about software and one being a Vista 
in place. The Vista system in place versus trying to work it 
with another system is the question that I think is at hand, 
and based on my architectural experience, this is an 
architectural question. This is a data question, less of a 
system question. I do believe there is a surmountable answer 
which I would love to have the opportunity to work with the 
teams, to work together to solve.
    Senator Cassidy. OK. Well, that is, I guess, my question. I 
yield.
    Chairman Isakson. Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chair.
    Ms. Council, I am going to start with just a question I 
asked Dr. Shulkin. You know, we looked at your background, we 
looked at your resume, very impressive. You are coming to an 
agency that is, obviously, a very important one, but also one 
that has been under a lot of criticism, a lot of witnesses 
coming before this panel and other panels getting pounded by 
Members of Congress. What is your motivation? Why do you want 
this job?
    Ms. Council. I have to tell you that when the call first 
came for this position back in November, I really thought it 
might have been a crank call. I was not sure who would be 
calling me about the VA, given that what I had read and seen 
would not make me somebody who would be running out to want to 
fix this.
    However, when I started talking to Secretary McDonald and I 
took the time to understand the issues, I came back and I 
started talking to my husband. I looked at my background, I 
looked at the people that have supported me, I thought about 
what we have a responsibility to do as a country, and I thought 
about the fact of could I do this. Do I have all the 
capabilities and the leadership to do it? When I looked at my 
background, there was nothing that said I could not do it. It 
was saying everything about me said I could, and everything 
about me said I should. I was raised by a very strong parent 
that said, if you can, you must.
    So, even though this is an environment that probably is 
tougher in many ways, maybe is a little more personal than I am 
used to, you will find that I will bring everything to bear 
that I have had an experience to do and a blessing to do for 
many large companies to the VA. I feel very seriously that the 
veterans deserve a good opportunity. They deserve systems that 
work, and fundamentally, as a U.S. taxpayer--I do pay my 
taxes--I want to see that we do the best we can with what we 
have, so----
    Senator Sullivan. Well----
    Ms. Council [continuing]. You cannot complain if you are 
not willing to help.
    Senator Sullivan. There you go. Well, I read your 
background. I appreciate your--obviously, it is very impressive 
from the private sector. It is also very impressive as somebody 
who is looking at the VA, the number of family members that you 
have in your family who have served in the military.
    Let me go to that issue. You are coming in from the private 
sector. You have done a lot of work in the private sector. 
There is a common perception here that the VA needs some 
changes in its culture.
    Ms. Council. Mm-hmm.
    Senator Sullivan. Have you worked on those kind of issues 
in terms of some of your consulting roles with large 
organizations, and if so, what lessons would you bring to the 
VA that can help it change its culture to deliver services for 
its customer, which you noted in your written testimony is our 
men and women who served in the military?
    Ms. Council. Thank you for that question, because it is 
probably where I am most capable. I was the first global Chief 
Information Officer at Johnson & Johnson's 125-year history. 
That meant bringing 250 operating companies together across 57 
countries in the world. That had not been done before and it 
required a change and a change that said that I was willing to 
talk to the employee and help them understand what their 
responsibilities were.
    I believe in an open door policy and an empowered employee. 
I like to remind----
    Senator Sullivan. Well, what if the employees are not--I 
mean, part of it, and again, I think most of the employees at 
the VA want to serve their veterans, but are very focused on 
the customer. But, there has been a culture, decades, really--
--
    Ms. Council. Mm-hmm.
    Senator Sullivan [continuing]. That has been very resistant 
to change. And, we are trying to help here, but certainly we 
need administrators, senior leadership, that can press that 
change. What are the--give me your examples or priorities of 
how you would do that, again, drawing on your experience, which 
has a lot of focus on that kind of cultural change at private 
sector organizations.
    Ms. Council. To get that kind of change to stick, it really 
requires the three things that I mentioned. It requires 
transparent governance. We have got to make sure that everyone 
knows what we are working on and that we are focused on a 
critical few. We cannot focus on everything. We have got to 
focus on what matters.
    Second, we have to have accountable risk management, which 
means that we are managing our risks, we know who is 
accountable for managing the risk, and that every employee 
knows their role and responsibility attached to that.
    Then, ultimately, we have to have a team that knows that 
they are the ones that are really responsible for the 
solutions, not contractors, but themselves. Fifty-six percent 
of the employee base at the VA are veterans. I believe that if 
they got into IT, they got into it to solve problems. That is 
why people start there. Which I believe that if they know that 
the expectation is that they will step forward and have the 
opportunities to solve those problems, they will.
    You have to continue to share those messages. You have to 
continue to engage. You have to engage with the business 
partners, but you have got to engage with those employees.
    Change is never easy, and as you know, everybody wants 
everyone else to change first. But, you have got to show what 
is the benefit of it, be conscious of what you are asking 
people to do, and be there when they do it.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Sullivan.
    You made a comment during your testimony when you said it 
is not the topic, it is the enabler. I think that is exactly 
what you are explaining about changing a culture and an 
organization. No matter what the problem you overcome, it is 
the enabler that gets everybody together moving in the same 
direction where this transparency concept and team 
responsibility to go forward. Is that right?
    Ms. Council. Yes, sir.
    Chairman Isakson. You know, the reason I let Ms. Hirono go 
ahead was: one, out of respect for ladies, I always want a lady 
to go first; and, two, I wanted to be last because when I read 
your resume, I found it remarkable in a number of ways. The 11 
years between 2000 and 2011 with the Global Vice President of 
Dell and the Corporate Vice President in Johnson & Johnson, 
that is quite a decade of service. I then looked over at the 
awards and recognitions and see you have been in the top ten or 
top 15 most women to watch in America over a long period of 
time. You must really know your stuff.
    Ms. Council. I try to have good teams and I try to be a 
good leader, sir.
    Chairman Isakson. Will you do one thing for me?
    Ms. Council. Yes, sir.
    Chairman Isakson. I ran a pretty large real estate company 
during the dot-com era when we went from paper and pencil to 
computer work and technology and from answering machines and 
voice mails. This was before the iPad and the iPhone. Then, the 
Governor fired the State Board of Education in my State because 
they had a huge mix-up in preparing for Y2K and asked me to 
come down to run the State Department of Education, to fix the 
Y2K problem. I did not know anything about technology, and my 
staff will tell you I still do not know anything about 
technology. [Laughter.]
    I can send an e-mail, but that is about the extent of it. 
However, I learned quickly in my business that far too many 
sales people of technology sell to the wants and not the needs, 
and too many people buy the wants and not the needs, which is 
exactly, Doctor, what I think is wrong in Denver. I mean, there 
are a lot of things that were built because they wanted it. 
They did not understand whether or not they needed it or could 
afford it.
    I think the same thing is probably true in information 
technology in the VA. I hope with your experience at those two 
great corporations and the fact that your last 5 years, you 
have been your own self-employed Chief Executive Officer, a 
consultant, is that right?
    Ms. Council. Yes, sir.
    Chairman Isakson. I imagine you usually were brought in to 
shoot problems, right?
    Ms. Council. To shoot problems and make money.
    Chairman Isakson. Those are two good combinations. 
[Laughter.]
    Especially the second one. That is a great one.
    Well, I just want to tell you that you have got a great 
resume. Your husband is awfully lucky to have married you. You 
made a good choice, sir. She is a talented lady, and we are 
glad that you are coming to the VA. I am sorry you had to wait 
so long for your testimony.
    Ms. Council. Not a problem.
    Chairman Isakson. You were worth waiting for.
    Ms. Council. Thank you.
    Chairman Isakson. We wish you the best of luck and we hope 
you will always consider this Committee a resource if you need 
us for anything along the way in your work at the VA.
    Ms. Council. Thank you.
    Chairman Isakson. Do you have anything, Senator Blumenthal?
    Senator Blumenthal. I just want to join in thanking you for 
being here and thanks to your family.
    Ms. Council. Thank you.
    Chairman Isakson. The Committee stands adjourned.
    [Whereupon, at 4:14 p.m., the Committee was adjourned.]
                                ------                                

  Response to Posthearing Questions Submitted by Hon. Dan Sullivan to 
David J. Shulkin, M.D., Nominee to be Under Secretary for Health, U.S. 
                     Department of Veterans Affairs
    Question 1.  Dr. Shulkin, every day, roughly 22 veterans commit 
suicide. However, according to a recent study by the American 
Psychiatric Association, there is some good news about the Veterans 
Health Administration (VHA) actually helping to prevent veteran 
suicides. In that study, published last Friday in ``Psychiatric 
Services in Advance,'' a publication of the American Psychiatric 
Association, researchers found that, ``. . . the rate of suicide 
decreased significantly for veterans who used VHA services, while it 
spiked for veterans not using those services and increased for 
nonveterans.'' While this is a positive study, this Committee just had 
a hearing last week in this Committee on the VHA being added to GAO's 
``High Risk List'' for ``ambiguous policies and inconsistent processes, 
inadequate oversight and accountability, inadequate training, and 
unclear resource needs and allocation priorities,'' among other issues. 
Dr. Shulkin, if confirmed, specifically what anti-suicide initiatives 
will you undertake to ensure that VHA is doing everything it can to 
prevent veteran suicides?
    Response. If confirmed as Undersecretary of health for VHA, 
reducing the rates of veteran suicide would be a top priority. The Clay 
Hunt Suicide Prevention Act is a good step toward reducing these 
tragedies. As noted, VA has had success in several of its' programs 
that are targeted at preventing suicides among veterans. These include 
the national suicide hotline for veterans, awareness events at VA 
medical centers and screening and assessing suicide risk. I would 
continue to support these programs but much more needs to be done. If 
confirmed, I would review staffing policies, procedures, and barriers, 
as well as reviewing screening programs for identifying risk factors. I 
would look forward to working with the Committee to addressing this 
national challenge.

    Question 2.  Dr. Shulkin, according to GAO's High Risk Study, the 
VHA has only implemented 27% of GAO's recommendations and has more than 
a 100 GAO recommendations left to implement. Dr. Shulkin, if confirmed, 
what percentage of these unaddressed GAO recommendations do you commit 
to implement to get the VHA back on the right track and preventing more 
veteran suicides?
    Response. I have been able to review the publically available 
information on the GAO's report on VHA. I am familiar with the five 
general categories of concern that led to the GAO placing VHA on the 
high risk list (ambiguous policies and inconsistent processes, 
inadequate training, oversight and accountability issues, unclear 
resource needs and priorities and information technology). If 
confirmed, I commit to working to address these issues and come off of 
the GAO list. It would be my goal to prioritize recommendations to help 
VA focus on suicide prevention.

    Question 3.  Dr. Shulkin, in figures recently compiled by the 
Associated Press showing a snapshot of in time wait time information 
for 940 VA hospitals and outpatient clinics nationwide, the shows that 
``an average of less than 1 percent of completed appointments at the 
Anchorage outpatient clinic--0.90 percent--involved delays of at least 
31 days from the veteran's preferred appointment date during that 
period. In fact, averages were lower at facilities in Wasilla, 
Fairbanks and Kenai.'' Additionally, ``nationally, about 2.8 percent of 
completed appointments involved delays of more than 30 days.'' While 
not everything is good with the VA in Alaska, in this area, we must be 
doing something right. After all, we have less than 1% waiting over 30 
days when over 20% of my state's population lives in rural areas, many 
of which are hundreds of miles from VA facilities. Dr. Shulkin, if 
confirmed, how would you use what is being done in the Alaska VA system 
and use it as a model to help other areas of the U.S.?
    Response. Reducing wait times and access to care is a critical 
issue to address within VA. I am glad that Alaska has successfully 
addressed the wait time issue. Benchmarking data and sharing best 
practices is an important way that VA can leverage the capabilities 
that are within the system. Once best practices are identified they 
should then be implemented and standardized. If confirmed, I would like 
to learn more about the processes and practices in place in Alaska and 
share what is learned with other VA facilities across the country.

    Question 4.  Dr. Shulkin, if confirmed, what suggestions would you 
make to help create a culture at the VA that rewards this type of 
achievement--even incentivizes it--so that the VA and VHA do not end on 
the GAO's high risk list AND more importantly, so that our veterans get 
the care they have earned?
    Response. Successful organizations have performance measurement and 
management systems in place. This then allows those in the system that 
are performing well to be recognized and rewarded and those that are 
not meeting the standards to be appropriately addressed as well. The 
GAO identified that VHA was lacking in oversight and accountability and 
in consistency in its' processes. These issues need to be addressed and 
will be essential for VA to establish a culture that serves veterans 
with the highest quality of care. I do believe in rewards for good 
performance. If confirmed, I would seek to learn about what systems are 
in place within VA to reward and recognize good performance and 
extraordinary efforts.

    Question 5.  Dr. Shulkin, if confirmed, what suggestions would you 
make to improve the culture at the VHA?
    Response. Changing the culture at VHA will require a number of 
important steps to be taken. As Undersecretary I would support the 
Secretary's efforts to have all employees recommit to the mission of 
serving veterans. The culture of an organization is largely determined 
by the values of the leadership and of its' employees. If confirmed, I 
would travel to VHA sites throughout the country to connect with 
medical center leaders and staff to communicate our commitments to 
veterans and to hear their thoughts and ideas on how we can best 
support their efforts to care for their patients. I would plan on 
communicating the organization's goals, performance improvement plans, 
expectations, and mutual accountabilities. I would commit to clear and 
fact based decisionmaking by leadership and the inclusion of the 
workforce and veterans in how these decisions are made. Culture change 
requires regular communication, consistency of message, and supporting 
behaviors that should be encouraged and penalizing behaviors that do 
not support the mission.

    Question 6.  Dr. Shulkin, if confirmed, what suggestions would you 
make to actually encourage innovation and new ideas? What measures can 
the Congress give you to help nurture these innovations and ideas cut 
through the VA bureaucracy? Put simply, how would you help create and 
reward excellence at the VHA?
    Response. If confirmed, I would work to enhance the culture of 
innovation within VA. Innovation currently exists within VA but needs 
to be encouraged and nourished. My background as an entrepreneur has 
allowed me to understand the necessary requirements needed to be able 
to take new ideas and develop them into meaningful initiatives. In 
order to further encourage innovation within VA I would look for 
opportunities to enhance infrastructure to help incubate promising new 
ideas, encourage idea sharing among VA employees and medical staff, 
further collaborations with academic centers in the areas of discovery 
and technology, and seek opportunities to partner with the private 
sector and other government agencies to promote new practice 
innovations. Given the importance of innovation in our rapidly changing 
healthcare environment, I would ensure that innovators get appropriate 
attention and support from the central VHA office. Rewarding employees 
for their ideas and initiative is important. VA can encourage 
innovation through its' competitions and recognition programs and 
through ensuring that innovations are integrated back into the clinical 
setting to improve the quality of life for veterans.

                                 ______
                                 
   Posthearing Questions Submitted by Hon. Sherrod Brown to David J. 
     Shulkin, M.D., Nominee to be Under Secretary for Health, U.S. 
                     Department of Veterans Affairs
    Question 7.  Dr. Shulkin, thank you for your thoughtful answers 
related to the current implementation of the Veteran's Choice Program. 
We are all hopeful that by changing the distance to forty miles 
driving, not forty miles as the crow flies, more veterans will take 
advantage of the pilot program. As any good clinician knows, when you 
don't have data to analysis a problem set, it is difficult to know 
whether the proposed solution is appropriately addressing the problem. 
We need as many veterans, who qualify, in the Choice Program to know if 
it is effective.
    As I raised in the hearing, I also believe that the VA needs to 
review whether a veteran can receive the adequate care at the closest 
VA medical facility. I strongly believe that if the medical facility 
within 40 miles, does not provide the specific treatment required by 
the veteran, that veteran should be able to seek outside medical care. 
In your professional opinion, as a physician and administrator, what 
other steps should the Department take to fully implement the Veteran's 
Choice Program?
    Response. The Veterans Access, Choice, and Accountability Act of 
2014 is important legislation that needs to be fully implemented. If 
confirmed, I am committed to seeing that veterans get access to the 
care they need from within VA and, when not available, from the private 
sector, as specified by the legislation. Ensuring that veterans have 
access to the care they need requires a comprehensive operational plan. 
In this plan, there must be clarity around the policies and processes 
that are being utilized to access care. Veterans must also be aware of 
their benefits and how to seek assistance in obtaining care if they 
need help. The VA must also work to expand partnerships with the 
private sector and community partners to ensure the seamless 
coordination of care between VA and non-VA providers. Finally, there 
needs to be an effective monitoring and observation plan in place to 
ensure that the system is working as intended.

    Question 8.  Dr. Shulkin, I appreciated your candor during the 
hearing regarding Reservists who had been exposed to Agent Orange 
residue toxins while working on C-123s. I would ask that provide me 
with a timeline for fully resolving the C-123 issue, including health 
and disability benefits.
    Response. I am aware of the serious health concerns regarding 
dioxin exposure in Agent-Orange contaminated aircraft. I have reviewed 
the Institute of Medicine report on this topic released in 
January 2015. The VA must be committed to caring for those that have 
experienced adverse health events while serving their country. While I 
am not currently privy to any specific discussions that are ongoing 
within VA about next steps or timelines, if confirmed I would commit to 
quickly coming up to speed on the issues and working with the Committee 
to ensure that this issue is resolved in the shortest time possible.

    Question 9.  Dr. Shulkin, the lack of a fully integrated electronic 
health record system between the Department of Defense and VA has been 
a persistent problem for more than a decade. In your professional 
opinion, how has this impacted the VA's ability to provide the 
appropriate medical care for veterans?
    Response. Both DOD and VA have renewed their commitments to an 
electronic exchange of information and to working together to resolve 
the transfer of information between Departments. As a physician and an 
administrator, I know the importance of clinicians having access to 
information about care that has been provided by the previous 
healthcare provider. Without a seamless transfer of healthcare 
information, the care provided can be suboptimal. Without the prior 
record, a provider caring for a patient does not have the ability to 
access the results of past diagnostic studies, findings from other 
doctors, and medication history. This lack of information can present 
issues with regard to quality and safety. It is my strong belief that 
this problem must be resolved and, if confirmed, I would commit to work 
with this Committee and with DOD to find a workable resolution to this 
issue.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Richard Blumenthal 
 to LaVerne H. Council, Nominee to be Assistant Secretary of Veterans 
   Affairs Office of Information and Technology, U.S. Department of 
                            Veterans Affairs
    Question 1.  I appreciated your commitment to providing the 
Committee with a roadmap of concrete actions to ensure that health data 
is interoperable between DOD and VA. Will you commit to providing that 
roadmap within 60 days of assuming the position of Assistant Secretary 
for Information and Technology?
    Response. If confirmed, I will commit to reviewing existing plans 
and timelines, and determining with the team whether these plans 
address VA/DOD interoperability needs. I commit to briefing the 
Committee within 60 days on the status of interoperability, and working 
with the Committee to achieving this important goal.

    Question 2.  With the dramatic increase in malware and intrusion 
attempts in the last few months, it is critical that VA take steps to 
ensure that personal and health data remains secure. Will you commit to 
providing the Committee with a detailed plan, within 90 days of 
assuming the position of Assistant Secretary for Information and 
Technology, on how you intend to remediate VA's information technology 
security deficiencies?
    Response. I do not have specific knowledge of all of the security 
issues the VA has faced. If confirmed, I will have access to all 
necessary information to gain an understanding of what is happening, 
how well the team is addressing the issues and what plans have been 
created to date. I will also gain an understanding of the team's 
performance and what must be done immediately to change the reality and 
perceptions of security.
    In my past experience, I have delivered detailed plans for similar 
programs in 90 days; however, the plan must be collaborated with 
leadership and the internal customer and communicated to staff. I will 
commit to making this plan a high priority goal for VA and OIT and 
being transparent with the Committee.
    I will commit to providing the Committee my initial assessment of 
the existing state of VA's security measures for personal and health 
data. Additionally, I will provide a plan to remediate these challenges 
within 90 days of assuming the position. I look forward to working 
closely with the Committee on the next steps to addressing identified 
deficiencies as quickly as possible.
                                 ______
                                 
  Posthearing Questions Submitted by Hon. Dan Sullivan to LaVerne H. 
 Council, Nominee to be Assistant Secretary of Veterans Affairs Office 
   of Information and Technology, U.S. Department of Veterans Affairs
    Question 3.  Mrs. Council, the Committee may know that Alaska is 
home to the highest per capita population of veterans in the country. 
As of August 2014, Alaska had nearly 75,000 veterans, nearly one-tenth 
of our population. One of my campaign pledges--as a part of my 
``Promises Delivered Project''--was to ensure that veterans, wherever 
they are, receive the best quality care. What the Committee may not 
know is that Alaska is about two and half times the size of Texas, with 
over 663,000 sq. miles of area. Because of the amount of area we have, 
Alaska leads the Nation in telemedicine and telehealth delivery, 
ensuring that Alaskans, wherever they are, receive the best quality and 
most cost-effective treatment possible. In fact, one area where Alaska 
is breaking the mold where many native veterans who live in bush Alaska 
no longer have to take multiple days off to fly into Anchorage to see 
their doctor and can instead video teleconference with their doctor 
from their local health clinic. Alaska's exports to the U.S. are 
famous, including: oil, salmon, and minerals. Ms. Council, have you 
ever visited Alaska and toured, not just our VA system, but our larger 
telehealth network? If confirmed, will you commit to a visit to Alaska 
to see all the great work that Alaskans are doing?
    Response. I have not had a tour of the VA system or the telehealth 
network in Alaska. However, if confirmed I would be willing to visit 
and understand the VA operations for Alaskan veterans, and leveraging 
IT resources to support service delivery in any way I can.

    Question 4.  Mrs. Council, if confirmed, how will you address the 
bureaucratic red-tape at the VA that often prevents innovative ideas, 
like what is being done in Alaskan telemedicine and telehealth, from 
being exported to the Lower 48 where greater innovation may be needed?
    Response. If confirmed, I will review and share what needs to 
change to allow IT to be much more agile in meeting the needs of the 
veteran. While at Johnson & Johnson, I was responsible for promoting 
Telehealth/telemedicine as a business opportunity. I believe it is a 
great way to support well-being and provide care. I am not sure what 
projects are currently being implemented at VA in this space, but as 
part of understanding the work currently being completed, I will look 
at work being done in this space and evaluate our deployment strategy.
                                 ______
                                 
  Posthearing Questions Submitted by Hon. Sherrod Brown to LaVerne H. 
  Council, Nominee to be Assistant Secretary of Veterans Affairs for 
    Information and Technology, U.S. Department of Veterans Affairs
    Question 5.  Ms. Council, it seems that several of the issues 
raised after Phoenix could have been resolved if there were an upgraded 
scheduling program, integrated electronic medical system between DOD 
and VA, and properly defined procedures and protocols.
    How will you ensure that VA finally takes IT upgrades seriously?
    Response. Complexity, lack of standardization and lack of software 
life cycle management can create vulnerabilities in security, 
interoperability and innovation. It also can create an inability to 
deliver solutions in a timely manner. I have been responsible for 
implementing the quality IT processes for Dell and Johnson & Johnson to 
eliminate the stove piped issues and increase the velocity and quality 
of IT systems to support processes and customers.
    If confirmed, I will bring my experience addressing these 
challenges to VA, through accountable risk management, transparent 
governance, and team-enabled innovation.

    Question 6.  Ms. Council, over the past decade more than $127 
million was wasted on failed programs in the past, how do we stop that 
type of mismanagement from happening?
    Response. If confirmed, I will need to look at the full inventory 
of projects and issues in the environment to understand the status of 
each project and what has been promised to the departments (users) 
within the VA.
    The Department would then need to prioritize and understand what is 
at risk and what needs to be done to insure we meet our deliverables as 
expected. We need to ensure that all required resources needed to fix 
the issues are made available and that we are getting the most out of 
the finite resources being utilized (i.e., people, dollars, time).
    We will then come up with an operations strategy to meet our goals 
and establish a timeline with the business/stakeholders for delivery. 
Sometimes the answer is to stop a project if is no longer viable or the 
technology is obsolete. The PMO will keep us on schedule, but we will 
also have to be willing to stop work that is not going as planned.
    If confirmed, I look forward to working with the Committee as this 
evaluation process moves forward.



 NOMINATION OF MICHAEL H. MICHAUD, TO BE ASSISTANT SECRETARY OF LABOR 
                 FOR VETERANS' EMPLOYMENT AND TRAINING

                              ----------                              


                     WEDNESDAY, SEPTEMBER 30, 2015

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:36 p.m., in 
room 418, Russell Senate Office Building, Hon. Johnny Isakson, 
Chairman of the Committee, presiding.
    Present: Senators Isakson, Moran, Boozman, Rounds, Tillis, 
Sullivan, Blumenthal, Brown, Hirono, and Manchin.

  OPENING STATEMENT OF SENATOR JOHNNY ISAKSON, CHAIRMAN, U.S. 
                      SENATOR FROM GEORGIA

    Chairman Isakson. I am going to call this meeting of the 
Veterans' Affairs Committee of the U.S. Senate to order. I 
would like to welcome Mr. Michaud to the hearing today, the 
nominee by the President of the United States to be the 
Assistant Secretary of Labor for Veterans' Employment and 
Training. We are delighted that you are here today.
    There is probably no more important job for our veterans 
who are coming home than getting another job outside the 
military, no more important responsibility than the 
responsibility we have as members of the Senate and the House 
to provide the resources necessary for the training and 
implementation of employment for all veterans. There are so 
many issues tied to employment of veterans, including the 
homeless veterans program which I know the President has made 
an outspoken statement on reducing homelessness and we want to 
join in that.
    I come from Georgia where Home Depot is one of the most 
notable employers of returning veterans of any company in the 
country. We want to continue to see we do as much outreach as 
we can to have as many businesses like Home Depot providing 
that type of help to our veterans.
    Most importantly, Mike, we are very proud that a member of 
the House Veterans' Affairs Committee is going to take this 
appointment. Your experience on the Committee has been 
outstanding. Your contribution has been outstanding. I had the 
privilege of serving a short time in the House with you and, as 
I told you in private, from the minute I met you was impressed 
not only with your intellect, but with your commitment to the 
job. I know you will embrace the same commitment to the 
Veterans Administration and the Department of Labor.
    My commitment to you is--barring you screwing up this 
hearing or Angus telling us something we do not know, or the 
FBI reports saying something I did not know about--as the 
Ranking Member knows, it is my intention to go through the FBI 
report tomorrow and then probably have an off-the-floor markup 
next week so we can get this straight, because we do not need 
any time wasting in the Department of Labor.
    We appreciate the fact of your willingness to serve your 
country and serve the veterans who have made this the great 
country what it is. With that said, I will introduce the 
Ranking Member, Richard Blumenthal.

         OPENING STATEMENT OF HON. RICHARD BLUMENTHAL, 
         RANKING MEMBER, U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. I join the Chairman in thanking you for 
your willingness to serve in this very, very important position 
and your past service in the House of Representatives, and also 
in your State legislature. The only condition on my vote is 
that you tell us all the bad stuff about Senator King when he 
was in Maine, although I am sure knowing him there is very 
little there.
    In all seriousness, I want to say how important this 
position is. I do not need to tell you the authority over the 
TAP program, over veterans' employment programs, serving the 
homeless, and most especially, in my mind, the programs serving 
our National Guard and Reserves.
    They are often forgotten in this building, as in this town, 
but our National Guard and Reserves have come to be, in effect, 
as important as our full-time active duty service men and 
women. One of my fears, as I have articulated publicly is that, 
in effect, employers are either downplaying or circumventing 
the law by implicitly sometimes discriminating against soldiers 
of the Reserves or National Guard because of their commitments 
to our Nation and the knowledge that they may be gone for 
periods of time because of their service.
    I am going to ask for a commitment from you that you will 
do everything within your power to investigate and take action 
against such practices if they are occurring.
    I believe that most employers are honest and patriotic. The 
vast majority are, in fact, going out of their way to employ 
our veterans and our members of the National Guard and 
Reserves, but there may be a minority that are doing otherwise.
    I want to emphasize to you the importance of women veterans 
and employment of them these days. As you know, 20 percent of 
new recruits in our military are women and close to 280,000 
female veterans have served in Iraq or Afghanistan since 
September 11, 2001, and by some estimates, female veterans will 
grow in number to approximately 11 percent of the total veteran 
population by 2020.
    I also will ask for your support on behalf of the VA, 
though you are not in a position to give it now, I recognize, 
for the legislation that I have reintroduced to extend and 
renew the Work Opportunity Tax Credit for Veterans, which 
provide employers with tax credits for hiring unemployed or 
disabled veterans.
    I really appreciate your being here and I certainly will 
support the Chairman's efforts to move this nomination as 
expeditiously as possible. Thank you. Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Blumenthal. We are 
honored and privileged today to have the junior Senator from 
the great State of Maine, Angus King, here to introduce our 
nominee. Senator King, I will turn the podium over to you.

                 STATEMENT OF HON. ANGUS KING, 
                    U.S. SENATOR FROM MAINE

    Senator King. Thank you, Mr. Chairman, Ranking Member 
Blumenthal, and distinguished Members of the Committee. It is a 
pleasure to be here, yet I must say it is a daunting experience 
to sit on this side of the table.
    I want to introduce you to Mike Michaud. Some of you know 
him and some do not. I have known him for about 30 years; 
worked very closely with him. He was a member of the State 
Senate in Maine for all of the 8 years that I was Governor. He 
was President of the Senate for part of that time.
    As some of you know, the relationship between the President 
of the Senate and the Governor of the State is always a close 
one, and as an Independent, I used to say I have no automatic 
friends in the legislature and no automatic enemies, but 186 
skeptics. Mike was one of those, but he was also one of those 
that was always willing to listen and work on a bipartisan 
basis to solve the problems that we faced in Maine.
    I was making a few notes while thinking about Mike. When I 
go to hire somebody, there are qualities that I look for, and I 
think they fit Mike. The first is competence, somebody who is 
capable of getting the job done, is going to take it seriously, 
who is going to understand the requirements of the job, and has 
the competence of getting it done in a serious way. I think 
that is so important in a job like this one which is really 
about administration and about problem-solving and about 
getting things done on behalf of our veterans.
    The second is experience. Mike Michaud probably has as much 
experience in veterans' affairs issues as anyone in the 
Congress. He was the Ranking Member on the House Veterans' 
Affairs Committee for a number of years, headed up some of 
their subcommittees, and significant for me, he took a 
leadership role in the backlog issue at the VA in 2013 before 
it really exploded into the public consciousness. He was on 
that issue early and introduced a comprehensive package in the 
House that actually passed the House, as I recall, and did not 
pass here. I think that was one of the first attempts at a 
comprehensive reform of the VA. His experience in this area, 
his knowledge of veterans, his connections to veterans in Maine 
are really deep and extensive.
    The third quality, competence, followed by experience, and 
then character. As I say, I have worked with Mike closely for 
many years and he is a man of true character. I think it was 
Alan Simpson of Wyoming who said, if you have character, 
nothing else matters and if you do not have it, nothing else 
matters. Mike has it. He is a man who is passionate in the 
defense of his constituents and the people that he represents, 
which in this case will be the veterans of America, and that 
brings me to the final quality, which is commitment.
    He has demonstrated his commitment to veterans and to their 
needs, and the role that the Department of Labor and the 
Veterans Administration can and should play.
    I have often felt that if the military spent as much time 
on out-placing our veterans as it does on recruiting them, as 
much time and resources, the veterans' community would be 
better off, and that is another discussion we can have at the 
Armed Services Committee.
    Here today, I just want to wholeheartedly endorse Mike 
Michaud. Unfortunately, I have to go off, as you all know, to 
another meeting. That is the way this place seems to work. This 
is a good Maine man. We have a saying in Maine that if somebody 
is pretty good, they are referred to as finest kind, and the 
people on the coast of Maine would say Mike Michaud is finest 
kind. I am happy and honored to be here to present him to you 
today. Thank you.
    Chairman Isakson. Well, Senator King, thank you for your 
introduction. We will allow you to be excused at any point in 
time you wish to leave the hearing. We will miss you, but we 
know you have got other responsibilities.
    Senator King. I intend to stay at least to hear Mike's 
opening statement and then I am afraid I will have to leave.
    Chairman Isakson. Under the rules of this Committee, the 
testimony of all Presidential nominees appearing before the 
Committee must be given under oath. At this time, I would like 
to ask Mr. Michaud to stand and raise his right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give before the Senate Committee on Veterans' Affairs 
will be the truth, the whole truth, and nothing but the truth, 
so help you God?
    Mr. Michaud. I do.
    Chairman Isakson. Thank you. Please be seated and give us 
your testimony. We welcome you to the Committee.

   STATEMENT OF MICHAEL H. MICHAUD, NOMINEE TO BE ASSISTANT 
    SECRETARY OF LABOR FOR VETERANS' EMPLOYMENT AND TRAINING

    Mr. Michaud. Thank you very much, Mr. Chairman. I want to 
thank Senator King for that very kind and very generous 
introduction.
    Good afternoon, Chairman Isakson, Ranking Member 
Blumenthal, and distinguished Members of the Veterans' Affairs 
committee. I want to thank you for the opportunity, first of 
all, to testify today for considering my nomination to serve as 
the Assistant Secretary for Veterans' Employment and Training.
    Your dedication and commitment to our Nation's veterans, 
transitioning servicemembers, and their families is inspiring. 
I am happy to have had the opportunity to serve with many of 
you over my 12 years in Congress. I know that you understand 
how important the mission is at hand. I am humbled and honored 
by President Barack Obama's nomination to lead the Department 
of Labor's Veterans' Employment and Training Service.
    President Obama and Secretary of Labor Perez are committed 
to ensuring that the brave warriors who served his country have 
the employment support, assistance, and opportunities that they 
need and deserve to successfully transition to the civilian 
workforce and secure meaningful careers.
    During my entire time in Congress, I served on the House 
Veterans' Affairs Committee and I am often reminded of 
President Lincoln's promise, ``To care for him who shall have 
borne the battle, and for his widow, and his orphan.'' If 
confirmed, it will be my honor and privilege to work with this 
Committee to achieve that goal.
    For me, taking care of those who are wearing and have worn 
the uniform is personal. Throughout my career as an elected 
official, both at the State level and Federal level, I have had 
the privilege of meeting with the wounded, with the mothers of 
the fallen, and with many veterans who have gone on to make our 
Nation stronger.
    Every day I was reminded of what made our country the 
greatest in the world: the sacrifice of our warriors. In that 
time, I learned a great deal, that there were stories that 
would make you want to cry, and sometimes we did. There were 
those days that we were disgusted by the way the servicemembers 
were treated as they suffered through an injury serving our 
Nation. But most of all, I watched as veterans triumphed and 
overcame great odds to continue making America great.
    I have always worked across the aisle, partnering with 
Republicans and Independents to do what was right for our 
Nation's veterans. As each of you knows, the Veterans' Affairs 
Committee in both chambers are considered the least partisan in 
Congress. As Ranking Member of the House Veterans' Affairs 
Committee, I fought to ensure that that tradition continued, as 
I always believed and I still do believe, in working in a 
nonpartisan manner. We need to put veterans first before 
politics.
    In that vein, I worked with many of you to pass legislation 
and implement programs designed to care for the needs of our 
veterans and their families. A few examples include, using 
funding that Congress provided, we were able to build two new, 
state-of-the-art community-based outpatient clinics in Maine. 
Both of these facilities were built on land owned by Maine 
veterans' homes and included amenities designed to help address 
the unique needs of our female veteran population in Maine.
    I also worked with the former Veterans Affairs Secretary to 
help get land owned by VA made available for programs to 
address homelessness among veterans in Maine. Volunteers of 
America are now raising the $1.5 million they need to raise to 
build the cabins on that land that will be used to house 
current homeless veterans in Maine.
    The reason why I mention these two projects, although there 
are others, is because they are an example of a public/private, 
non-profit collaborative effort that is able to forge. I will 
be a forward-looking leader, if confirmed by this Committee and 
the Senate.
    We are reminded every day of the tremendous sacrifice made 
by members of the military. They leave their families, friends, 
and careers behind to defend the freedoms here at home and 
around the world. When they return home, these brave men and 
women deserve a hero's welcome and a chance to utilize their 
unique skills to help rebuild our economy.
    The recent trend for veterans' employment has been positive 
with most veterans successfully transitioning into the civilian 
workforce. While there has been significant progress in 
addressing veterans' unemployment, there is still challenges 
that remain.
    President Obama and Secretary Perez have made a commitment 
to provide those who have worn the uniform and their families 
with the support, assistance, and opportunities that they need 
and deserve to find and secure meaningful careers. If 
confirmed, I would work with this Committee, with Congress, 
other Federal agencies, our national veterans' service 
organizations, and our stakeholders to fulfill this commitment.
    During the past couple of weeks, I have had the opportunity 
to meet with some of you and your staff. I have received 
invaluable guidance and insight into the Committee's priorities 
and concern. I want you to know that I hear your concerns and I 
am ready to go to work. If confirmed, I look forward to 
continuing that dialog and I am committed to transparency and 
being open with this Committee.
    In closing, if confirmed, I will work closely with you, 
with our partners, our stakeholders, with a dedicated VETS team 
to provide transitioning servicemembers, veterans, and their 
families with the best possible resources that they need to 
enable them to succeed in today's economy.
    Thank you again for your dedication and your commitment to 
our transitioning servicemembers, veterans and their families, 
and for considering my nomination today. I appreciate the 
opportunity to testify before you today and I am happy to 
answer any questions that you may have.
    [The prepared statement of Mr. Michaud follows:]
 Prepared Statement of Michael Michaud, Nominee for U.S. Department of 
    Labor, Assistant Secretary for Veterans' Employment and Training
    Good morning Chairman Isakson, Ranking Member Blumenthal, and 
distinguished Members of the Committee on Veterans' Affairs. Thank you 
for the opportunity to testify today and for considering my nomination 
to serve as the Assistant Secretary for Veterans' Employment and 
Training.
    Your dedication and commitment to our Nation's veterans, 
transitioning warriors, and their families is inspiring. I am happy to 
have had the opportunity to serve with many of you during my 12 years 
in Congress. I know that you understand the importance of the mission 
at hand.
    I am humbled and honored by President Barack Obama's nomination to 
lead the Department of Labor's Veterans' Employment and Training 
Service (VETS). President Obama and Secretary of Labor Perez are 
committed to ensuring that the brave warriors who serve this country 
have the employment support, assistance and opportunities they need and 
deserve to successfully transition to the civilian workforce, and find 
and secure meaningful careers. During my entire time in Congress, I 
served on the House Veterans' Affairs Committee, and I am often 
reminded of President Lincoln's promise, ``To care for him who shall 
have borne the battle, and for his widow, and his orphan.'' If 
confirmed, it will be my honor and privilege to work with this 
Committee to achieve that goal.
    For me, taking care of those who are wearing and have worn the 
uniform is personal. Throughout my career as an elected official at the 
state and Federal level, I have had the privilege of meeting with the 
wounded, with the mothers of the fallen, and with the many veterans 
that have gone on to make our Nation stronger. Every day, I was 
reminded of what made our country the greatest in the world: the 
sacrifice of the American servicemember. In that time, I learned a 
great deal. There were stories that made you want to cry, and sometimes 
we did. There were days you were disgusted by the way servicemembers 
were treated as they suffered through an injury serving our Nation. But 
most of all, I watched as veterans triumphed, and over came great odds 
to continue making America great.
    I have always worked across the aisle, partnering with Republicans 
and Independents to do what was right for our Nation's veterans. As 
each of you knows, the Veterans' Affairs Committees in both chambers 
are considered the least partisan in Congress. As Ranking Member of the 
House Veterans' Affairs Committee, I fought to ensure that tradition 
continued as I always believed, and still do believe, that we need to 
put the veteran before the politics. In that vein I worked with many of 
you to pass legislation and implement programs designed to care for the 
needs of our veterans and their families. A few examples include:

    <bullet> Using funding that Congress provided, we were able to 
build two new state-of-the-art Community Based Outpatient Clinics 
(CBOC). Both of these facilities were built on property owned by Maine 
Veterans' Homes and included amenities designed to help address the 
unique needs of the female veteran population in Maine.
    <bullet> In Aroostook County we established an Access Received 
Closer to Home (ARCH) program that has been successful in providing 
veterans access to health care closer to their residence. As a member 
of the House of Representatives, Senator Moran was instrumental in the 
creation of the legislation that provided for ARCH.
    <bullet> I worked with the former Veteran's Affairs Secretary to 
help get land owned by the VA made available for a program to address 
homelessness among veterans in Maine. Volunteers of America are now 
helping to raise the $1.5 million needed to build cabins on this land, 
which will be used to house currently homeless veterans.

    The reason why I mention these projects is because they are 
examples of public-private-non-profit collaborative efforts that I was 
able to forge. This is the forward-looking leader that I will be if I 
am confirmed.
    We are reminded every day of the tremendous sacrifices made by the 
members of the Military. They leave their families, friends, and 
careers behind to defend our freedoms here at home and around the 
world. When they return home, these brave men and women deserve a 
hero's welcome and a chance to utilize their unique skills to help 
rebuild our economy. Yet, all too often, they face a difficult 
transition back to civilian life and struggle to find a job. If I have 
learned anything in my time on Capitol Hill, our Nation's veterans 
don't need a handout, but with a hand-up, they exceed all of our 
expectations. President Obama and Secretary Perez have made a 
commitment to provide those who have worn the uniform and their 
families with the support, assistance and opportunities they need and 
deserve to find and secure meaningful careers. If confirmed, I would 
work with this Committee, Congress, other Federal agencies, our 
Nation's Veteran Service Organizations, and our stakeholders to fulfill 
this commitment.
    During the past couple of weeks, I have had the opportunity to meet 
with some of you and your staff. I have received invaluable guidance 
and insight into the Committee's priorities and concerns. I want you to 
know that I hear your concerns and am ready to get to work. If 
confirmed, I look forward to continuing this dialog and am committed to 
being transparent and open with you.
    In closing, if confirmed, I will work closely with you, with our 
partners, stakeholders and with the dedicated VETS team to provide 
transitioning servicemembers, veterans, and their families with the 
best possible resources that they will need to enable their success in 
today's economy. Thank you again for your dedication and commitment to 
our transitioning warriors, Nation's veterans and their families, and 
for considering my nomination.

    I appreciate the opportunity to testify before you today and am 
happy to answer any questions you may have.
                                 ______
                                 
    [The Committee questionnaire for Presidential nominees 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    [Attachments follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    

    [Attachments follow:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
   

    [Attachments for A, B, and C follow:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    

                                ------                                

    [Letter from the U.S. Office of Government Ethics follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                ------                                

    [Letter from nominee to the Office of the Solicitor, U.S. 
Department of Labor follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

 Response to Prehearing Questions Submitted by Hon. Johnny Isakson to 
  Michael H. Michaud, Nominee to be Assistant Secretary of Labor for 
                   Veterans' Employment and Training
    Question 1.  For many years, you served on the Committee on 
Veterans' Affairs of the U.S. House of Representatives, which has 
legislative and oversight responsibilities with regard to the 
Department of Labor's Veterans' Employment and Training Service (DOL-
VETS) and the programs and laws it administers.
    A. What are your preliminary thoughts on the most serious 
challenges facing DOL-VETS?
    Response. If confirmed as Assistant Secretary for VETS, I will work 
tirelessly every day to honor veterans by helping them succeed in the 
civilian workforce when their time in the armed services comes to end. 
While veterans' unemployment is the lowest it has been in nearly seven 
years, it is still too high. We must address work with our partners in 
the public and private sectors to address the barriers to employment 
faced by our Nation's servicemen and women. Similarly, the rate of 
homelessness among veterans also has declined. We must remain vigilant 
in our efforts to ensure that if and when a veteran faces a housing 
crisis, programs are available to help. A robust program of enforcement 
of the Uniformed Services Employment and Reemployment Rights Act is 
critical to ensuring that the civilian job rights and benefits for 
veterans and members of the active and Reserve components of the U.S. 
Armed Forces are protected.

    B. What would be your highest priorities upon assuming the role of 
the Assistant Secretary for Veterans' Employment and Training?
    Response. My goal is to ensure that the transition for the military 
personnel to civilian life is less burdensome and more rewarding for 
veterans and their families. In particular, I would strive to achieve 
the following goals:

    <bullet>  Improve outreach to servicemembers, veterans and their 
families to ensure they are aware of and have access to the programs 
and services available to help them achieve their employment and career 
goals;
    <bullet>  Focus on providing intensive employment services to those 
with significant barriers to employment;
    <bullet>  Improve the Transition Assistance Program (TAP), in 
collaboration with the Departments of Veterans Affairs, Defense, 
Homeland Security and others to by implementing the redesigned DOL 
Employment Workshop as part of comprehensive effort to seamlessly 
transition Servicemembers, Guard and Reserve members and their families 
from active duty to civilian life; and
    <bullet>  Increase and enhance VETS ability to measure and report 
on the impact of our programs by improving data collection and 
reporting.

    Question 2.  For fiscal year 2016, the President requested $271 
million for DOL-VETS, including $175 million for grant programs and 
more than $40 million to support 230 employees. To ensure that the 
Committee has a complete record for consideration of this nomination, 
would you please describe the experiences that demonstrate your ability 
to effectively manage a budget and staff of this size?
    Response. I acknowledge that I have never managed or led an 
organization the size of the Veterans' Employment and Training Service, 
but I believe that the character of the manager rather than the size of 
the agency is what's important. I strongly believe that my 34 years of 
experience leading, managing, and supervising in my career as an 
elected official, my extensive knowledge as Ranking Member of the House 
Veterans' Affairs Committee, and my work with Veterans Service 
Organizations prepares me well for the challenges I will face in 
leading the agency. I believe in collaboration, always having an open 
door, and listening to the viewpoints of those who may disagree with my 
position.

    Question 3.  DOL-VETS shares responsibility with the Departments of 
Defense and Veterans Affairs for ensuring our servicemembers are 
prepared for transitioning into the civilian workforce when they leave 
the military. Specifically, the Department of Labor is responsible for 
providing a three-day employment workshop as part of the Transition 
Assistance Program.
    A. Do you yet have a sense of how you would ensure this training 
reflects current best practices that private and public sector hiring 
managers use to hire employees?
    Response. I need a much more intimate understanding of the field 
operations and current impact of VETS programs before I can fully 
answer that question. If confirmed, I plan to meet with employers--in 
the public and private sector, observe operations in the field, solicit 
input from VETS' staff and staff funded by the Jobs for Veterans State 
Grants programs who are based in communities and who understand local 
employment markets in order to do ensure that TAP program meets the 
needs of servicemembers and the employers who wish to hire them.

    B. Do you yet have a sense of how DOL-VETS could better assess the 
impact its employment workshops have on a veteran's ability to gain 
employment?
    Response. I agree that it is critical that agencies be able to show 
that their programs have a positive impact on the clients they are 
charged to serve. Consequently, one of my first priorities will be to 
learn more about how the agency currently measures the impact of the 
various programs it administers and solicit input from VETS' team 
members, workforce development practitioners, Members of the Committee, 
veterans and stakeholder groups on how to do just that.

    Question 4.  In 2013, you supported H.R. 2481, which would have 
created a new Veterans Economic Opportunity Administration within the 
Department of Veterans Affairs.
    A. How do you see the work of DOL-VETS and VA complementing each 
other and do you yet have a sense of where the two Departments could 
better coordinate their functions to improve economic opportunities for 
veterans?
    Response. While the VA is primarily a benefits agency, and that can 
include educational benefits, DOL has the lead on training and 
employment assistance for all Americans, including veterans. If 
confirmed, I would work to increase coordination between the two 
Departments to ensure that employment and training programs are 
delivered in a way that avoids duplication and leverages DOL's 
information on local labor markets and growing industries to help vets 
use their benefits in ways that improve their employment outcomes.

    B. Do you yet have a sense of whether the size and location of DOL-
VETS within the Department of Labor create any challenges for it across 
its four key program areas?
    Response. Not at this time. However if confirmed, I see my primary 
role as Assistant Secretary to guarantee that VETS brings to bear the 
full complement of resources of the Department and ensures that those 
resources are readily available for veterans and servicemembers seeking 
to transition into the civilian labor force.

    Question 5.  To accomplish its mission, DOL-VETS works with 
veterans and employers to improve their interactions with each other.
    A. Do you have preliminary thoughts on what would be an effective 
strategy for DOL-VETS to engage employers across the public and private 
sectors at local and national levels?
    Response. I want to gain a fuller understanding of what strategies 
VETS is currently utilizing in order to assess what's working and what 
isn't. I think that DOL-VETS has failed historically at adequately 
communicating with stakeholders and failing to show its value to the 
veteran community. Improving outreach to servicemembers, veterans and 
the employer community to ensure they are aware of and have access to 
the programs and services available to help them achieve their 
employment and hiring goals is critical to that effort. In particular, 
reaching out to small and medium size businesses--who make of the bulk 
of employers--will be a top priority of mine, if confirmed.

    B. In your view, what are key facts or tools that employers may 
need to know when it comes to veterans?
    Response. If confirmed, I want to invest time in talking to 
employers about the traits that veterans can bring to help a company 
succeed. I've had the opportunity to meet with employers in Maine and 
across the country during my career as an elected official, and the 
ones I've met don't need convincing that veterans are indispensable 
members of any team. That said, we need to make those employer-veteran 
applicant connections happen on a real level, and I'm committed to 
doing that, if confirmed.

    Question 6.  The Jobs for Veterans State Grant (JVSG) program 
reported state-by-state employment entry rates between 36% and 68% for 
participants of its programs in the 50 states during program year 2013.
    A. In addition to these metrics, do you yet have a sense of whether 
there are other factors about the JVSG program's outcomes that should 
be tracked?
    Response. I would want the opportunity to discuss this with the 
program experts in VETS and the staff who are funded by the JVSG 
program in order to respond to this question. If confirmed, I would 
look forward to hearing from Members of the Committee on any thoughts 
they may have as well.

    B. Do you yet have a sense of whether there are important outcomes 
regarding the employer outreach part of JVSG that should be tracked?
    Response. Similar to the previous question, I would want an 
opportunity to talk to the program experts and staff. It is possible 
that not all outreach necessarily leads to employment. I want to make 
sure that we are able to identify the quality and effectiveness of 
services provided to veterans, not just the quantity.

    Question 7.  JVSG is a grant given to the states for them to hire 
staff directly. Do you yet have a sense of how much flexibility state 
officials should be given to decide which agency employs these program 
staff?
    Response. The effective administration of programs serving veterans 
will be my highest priority and must be the highest priority of states 
who receive Federal funding to do so. Effective coordination with the 
state public workforce system is critical to achieving the goals of 
Workforce Innovation and Opportunity Act enacted in 2014, and efforts 
to transition administration of the JVSG grant program from the state 
workforce agency to a state veterans' agency would be contrary to 
Congressional intent. I am open to further dialog with states and 
Members of the Committee on this issue, if confirmed.

    Question 8.  DOL-VETS administers and helps to enforce the 
Uniformed Services Employment and Reemployment Rights Act (USERRA), 
which provides reemployment rights and employment discrimination 
protections for veterans and members of the Guard and Reserves. 
Currently pending before the House of Representatives is a bill, H.R. 
2275, Jobs for Veterans Act of 2015, which includes a provision 
requiring the transfer of the administration of employment and 
reemployment rights of members of the uniformed services, among other 
VETS responsibilities, to the Department of Veterans Affairs.
    A. Would you please share any current views you have on 
transferring the administration of USERRA out of VETS?
    Response. As Ranking Member of the House Veterans' Affairs 
Committee, I had conversations with interested parties about this 
issue. As the Committee knows, in its enforcement of USERRA, VETS 
protects the rights of all uniformed servicemembers to return to their 
civilian jobs and receive all of their employment benefits when they 
have concluded their tours of duty. It is my understanding that VETS 
works closely with the Labor Department's Solicitor's Office and its 
staff of expert employment lawyers when enforcing USERRA. In addition, 
when USERRA violations implicate Federal contractors and sub-
contractors, VETS refers cases to OFCCP for possible investigation of 
VEVRAA violations. VETS's employment law enforcement responsibilities 
are fully integrated with other employment law enforcement agencies in 
the Labor Department. The Veterans Affairs Department does not have an 
analogous employment law enforcement capacity or expertise.

    B. How important do you believe it is for VETS to cooperate and 
coordinate with other entities that help enforce USERRA (such as the 
Office of Special Counsel) and do you yet have a sense of what steps 
you would take to facilitate coordination and collaboration?
    Response. If confirmed, I want to make sure that the enforcement of 
USERRA is done effectively and efficiently. I read the recent GAO 
report which found that DOL outperformed the Office of Special Counsel 
(OSC) in terms of customer satisfaction, timeliness, and costs. If 
Members of the Committee or other enforcement agencies have ideas and 
best practices for VETS to adopt, I would be happy to have those 
conversations.

    Question 9.  The White House and the VA started the End Veteran 
Homelessness Initiative in 2010 to end veteran homelessness by the end 
of 2015. DOL-VETS administers the Homeless Veterans' Reintegration 
Program (HVRP) to assist with returning homeless veterans to the 
workforce.
    A. As the homeless veteran population continues to decline, do you 
yet have a sense of how this may affect the demand for HVRP, and how 
could HVRP potentially be adapted in the future in response?
    Response. I fully support President Obama's initiative to end 
homelessness among veterans. It is unacceptable that men and women who 
wore the uniform are returning without a safe, stable place to call 
home. In spite of the decline the numbers of homeless veterans 
nationwide, I think we have to continue to set the bar high, invest 
resources and effort, and refuse to scale back on the vision of 
eliminating homelessness among veterans. If and when we get to a point 
where HVRP might need to be adapted, I look forward to working with the 
Members of the Committee.

    B. Do you yet have a sense of what successful practices developed 
by HVRP can be shared with JVSG or other programs for veterans 
employment to make them more effective?
    Response. The HVRP program is a good example of public-private 
sector partnerships. Leveraging the resources of the Federal Government 
with those of state and local governments, the business community and 
nonprofits can often lead to positive results. I've been able to forge 
similar partnerships during my time in Congress, and I'd like to 
explore those in my capacity as Assistant Secretary for VETS, if 
confirmed.

    Question 10.  On the completed questionnaire you submitted to the 
Committee, you listed a number of publications you authored that are no 
longer posted on-line. Would you please provide the Committee with a 
copy of each of those publications?
    Response. Attachments follow.
                          Serving Our Veterans



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
                      A Cultural Vision for Maine

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
   MAINE MADE--A Business & Investment Plan to Capitalize on Maine's 
                         Competitive Advantages



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
              Making Maine the Food Basket for New England

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Isakson. Thank you for your testimony. We are 
delighted to have you and, Senator King, we appreciate your 
introduction. Let me begin the round of questioning, 5 minutes 
each per Member, by making public notice of the fact that the 
Veterans of Foreign Wars and the Vietnam Veterans of America 
both have endorsed your nomination. I think that is a testimony 
to the service you have given to the veterans of America in the 
House of Representatives and I think that is a high honor to 
kick off this hearing with.
    Let me ask you a question. In talking about the last 
portion of your remarks, will you commit to me and commit to 
this Committee, Republican and Democrat alike, that when 
questions are made of your department with responses that are 
necessary to see how the programs of the Department of Labor 
and the employment of veterans are going, to give us your 
information in a timely manner and that it will be bipartisan 
and submitted to both sides?
    Mr. Michaud. Yes, sir, absolutely.
    Chairman Isakson. I noticed in your pre-testimony notes 
that one of the things you want to do is collect more data to 
be sure to monitor the programs of the Labor Department to make 
sure the employment that we hope is taking place is actually 
taking place. What type of information and data are you talking 
about collecting?
    Mr. Michaud. One of the issues I learned a long time ago is 
when you look at statistics and data, you have got to make sure 
that they reflect what is actually happening out there. I have 
seen how data has been misused, particularly when you look at 
the wait time issues in the VA.
    I want to be able to have an opportunity to sit down with 
the VETS staff to find out what data we are collecting. Is it 
legitimate data and what are the real outcomes of that data? I 
definitely would want to work with the VETS staff as well as 
the Committee staff to make sure we are collecting the 
appropriate data to look at how we can improve programs that 
are currently out there.
    Chairman Isakson. Well, that is exactly the answer I was 
hoping you would give, because around Washington and in our 
jobs, all we get is data, but usually in no perspective or with 
no analysis, and sometimes data in and of itself without being 
analyzed can lead you in the wrong direction. I think it is 
important that we have somebody in this particular job that can 
take the data, analyze it, and then interpret it for us; tell 
us whether or not the programs of our country are working or 
not for our veterans.
    Mr. Michaud. Thank you, sir.
    Chairman Isakson. Now, you served in the legislature for 20 
years; is that correct?
    Mr. Michaud. 22 years in the Maine legislature.
    Chairman Isakson. Served in Congress for 12, right?
    Mr. Michaud. Correct.
    Chairman Isakson. That is 34 years of service to the 
Government. Is that correct?
    Mr. Michaud. That is correct.
    Chairman Isakson. Why would you accept another 
responsibility like this after 34 successful years of public 
service?
    Mr. Michaud. Well, Senator, actually I thought I was going 
to go home and actually planned to build my log cabin on the 
Penobscot River.
    Chairman Isakson. That is why I asked the question.
    Mr. Michaud. It is a great opportunity. I know there have 
been concerns in the past with DOL-VETS; that is an issue. But, 
I am committed to serving our veterans and their families. This 
is a great opportunity, having had the opportunity to sit on 
that side of the table, to now be on this side of the table, to 
work collaboratively with Members of Congress on both sides, 
work with our veteran service organizations, and really focus 
on how we can move the programs that the DOL-VETS currently 
operate; how can we improve on those programs, how can we reach 
out with other organizations and stakeholders to really move 
forward.
    I am very committed, having seen our servicemembers in 
hospitals, overseas, my trips to Iraq and Afghanistan. We have 
done a lot, but we can do a lot more. I am looking forward, if 
confirmed, to bring in an outside pair of eyes from the inside 
and really moving DOL-VETS forward in a very positive 
direction.
    Chairman Isakson. Your 12 years of experience on the House 
Veterans' Affairs Committee matched with that commitment to 
service is going to make sure that you do a great job for the 
Department of Labor. We appreciate your willingness to accept 
that responsibility.
    Mr. Michaud. Thank you, Senator.
    Chairman Isakson. Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman. I wonder if 
you would comment and, I hope, commit to support the Work 
Opportunity Tax Credit Act that I mentioned earlier.
    Mr. Michaud. I would have to look at that Act, Senator. I 
am committed to looking at it in order to see what we can do to 
help our veterans get into jobs. When small and medium-sized 
employers needed help, I supported legislation in the past.
    When you look at the tax credit, I think we have to reach 
out to small businesses to find out where we can actually 
improve on that. One of the areas I have learned about is 
businesses; when they make their decisions they need 
predictability and stability; anything we can do at this end to 
provide that predictability and stability so they can hire more 
veterans I will definitely work with you and this Committee to 
move forward in that direction, even if it is outside of DOL-
VETS' jurisdiction, working collaboratively with other Federal 
agencies. I would be willing to do that, Senator.
    Senator Blumenthal. What would you do to increase 
employment opportunities for women in transitioning back to 
civilian life?
    Mr. Michaud. I think the first thing that we should do is 
to try to get women to actually realize that they are veterans, 
which is one of the areas that concerns me, not only with our 
female veteran population, but also the male veteran 
population. It depends on how you ask the question.
    Judge Reischolt, when I talked to him, on the Veterans' 
Court, he said if you ask an audience if they are veterans, you 
would have hands go up. If you change the question, how many 
served in the Armed Forces, more hands will go up. So, I think 
we have to identify and get the female veterans to identify 
themselves as veterans and really work hard to get them into 
the training that they might need.
    Senator Blumenthal. Are there specific programs necessary 
for women or do you think existing programs can be changed?
    Mr. Michaud. I have not looked at that closely, but we are 
willing to work with the Committee to look at, number 1, the 
existing programs that are currently there. Additionally, are 
there ways that we can tweak what programs that are currently 
there to actually help our female veteran population.
    Senator Blumenthal. I would appreciate, within a reasonable 
time of your taking over this job, that you give us a report on 
a strategy for enhancing employment of women veterans.
    Mr. Michaud. Yes, Senator.
    Senator Blumenthal. Then you can better answer the question 
that I have put to you. I appreciate your answer here.
    As you know, there are growing numbers and increasing 
quality of partnerships between various organizations that help 
veterans gain employment.
    I would give you one example. In my own State, Newman's Own 
Foundation is in an active partnership with The Mission 
Continues, a really excellent organization. As a matter of 
fact, one of my sons has worked for them. Also, the Farmer 
Veteran Coalition, both of them well respected organizations 
that empower veterans. That kind of collaboration should be 
encouraged. Would you agree?
    Mr. Michaud. Absolutely.
    Senator Blumenthal. What can the Department of Veterans 
Affairs do to encourage it?
    Mr. Michaud. One of the things--when I talked about the two 
projects in Maine, they were a collaborative efforts utilizing 
non-profit, public/private sector. I think we have to do a 
better job. When you look collaboratively at how can we get 
veterans into jobs, I would be willing to meet with those 
organizations, but also to reach out to some organizations that 
I do not believe that DOL-VETS has reached out to in the past 
such as the National Council of State Legislators.
    Get State legislators involved because they have a reach in 
their own respective districts back in their home States. I am 
all for collaboration, thinking outside the box, and how can we 
put our collective thoughts together into doing a better job 
than what we are currently doing now.
    Senator Blumenthal. Thank you. Regarding the Transition 
Assistance Program, the TAP program, I know you are familiar 
with it and I know you probably heard a good deal about it, 
both as a member of the Congress and before that as a member of 
the State legislature in Maine. Do you have any ideas for 
improving that program?
    Mr. Michaud. I think when you look at the TAP program, it 
is the cornerstone of one of the successes that DOL has 
operated without partners in the VA and DOD. I think we have 
got to continue work with our partners in that area to make 
sure that they have the best curriculum available and continue 
to always look ahead. I am one that is not to stay stagnant, 
not only here where we are today, but where will we be 5 years, 
10 years, 20 years down the road. There have been some 
concerns, I know, with TAP. I will definitely work with the 
VSOs and other stakeholders to hear their concerns and try to 
address their concerns.
    Senator Blumenthal. Thank you very much.
    Mr. Michaud. Thank you, Senator.
    Chairman Isakson. Senator Rounds.

        HON. MIKE ROUNDS, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Rounds. Thank you, Mr. Chairman. Sir, thank you for 
your willingness to serve once again. South Dakota is home to 
probably about 70,000 veterans, one of the highest rates of 
veterans per capita of any State in the Nation. Helping these 
men and women find opportunities in which they can use their 
military skills and training as they transition into a civilian 
life is something the VA has been working on. But, I suspect 
that there is more that can be done and there are more ideas 
out there on how to do it not only in South Dakota, but 
throughout the Nation.
    I am wondering if you could share with us, now that you 
have looked at this, you have considered the position that you 
are applying for in front of us, it seems that it would be very 
difficult to have had this amount of time without having 
thought ahead to say, Look, I want to make a difference, I want 
to see things different, I want things to get better.
    Can you share with us a little bit about your insight and 
your thoughts about how you can make a difference with regard 
to new initiatives, ideas that you have got to literally allow 
these veterans or these members of the military to step into 
civilian life and to be employed on perhaps a higher rate than 
they are today? Can you give us an insight?
    Mr. Michaud. Thank you very much, Senator, for that 
question. Yes. Since I have been nominated, I really appreciate 
how quickly the hearing has moved forward. I would want to have 
an opportunity to sit down and talk with DOL-VETS staff, which 
I have not had that opportunity as I have not been confirmed.
    I want to listen to them. I want to reach out to the 
veteran service organizations, which I have got a very good 
working relationship, have worked with them for my last 12 
years in Congress, and I can tell you they are not bashful 
about letting me know where they think certain areas and 
policies should be moving. I definitely would want to sit down 
and work with them more specifically about DOL-VETS and where 
we can move forward.
    A lot of it is to make sure that we continue to work on 
education, getting the word out what DOL-VETS has done, what we 
should be doing to actually improve it. If you look at the 
overall unemployment rate, it has been going down. The 
homelessness among our veterans' population has been going 
down.
    All the numbers are constantly going in the right 
direction, but I am not satisfied until we keep pushing that 
number further and further down, which means we are going to 
have to look at what we have not done that we should be doing, 
particularly if you are from a rural State. Working not only 
the workforce investment agencies nationally and then in 
respective States, but reaching out to State legislators and 
the National Council of State Legislature to really get them 
more involved in DOL-VETS and what they can be doing at the 
State level to help our soldiers and veterans get into job 
employment.
    Small businesses. If you look at small businesses, they 
account for a big portion of the workforce here in the United 
States. We need to do what we can to help small and medium-
sized businesses so that they can plan ahead, whether or not it 
is legislation that Senator Blumenthal had talked about or 
something else that we should be looking at.
    I definitely will be doing a lot of reaching out, looking 
at what has worked, what has not worked, where can we improve 
on the programs we currently have.
    Senator Rounds. One of those areas that I would suggest you 
take a look at--South Dakota is a good example. We have got a 
lot of tribal veterans that struggle to find jobs on the 
reservation. Would you consider and would you look carefully at 
the employment initiatives or new employment initiatives, or at 
least to consider whether or not the employment initiatives 
that might be available right now, whether or not they are 
working for tribal veterans both on and off the reservations?
    Mr. Michaud. Yes, I definitely would be willing to look at 
that and work with you, Senator, to see how we can improve on 
that and where we should be going.
    Senator Rounds. OK. I have had a few issues with homeless 
veterans, the veterans' center in Sioux Falls in particular. I 
think it is important that we help and then employ our veterans 
that need it the most. Do you have any initiatives or ideas to 
get homeless veterans employed long-term?
    Mr. Michaud. I think when you look at homeless veterans--
and that was one of the projects I mentioned in my opening 
remarks--where I was able to convince the Secretary to use some 
land at the VA facility to build cabins in the woods. Here is 
an area where you can get veterans together and then you will 
be able to bring the resources there to them to actually help 
them get the employment skills that they need.
    In thinking outside the box, over my tenure in Congress, I 
have always tried to find different ways of looking at 
different things, and I will do that not only with the homeless 
veterans, but our female veteran population, and other areas 
within the Department of Labor.
    Senator Rounds. Thank you, sir.
    Mr. Michaud. Thank you.
    Senator Rounds. Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Rounds.
    Senator Brown.

           HON. SHERROD BROWN, U.S. SENATOR FROM OHIO

    Senator Brown. Thank you, Mr. Chairman. Mike, nice to see 
you again. Thank you for your public service for so many years 
and the work you did in the House, especially on trade issues 
and so much else for workers.
    I have been on this Committee since my first day in the 
Senate in 2007 and what most struck me in those early days was 
the disconnect between the Department of Defense and the VA; 
the evidence was sort of indicative that Defense officials, 
from the commanding officer to the Secretary of Defense, did 
not have all that much concern for these men and women once 
they left the service.
    They would return to their communities. In those States 
like mine where there is a veterans service officer and a 
veteran service office, they might know of the soldiers', now 
veterans', existence. The local VA, the local veterans' 
hospital in Chillicothe or Cleveland or Cincinnati would likely 
not know of them, nor would the CBOC, the community-based 
outpatient clinic necessarily know of them when they return. 
They only knew if the veteran sort of checked into the VA and 
the VA often did not have any medical records even though they 
had had medical records in the service.
    I think that with General Shinseki's time as Secretary and 
now with Secretary McDonald's time, I think we are doing 
better. There is more interface between DOD and VA so that when 
a soldier is home from Iraq on leave, at least the local VA may 
have his medical records. I think we still have a long way to 
go there.
    So, my question with that too-long preface is, how do you 
reach those soldiers and sailors and airmen and women and 
Marines that have come home, that are no longer part of the 
armed services, they are now back in Portland, ME, or Toledo, 
OH. They have not really checked into the VA so the VA, even if 
they have records, do not necessarily know he is back in or she 
is back in Swanton, OH.
    How do you reach people like that that have not sort of 
integrated themselves, shown themselves back in Ohio or West 
Virginia or Hawaii or South Dakota? How do you find them so 
when they are unemployed or are looking for a better job skills 
or want to take what they have learned as a medic in Iraq and 
now want to come back and be an EMT and certified in Ohio? How 
do we work that through so those veterans can be found and can 
be helped? I mean, what is your role in that, working, I 
assume, with the VA in your role at DOL?
    Mr. Michaud. Actually, it is a combination of several 
different things, Senator. I mean, you hit the nail on the head 
when you look at whether it is Department of Defense or the 
Department of Veterans Administration. They have got to give 
directives to agencies underneath them that they want this to 
be a top priority, trying to get veterans into jobs, and do 
whatever they can to break down the stove pipes to work across 
departmental lines and within the Department to provide the 
knowledge of DOL-VETS and to ask, how do we identify the 
veterans once they come back home, particularly in a rural 
State.
    One of the advantages I have is that over my 12 years in 
Congress, really, is the ability to work with staff at the 
Department of Veterans Affairs. I know Secretary McDonald is 
doing a great job. He worked with the Department of Defense to 
give us the information that we need to help track this. A lot 
of this is going to have to be voluntary, as well.
    When you look at it, particularly in the rural areas, an 
agency I would like to like to reach to and work closer with is 
Health and Human Services, as well. If you have a veteran that 
might be signed up for Medicaid or Medicare, if we can identify 
them on a form that they are a veteran, that information could 
be given to DOL-VETS so we can help them.
    Senator Brown. Is that done now, to your knowledge? 
Somebody comes home, served in Europe, they come back to 
Cleveland or to Portland and they go file for food stamps or 
they go file for Medicaid--does the VA or DOL find out about 
that person's existence?
    Mr. Michaud. To my knowledge, no, it is not set up. That is 
something that I definitely would like to look at, as well as 
education. Yes, DOL-VETS has done a good job working with a lot 
of employers, but when you look at the human resource personnel 
in those companies, they change. It is a constant type of 
education that we have to do to try to educate repeatedly of 
what DOL-VETS does.
    Senator Brown. I would like to work with you in doing that 
better because we clearly have not in the past. One note of 
caution. I know a good bit about your State from serving with 
you, discussions, and other things. I know you come from a 
rural State. You twice in that answer said particularly in 
rural areas.
    I am not sure that it is worse in rural areas. It is 
probably worse in Appalachia, OH, than it is in more 
agricultural, western Ohio, but I am not sure it is worse in 
authorities locating the returning veteran. I am not sure it is 
worse in rural America than it is urban America.
    I want to caution you that I kind of know where you start 
politically and that is fine, but this wonderful country, these 
problems, I think, are not much different understanding rural 
services. They are always ``more remote'' by definition, but 
there are all kinds of holes in the system. So, thank you.
    Mr. Michaud. No, absolutely. I will look holistically on 
how to address these problems.
    Senator Brown. I know that. Thank you.
    Chairman Isakson. Senator Moran.

           HON. JERRY MORAN, U.S. SENATOR FROM KANSAS

    Senator Moran. Mr. Chairman, thank you very much. 
Congressman Michaud, nice to see you again.
    Mr. Michaud. Likewise.
    Senator Moran. Thank you for the number of times we have 
worked together on veterans' issues in the House. Perhaps a bit 
contrary to what Senator Brown was suggesting, I wanted to make 
sure you remain committed to veterans in rural America, and I 
particularly appreciate that you and I teamed up on ARCH, a 
program designed to create a pilot program to try to get 
veterans to be able to access health care services with home 
town physicians and hometown hospitals.
    I know that you are politically adept enough to answer my 
question that yes, you care about veterans and understand rural 
America, but I am not worried about how you would answer that 
question, I mean, because you would answer it because you do. 
So, I am grateful for that kind of person who understands the 
places that I come from and represent in the Department of 
Labor.
    I would point out to you that one of the things that we are 
working on is expanding the opportunity of the G.I. Bill of 
Rights for purposes of entrepreneurship, the ability of a 
veteran to be in a business, to start a business. It is an SBA 
program.
    I do not know that your paths will cross with this issue, 
but it is another opportunity that I want to make sure you are 
aware of, that while we talk about education, training, and 
work force training, there are veterans who have the ability 
and the desire to be an entrepreneur, to start a business. I 
actually visited with Secretary Perez about these issues and 
would welcome your input, support, and consideration over time 
in this position as we try to figure out ways to help a veteran 
begin a business, as compared to going to school.
    Then I would urge you, in your position as you come into 
contact with the Department of Veterans Affairs, to make 
certain that we work hard to meet the needs of veterans in the 
places that we find them and to encourage the Department of 
Veterans Affairs to deal on an ongoing basis with information 
to Members of Congress.
    One of the advantages that comes from being a Member of 
Congress to serving in an Administration is an understanding of 
the role that Members of Congress play, certainly in 
appropriations and oversight, in constituent casework and 
service. I hope that you would you use your position at the 
Department of Labor, but also within the Department of Veterans 
Affairs, to encourage that kind of cooperative relationship in 
which we have information that can be helpful to you and to 
your colleagues, both at the Department of Labor and the 
Department of Veterans Affairs.
    So, Mr. Michaud, I simply am pleased to see you again. I 
appreciate the work that we have encountered. Our paths have 
crossed so often in the past and I wish you well in the new 
position.
    Mr. Michaud. Thank you very much, Senator. I look forward 
to continue working with you on issues that affect our 
veterans, from this side of the table, although it feels 
comfortable on that side as well. I can see it from both sides 
now, but look forward to working with you on the issues.
    Senator Moran. Incidentally, when you quoted President 
Kennedy, it sounded a lot more like President Kennedy than when 
I do.
    Chairman Isakson. Senator Hirono followed by Senator 
Manchin followed by Senator Boozman.

         HON. MAZIE K. HIRONO, U.S. SENATOR FROM HAWAII

    Senator Hirono. Thank you, Mr. Chairman. It is great to see 
you, Mike. I had the privilege of working with our nominee for 
6 years in the U.S. House and in that time I certainly watched 
a person with great heart and a singular commitment to helping 
the people of this country and certainly of our States. Thank 
you very much for wanting to get back in the saddle again.
    I do share Senator Blumenthal's concern about a special 
emphasis on helping women veterans because the data shows that 
they have lower employment and under-employment rate than the 
male veterans. I would also be very interested in your thoughts 
should you become confirmed, which you will be.
    In addition, when we talk about data and the stock that you 
place in making sure that you really understand where the 
veterans are, the facts show that the unemployment rate is 
higher for the post-9/11 veterans than for the other veterans. 
I would also ask you, unless you already have some thoughts 
about how you would focus on the post-9/11 veterans and how you 
can particularly help them with their employment issues.
    I also appreciated the fact that you understand that the 
stove-piping of the various departments, how important it is 
for a whole-of-Government approach to help our veterans. For 
example, HUD has their voucher program to help with vouchers 
for housing for veterans and, of course, the more closely the 
DOD and VA can work to enable a better transition, that is 
great.
    Are you aware of any Department of Labor programs that are 
particularly working with regard to veterans that you would 
seek to expand should you be confirmed?
    Mr. Michaud. Thank you very much. I definitely would want 
to, if confirmed, once I am over at the DOL-VETS, look at all 
the programs that they have and really take an outside view of 
whether or not they are working and how can we improve on what 
they have been doing, then work with this Committee to find 
ways where we can actually improve on those particular 
programs.
    Having said that, Senator, I do not have any plan that we 
are going to change these programs a certain way. I want to 
have time to really look at what is happening and work with 
this Committee to find where we can improve on that.
    I do have ideas on how we can do a better job working with 
our stakeholders, working more collaboratively with other 
departments to make sure that we are all pushing in the same 
direction and reaching out to stakeholders, that we might not 
have done a good job in the past. I will be working with you to 
do what we can to address the concerns that you might have.
    Senator Hirono. Of course, working collaboratively with 
other departments to pool resources. I think this is an area 
that Senator Brown touched upon, is that during active service, 
our servicemembers learn a lot of skills and we need to 
translate those skills in ways that employers can understand, 
that those skill sets that were obtained during service can 
apply to their workplaces.
    There have been discussions about how we can better define 
and describe the kind of experiences that our active 
servicemembers have that could be very useful in the private 
sector. So, I hope that that will be a continuing effort on 
your part in a very practical way.
    Mr. Michaud. It definitely will, Senator. When you look at 
the skill sets that our military men and women are bringing 
back, they are a key. You also look at each day, particularly 
if those skill sets require getting a certification or 
licensing, how can we make that process operate more 
efficiently and effectively, and that will be one of the areas 
I will be focusing on, certification and licensing.
    Senator Hirono. Thank you. Thank you, Mr. Chairman.
    Chairman Isakson. Senator Boozman.

         HON. JOHN BOOZMAN, U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you, Mr. Chairman, and thank you, 
Senator Manchin, for letting me jump in. I simply wanted to 
come in and say how much--that I do support you. I enjoyed so 
much working with Mr. Michaud in the House for many, many 
years. Again, you have got my 100 percent support and I give 
that for a couple different reasons.
    First of all, no one was more active on the Committee than 
you, again, working for veterans. The other thing was that no 
one worked across party lines any more than you did, because 
the emphasis was always, you know--this is so true in this 
Committee and the House Committee--the emphasis is always on 
veterans.
    I appreciate your hard work and look forward to working 
with you in the future. Again, I am just excited that we have 
got somebody so capable and willing to do this. It is a big job 
and there are lots of challenges out there, but I do not think 
anybody is more capable than you. Thank you very much.
    Mr. Michaud. Thank you very much, Senator, appreciate it. I 
look forward to working with you as well.
    Chairman Isakson. Senator Manchin.

     HON. JOE MANCHIN III, U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you, Mr. Chairman, and thank you, 
Mr. Michaud, for your service and continued willingness to 
serve. First of all, what would you consider the greatest 
challenge to finding veterans jobs? I mean, from what you know 
and you have been involved with what is the greatest challenge 
vets are facing right now?
    Mr. Michaud. I think, first of all, I might say that if you 
look at the numbers, we are going in the right direction. The 
unemployment numbers are constantly going down, which is great. 
I think we have got to continue to tell the good story of what 
DOL-VETS is currently doing with employers around the country, 
reaching out to small and medium-sized businesses as well as 
talking to them about the benefits of hiring a veteran, what 
they bring to the table.
    It is that constant reaching out, I think, is a problem 
that we have got to continue to address. In thinking outside 
the box, how can we get the agencies working more 
collaboratively together? They have done a pretty good job, but 
there is always more work that can be done.
    Senator Manchin. There are a couple of things. As far as 
you were talking about, you were going to be working on making 
sure they had their certifications and classifications and 
things of this sort. If a person in the military has skills 
equivalent to a CDL, heavy equipment, can you fast track or can 
you make sure the Department of Labor and the civilian setting 
will recognize that so they do not have to go through the whole 
training process again, which is time-consuming and it hurts 
their job possibilities?
    The things that they are trained for in the military 
basically should be certifiably recognized when they go into 
the private sector, and we find that there is a disconnect 
there.
    Mr. Michaud. There is a disconnect. That is the reason why 
I brought up that we definitely have to do more work to try to 
match up the skill set that they attained while they were in 
the military, and determine once they leave the military what 
does that match-up look like.
    We also have to deal with individual States when you look 
at certification and licensing, and that is an area, I think, 
we can do a better job in as far as reaching out to the work 
force agencies within those respective States and the national 
associations and also the National Council of State Legislators 
as well, because legislators are very interested in their State 
policies and we can bring them on board to help us.
    Senator Manchin. Also, improve information sharing. 
Basically, a person is going to be discharged, they are 
electing to leave. Have you looked at the different ways that 
we are able to link them up with an employer that is looking 
for an employee that has their skill sets? We find out that 
disconnect.
    We have tried everything humanly possible. I started the I 
Hire A Vet campaign with Mark Kirk from Illinois. We also 
started Jobs Caucus, Veterans Jobs Caucus. We find out everyone 
is trying to do all these things, but there is no single 
portal. Basically, if I am in the military and I am about ready 
to discharge, I can say I want to work in northeast, southeast, 
midwest, whatever, and I would like to work with a company 
needing the skill sets that I have.
    Then be able to have that employer get on that same Web 
site and say, Wait a minute, we might want to talk to this 
person. That is what we are trying to do and we are having a 
hard time at the Department of Labor and with all the different 
portals that are available just synching them up. You all might 
be able to do it.
    Mr. Michaud. That is something I definitely would like, if 
confirmed, to work with you, Senator, on how we can do that.
    Senator Manchin. Next, what is your highest-possibility--
your length of time here will not be that long. We hope it 
would be, but it might not be because we have a change coming, 
however that change goes. So, if you have a short tenure, let 
us say 16 months or so, what is your highest priority to get 
something accomplished in that period of time?
    Because I know we have asked you a lot of good questions 
here and there are a lot of things that need to be done, but if 
you hone in on one thing, what would you do?
    Mr. Michaud. First of all, Senator, I would not be looking 
at this as a short timeframe. I am looking at, if confirmed by 
the Senate, how could we make these programs not only short-
term, but long-term, start setting the seed. Because yes, this 
is an appointed position, but we have a lot of career dedicated 
individuals at DOL-VETS that will be there long after I am 
gone. We want to set that seed so that they can move forward 
continuing doing the job in areas that we might be able to 
improve during the short time that I am there at the Department 
of Labor.
    Senator Manchin. Any one thing that piques your interest? I 
mean, one thing that really gets you that you like there?
    Mr. Michaud. Actually, there are several things. I 
mentioned certification and licensing. That is definitely one 
area. Then looking at how to reach out to a female veteran 
population, get them in jobs; homelessness, to continue trying 
to get that number down.
    Senator Manchin. Female population based on employment?
    Mr. Michaud. Yes, correct.
    Senator Manchin. Correct?
    Mr. Michaud. Yes. Additionally, how could we get more 
individuals or organizations involved in realizing what DOL-
VETS does to help get veterans into jobs. So, it is an ongoing 
education process that I will work day and night to continue 
doing whatever I can to make sure we get the message out there. 
On the good work that has been done, how can we improve in that 
regard. Thank you, Senator.
    Chairman Isakson. Senator Sullivan.

          HON. DAN SULLIVAN, U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chair, and Congressman 
Michaud. I want to thank you for your service and your strong 
interest in this important job. I also want to compliment 
Senator Manchin before he heads out the door there. I mean, 
those are a great series of questions and, as a matter of fact, 
I think that is exactly what we should be focusing on: all 
these different portals; all these different ways in which we 
can bring together what are clearly some of the most qualified 
employable Americans.
    I mean, we are doing companies and other organizations a 
service to link up these young men and women who are getting 
out of the service or have served and need employment.
    Let me ask you kind of a more specific question. I 
certainly would want to work with you, Senator Manchin, and 
others on how we streamline that, because everybody thinks that 
is a good idea, but as Senator Manchin mentioned, it does not 
always work and it is very bureaucratic. One issue--in some 
ways I hope does not happen, but it looks like it might be on 
the horizon though I think a lot of us are trying to work to 
reverse it, but--the Army right now has said they are going to 
cut 40,000 troops, 40,000 troops. I think if you look at the 
strategic situation right now for the United States globally, 
that is a strategic mistake which, hopefully, we can reverse.
    A number of those troops are actually scheduled to be cut 
in Alaska, which again, I think is a bad idea, a very bad idea 
for the country, for our defense, for our veterans. But are 
there plans? Do you know if the VA talks to the Department of 
Defense and say, Hey, we just announced a 40,000-troop cut 
reduction in just the Army? Over to you, VA, to take care of 
these young men and women.
    I mean, what are we doing to prepare if these kind of troop 
cuts go forward, which again, I am going to do everything in my 
power on the Armed Services Committee to make sure they do not 
because I think it is bad for the country. So, what is the 
preparation from the VA side and is there any kind of hand off 
or discussion between the VA and DOD on these kind of issues?
    Mr. Michaud. My primary focus will be in the Department of 
Labor VETS--is in the Department of Labor. But when you look at 
the VA, DOD, and DOL-VETS, what we are doing--I do know that 
the numbers that the Department of Labor VETS program we are 
looking at is on that draw-down and that workforce, should they 
change, you know, it changes.
    One thing that--and you are absolutely right, what Senator 
Manchin talked about, you know, working across departments; you 
have got to break down the silos that are currently out there, 
which is difficult at times to do.
    A good example is the Secretary of Veterans Affairs, 
Secretary McDonald. When he got nominated he asked me what 
should he look at to break down those silos and communicate 
better among the different agencies within the VA. I brought 
forward a plan to actually reorganize the whole Department, an 
out-like plan, and because of what happened in Phoenix, AZ, the 
Secretary looked at that and he is actually moving forward in 
reorganizing the Department of Veterans Affairs, which I am 
very appreciative about.
    When you look at your specific question, DOD, the draw-
down, VA, what they have got to do to try to take care of the 
soldiers that will be going into the VA, what DOL will be doing 
as far as taking care of the soldiers is trying to get them 
into jobs. We have to start planning not only short-term but 
long-term.
    One of my goals, if I am confirmed by the Senate, is to 
have a short-term plan and a long-term plan to start addressing 
some of these situations and to take into consideration some 
things that are beyond our control, if the economy gets worse, 
you know, what are we going to have to do.
    Senator Sullivan. Good. Let me turn to an issue that I am 
sure is of interest to you given that you and I are both from 
rural States. Alaska is 20 times larger than Maine, so it is a 
little bit of a different scale. What are we doing--what would 
you say we need to do in terms of a focus to take care of our 
vets that are in rural or even remote areas?
    Mr. Michaud. I think we have to reach out to the veterans 
to let them know what benefits are currently out there and part 
of that gets----
    Senator Sullivan. How do you do that? I mean, it is one 
thing to do it in a city. It is another thing in a small town 
or small community or, in the case of Alaska, very remote 
communities that are not connected by roads or anything like 
that.
    Mr. Michaud. By working with the stakeholders, as I 
mentioned earlier, by working closely with the National Council 
of State Legislators. We have got legislators all over and they 
always enjoy doing constituent work for their constituents. Let 
them know what DOL-VETS is doing and have them help get the 
word out there, reaching out to small and medium-size 
employers, focusing on the advantage of hiring a veteran, and 
have them help get the word out there.
    In working with other agencies that might be able to help 
DOL-VETS identify the veterans that are out there. That is an 
area where we have to do a better job, is how do we identify 
these veterans that are currently out there to let them know 
what services are available.
    And the veteran service organizations, they do a great job; 
to work closely with them to bring them on board to help spread 
that word. It is a lot about communication, access to 
information, and making it readily available and understandable 
so that our veterans know what is therefor them.
    Senator Sullivan. Thank you.
    Mr. Michaud. Thank you.
    Senator Sullivan. Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Sullivan. Thank you, 
Mr. Michaud, for your willingness to serve the country, for 
your forthrightness in the testimony today. As I indicated at 
the beginning of the meeting, we will hold the record open only 
through Monday of next week if anybody has any additional 
questions or information. I will move toward a mark-up pending 
no objections coming up before next Tuesday, so we will try and 
get you in a position where confirmation can take place as 
early as possible. Again, we thank you for your service to the 
country, to the veterans of the United States of America.
    Mr. Michaud. I would like to thank you, Senator, and the 
Committee for having this hearing and look forward to working 
with you, if confirmed. Thank you very much.
    Chairman Isakson. As do we. The hearing is adjourned.
    [Whereupon, the hearing was adjourned at 3:34 p.m.]
  Response to Posthearing Questions Submitted by Hon. Thom Tillis to 
  Michael H. Michaud, Nominee to be Assistant Secretary of Labor for 
                   Veterans' Employment and Training
    Question 1.  Mr. Michaud, in the 112th Congress, you voted for H.R. 
4072, a bill that would have transferred the programs under the 
Department of Labor's Veterans' Employment and Training Service (DOL-
VETS) to the Department of Veterans' Affairs. What prompted you to 
change your position on this issue?
    Response. While a member of the House Veterans' Affairs Committee, 
I had an opportunity to meet with a number of veterans' service 
organizations who strongly believed that consolidating VETS into the 
Department of Veterans' Affairs (VA) would improve employment services 
for veterans. Since that time, however, I've seen the efforts the 
Department of Labor has made to increase coordination with their 
partners at the Department of Defense and the VA; to redesign the 
Transition Assistance Program to ensure that it remains relevant for 
all servicemembers; and maximizing the employment and training 
opportunities developed though the Department's relationship with State 
Workforce Agencies.
    In addition, while the VA is primarily a benefits agency, and that 
can include educational benefits, the Department of Labor has the 
expertise and nationwide infrastructure to best provide skills training 
and employment opportunities for anyone who needs them, including 
veterans. The coordinated actions and long term collaborative 
relationships between VETS and other agencies within DOL create synergy 
through the integration of all department resources and expertise on 
veteran employment. The Department's connection with the state 
workforce agencies in nearly 2,500 AJCs across the Nation helps to 
facilitate veteran employment with large national employers as well as 
small and medium sized businesses.
    VETS is also a key partner in the implementation of the Workforce 
Innovation and Opportunity Act (WIOA), which requires states to unify 
workforce and education programs in their planning and service 
delivery. As this new model is rolled out nationwide, DOL has put 
veterans first by emphasizing the continuation of priority of service 
for veterans and redefining eligibility in programs, like dislocated 
workers, to ensure transitioning servicemembers and their spouses have 
all the resources they need to enter and advance in the workforce.
    Given the improvements made by VETS, the expertise of the 
Department, and the critical moment in the implementation of WIOA we 
are in, removing VETS' programs from this integrated network would, in 
my opinion, diminish the economic outcomes for our transitioning 
servicemembers and veterans. If confirmed, I will be committed to 
ensuring that our transitioning servicemembers and veterans continue to 
have the resources and expertise to assist and prepare them to obtain 
meaningful careers, maximize their employment opportunities and protect 
their employment rights.

    Question 2.  In March 2015, Wisconsin attempted to transfer 
administration of the state Jobs for Veterans State Grants (JVSG) 
program from the Wisconsin Department of Labor to the Wisconsin 
Department of Veterans' Affairs. DOL-VETS denied Wisconsin's request. A 
similar dispute remains unresolved between Texas and DOL-VETS, with 
Texas advocating for more discretion given to the states while DOL-VETS 
advocates to keep the program under the authority of state labor 
agencies. Do you believe it should be up to the states or DOL-VETS to 
decide who has jurisdiction over the JVSG program?
    Response. Congress appropriately conditioned each state's receipt 
of Jobs for Veterans State Grants on a number of requirements, 
including the requirement that the Disabled Veterans' Outreach Program 
and Local Veterans' Employment Representatives program be integrated 
into the employment service delivery systems in the State. Congress 
over time through the VOW to Hire Heroes Act and through WIOA has made 
additional statutory changes designed to improve the delivery of 
workforce development services to veterans. The changes made by these 
important statutes mean that the Department needs to continue to work 
closely with state and local workforce staff to ensure that both are 
implemented successfully. While I understand that we should not have a 
one-size-fits all approach to serving veterans, if confirmed, it will 
be my responsibility to ensure that VETS meets its statutory 
obligations and to ensure that veterans receive the high-quality 
workforce development services.

    Question 3.  In Fiscal Year 2014, DOL-VETS resolved 1,140 Uniformed 
Services Employment and Reemployment Rights Act (USERRA) cases. By what 
date will you release a plan to improve adherence to USERRA's 
employment protections?
    Response. I understand that in accordance with 38 U.S.C. 
Sec. 4332(a), the Department is required to issue a report each year to 
Congress that includes recommendations for administrative or 
legislative action that the Secretary of Labor, Attorney General, or 
Special Counsel considers necessary for the effective implementation of 
USERRA. The most recent report was issued in July 2014, and if 
confirmed, I plan to continue to meet this reporting requirement.

                            A P P E N D I X

                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 



            NOMINATION OF MICHAEL J. MISSAL TO BE INSPECTOR 
              GENERAL, U.S. DEPARTMENT OF VETERANS AFFAIRS

                              ----------                              


                       TUESDAY, NOVEMBER 17, 2015

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:34 p.m., in 
room 418, Russell Senate Office Building, Hon. Johnny Isakson, 
Chairman of the Committee, presiding.
    Present: Senators Isakson, Boozman, Cassidy, Rounds, 
Sullivan, Blumenthal, Brown, Tester, and Manchin.

   OPENING STATEMENT OF HON. JOHNNY ISAKSON, CHAIRMAN, U.S. 
                      SENATOR FROM GEORGIA

    Chairman Isakson. The hearing of the Senate Veterans' 
Affairs Committee will come to order. We have Members that are 
on the way--in fact, one arriving as we speak. Thank you, 
Governor Rounds. We are glad to have you.
    The purpose of today's meeting is to have a hearing with 
the nominee for the Inspector General position for the Veterans 
Administration, Mr. Michael Missal, whom I have had the 
privilege of meeting with previously in my office. I am glad he 
is here to testify today. I hope when he does testify, he will 
introduce his family members, all of whom are also here. We are 
glad to have you here and appreciate your willingness to serve 
and respect the nomination you received from the President.
    Of all the confirmation hearings that I am involved in this 
year, I know of none more important than this one. Quite 
frankly, a lot of times I think members of the Senate--
certainly not Senator Blumenthal or myself, but some members of 
the Senate take these for granted. But, in this case, we have a 
very serious problem at the Veterans Administration. We 
basically have an organization which is the second largest 
agency in the Federal Government, an organization that has had 
employees indicted at the Charlie Norwood VA in Augusta, GA; 
administrators of hospitals fired for cause in Phoenix, AZ; 
$1,382,758,000 cost overruns at a hospital that is 13 years 
late in being built; difficulties of management from one to 
another; delayed benefits to our veterans; and, quite frankly, 
an organization whose management has been spotty at best.
    To the credit of Secretary McDonald, who is the new 
Secretary of the VA, he is trying hard, and Sloan Gibson, his 
Chief Deputy, is doing the same, yet, we have a long way to go. 
The Inspector General's position probably is more important in 
this agency than any other single agency in the Federal 
Government, because we have to have the eyes and ears of the 
American taxpayer looking over the shoulder of the 
Administration of the VA to see to it that our veterans get the 
benefits and the services they deserve and we have 
accountability for the American people.
    Last Wednesday, on Veterans Day, I appeared on Fox 
Television in New York trying to talk about the things our 
Committee, Democrats and Republicans alike, have done for our 
veterans and to mark that particular holiday. As I was sitting 
in the green room practicing what I was going to say to try to 
take 3 minutes to say some good things about what we have done 
for our veterans, the announcement came out that the VA had 
paid $140 million in bonuses to Veterans' employees on last 
year's service, a year in which we had closed hospitals, had 
cost overruns, and a year in which we had had people lose their 
benefits. So, it struck the cause to me as to why this hearing 
is so important today, because as the American people think the 
VA is broken, while we are trying to fix it and we are making 
improvements, we have not crossed the Rubicon yet to be looking 
in the positive direction of the future. I think the IG's 
Office can help us do that by rooting out the problems that are 
left, giving us the recommendations to solve them, and making 
the tenacious bulldog-type statements that you have to make to 
get the attention of the management of the Veterans 
Administration.
    There is no more important confirmation hearing to me in 
the U.S. Senate today, or any day, than what we consider for 
the VA today. We welcome you, Mr. Missal, and thank you for 
being here. Thank you for your willingness to consider it. I am 
glad we have got Members here to ask the questions they will 
ask, and I am happy to turn it over to the Ranking Member from 
Connecticut, a former Attorney General, like Richard 
Thornburgh--who we are delighted, by the way, is in the 
audience today. The Ranking Member from Connecticut, Senator 
Blumenthal.

 OPENING STATEMENT OF HON. RICHARD BLUMENTHAL, RANKING MEMBER, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman. I want to join in 
welcoming Attorney General Thornburgh. Welcome, General 
Thornburgh, to a place where you have been many times before on 
Capitol Hill, and welcome to your family, Mr. Missal.
    I want to just say by way of opening remarks that we were 
all deeply troubled by the announcement of these $140-plus 
million in bonuses. Bonuses for bad actors are a disservice to 
the many hardworking, honest VA employees who do their jobs 
every day with distinction for the veterans of America. These 
bonuses in some cases seem hugely unjustified, and I hope that 
action will be taken to prevent such unwarranted rewards in the 
future so that we can reward the ones who really deserve 
bonuses.
    Your position is one that has been very much on my mind 
since the time that I came to the U.S. Senate, and before, 
because as Attorney General, a law enforcement officer in the 
State of Connecticut, I am very much aware of the importance of 
thorough, aggressive investigation and fact finding as a 
preventive, deterrent, and punitive tool when needed.
    The Office of Inspector General for too long has been held 
by an acting individual. I pushed that acting individual in the 
wake of some of the disclosures about Arizona and the waiting 
lists, the cooked books, and fraudulent recordkeeping to enlist 
the Department of Justice in his efforts. That request was 
resisted for too long.
    The kinds of aggressive and proactive measures from this 
Office of Inspector General I hope will be forthcoming when you 
are in this position. In just a moment, I am going to introduce 
you, with the Chairman's permission, but I just want to say 
that your taking over this job should be a part of not only 
stronger law enforcement within the VA, but also a change in 
culture, because deterrence and preventive action are really 
what is needed here to regain the trust of Congress and the 
American people. Aggressive and proactive action from the 
Inspector General are very important.
    Timely access to care remains a significant challenge. The 
VA's most recent wait time numbers indicate nearly half a 
million veterans still cannot access health care within 30 
days. That is unacceptable. Last Saturday, the VA had a stand-
down to address the inexcusably high number of records the VA 
had identified as needing urgent care, and they could not 
identify whether or not an appointment had been made.
    I am glad that the VA is taking this kind of action, but, 
again, the Inspector General should have a role in the fact-
finding and investigative efforts that are related to this kind 
of stand-down.
    Mr. Chairman, with your permission, I am going to introduce 
the nominee----
    Chairman Isakson. Without objection.
    Senator Blumenthal [continuing]. Since he is from 
Connecticut, a son of Bristol, CT, here with his wife, Deborah, 
who is from Westport, CT, nearer to my hometown; and with his 
son, Jordan, who is a senior at Washington and Lee. 
Congratulations on successfully persuading your son to be here 
in the midst of his senior year. [Laughter.]
    As a father of four, I know that is no mean feat.
    I also want to welcome your sister, Susan, who, like you, 
hails from Bristol, and her husband, Sandor. They have made the 
trip from Miami. Welcome.
    Harold Missal, your dad, I know is part of the reason why 
this job is so inspiring to you. He was a decorated World War 
II veteran who served in the Army's 286th Engineer Combat 
Battalion and received five Battle Stars as well as the Purple 
Heart. He served as a highly-respected State judge in 
Connecticut. I think I may have appeared before him in the 
course of my own practice as Attorney General as well as before 
that in private practice. He retired as a senior judge of the 
Connecticut State Supreme Court and served with the same 
distinction as he did as a member of the armed services.
    I hope that you will ensure that the VA is an agency that 
supports and helps heroes like your dad who have put their 
lives at risk. I am sure that he and your mom, Rose, would be 
very proud of your service to our Nation and your service here 
today.
    I look forward to hearing more about your professional 
experience, about how you will serve the VA and the veterans of 
America. Yet, one point that I want to emphasize, which I think 
is a view shared by this Committee, is that the accountability 
of your office to this Committee is essential. As this hearing 
will show, there was a delay in providing information in the 
past in certain instances. I hope that lag or gap in 
responsiveness will be overcome and cured when you are in this 
position.
    I especially appreciate your writing on the importance of 
whistleblower protections, a critical issue before this 
Committee, and one on which I will have more to say on the 
floor of the Senate later this week.
    The American taxpayers as well as American veterans express 
their appreciation for your service. Thank you.
    Chairman Isakson. Under the rules of the Committee, the 
testimony of all Presidential nominees appearing before the 
Committee must be taken under oath. Mr. Missal, I would ask 
that you stand and raise your right hand. Do you solemnly swear 
and affirm that the testimony you are about to give before the 
Senate Veterans' Affairs Committee will be the truth, the whole 
truth, and nothing but the truth, so help you God?
    Mr. Missal. I do.
    Chairman Isakson. Please be seated. Thank you for your 
testimony today. You will be recognized for up to 5 minutes, 
and if you run a little over, nobody is going to throw a flag 
on you. We would love to hear from you. [Laughter.]

    STATEMENT OF MICHAEL J. MISSAL, NOMINEE TO BE INSPECTOR 
          GENERAL, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Missal. Thank you. Chairman Isakson, Ranking Member 
Blumenthal, distinguished Members of the Committee on Veterans' 
Affairs, and veterans who have served our great Nation. It is 
an honor and privilege to testify before you today as the 
nominee to be the Inspector General of the Department of 
Veterans Affairs.
    I would like to recognize some special people who are here 
today. First, my wife, Deborah, and our son, Jordan, who is a 
senior at Washington and Lee University has agreed to come 
today. My sister, Susan Lenner, and her husband, Sandor, are 
here from Miami. In addition, former Attorney General and 
Governor of Pennsylvania Dick Thornburgh and his wife, Ginny, 
drove a long way to be here. Dick has been a great mentor, law 
firm colleague, and friend for a number of years. I would also 
like to thank the many friends and colleagues for attending 
today.
    This would have been an incredibly proud day for my 
parents, Harold and Rose Missal, but, unfortunately, both 
passed away a number of years ago. Aside from family, the most 
important things in my father's life were his military service 
and his public service. My father was a World War II veteran 
who fought in Europe with the Army's 286th Engineer Combat 
Battalion. He was a proud veteran and truly one of the 
``Greatest Generation.''
    My father was also a State judge in Connecticut for more 
than 30 years. He instilled in me the importance of public 
service and the concept of ``giving back.'' He believed that 
there was no higher calling than being in public service and 
working hard to make a difference in people's lives. I started 
my legal career in public service and have always desired to 
return to it. I cannot imagine a more meaningful or important 
role than the Inspector General of the Department of Veterans 
Affairs.
    The Mission Statement of the VA is to fulfill President 
Lincoln's promise, ``To care for him who shall have borne the 
battle and for his widow, and his orphan'' by serving and 
honoring the men and women who are America's veterans. The VA 
provides essential services and benefits to our veterans, but 
it has more work to do to live up fully to President Lincoln's 
promise.
    This is a particularly critical time for the VA as it 
attempts to rebuild the trust and confidence it has lost from 
our veterans, Congress, Veterans Service Organizations, and the 
American public. The VA Inspector General plays a crucial and 
independent role in assisting the VA meet its mission and 
identifying instances where it falls short. The need to 
eliminate waste, fraud, and abuse and to promote efficiency and 
integrity at the VA may never have been greater. Recent public 
reports from the Office of Inspector General and elsewhere 
underscore the need for significant and prompt improvements in 
the way the VA is servicing our veterans. If confirmed, I look 
forward to playing a role in strengthening the programs, 
policies, and culture of the VA.
    I have had the opportunity recently to meet with many of 
you and to hear your thoughts and views about the VA and the 
workings of the Office of Inspector General. The discussions 
have been extremely constructive and valuable. I recognize your 
bipartisan approach to these issues and the great frustration 
in the VA not fully meeting its mission.
    Many of you discussed the important role that 
whistleblowers play in identifying potential issues. I also 
believe that whistleblowers are immensely important to the work 
of the VA Office of Inspector General. If confirmed, one of my 
goals will be to promote an improved environment in which 
whistleblowers have confidence that their concerns will be 
fairly and effectively considered by the Office of Inspector 
General and that their identities will be protected from 
disclosure. I will also take the necessary steps to ensure that 
whistleblowers are fully aware of their right to be free from 
reprisal for making protected disclosures and how to seek 
redress from appropriate authorities if reprisal occurs.
    I believe that I have the experience, skills, judgment, and 
temperament to be a highly effective Inspector General. My 
professional career has provided me with valuable and extensive 
experience in investigations, audits, and inspections--three of 
the primary functions of an Inspector General. I have 
successfully conducted a number of complex and high-profile 
internal investigations. With respect to audits, I have 
routinely dealt with accounting principles and auditing 
standards. Finally, I have been involved in the inspections of 
various entities.
    My service on the Management Committee of K&L Gates and my 
role as the co-practice area leader of the Policy and 
Regulatory practices have provided me with significant 
management experience. As a co-practice area leader, I am 
responsible for the performance of more than 200 policy and 
regulatory lawyers and professionals. The Management Committee 
is also responsible for the overall business and operations of 
the firm, including developing a budget for a firm with over $1 
billion in revenues.
    If confirmed, I pledge to work tirelessly and independently 
on behalf of our veterans and the American public. I also 
pledge to work collaboratively with this Committee and other 
Members of Congress and their staff. Thank you for the 
opportunity to testify before you today and I look forward to 
your questions.
    [The prepared statement of Mr. Missal follows:]
 Prepared Statement of Michael J. Missal, Nominee to be the Inspector 
              General, U.S. Department of Veterans Affairs
    Chairman Isakson, Ranking Member Blumenthal, distinguished Members 
of the Committee on Veterans' Affairs, and veterans who have served our 
great Nation. It is an honor and privilege to testify before you today 
as the nominee to be the Inspector General of the Department of 
Veterans Affairs.
    I would like to recognize some special people who are here today. 
First, my wife Deborah and our son Jordan, who is a senior at 
Washington and Lee University. My sister, Susan Lenner, and her 
husband, Sandor, are here from Miami. In addition, former Attorney 
General and Governor of Pennsylvania, Dick Thornburgh, and his wife, 
Ginny, are present. Dick has been a great mentor, colleague and friend 
for a number of years. I would also like to thank the many friends and 
colleagues for attending today.
    This would have been an incredibly proud day for my parents, Harold 
and Rose Missal, but unfortunately both passed away a number of years 
ago. Aside from family, the most important things in my father's life 
were his military service and his public service. My father was a World 
War II veteran who fought in Europe with the Army's 286th Engineer 
Combat Battalion. He was a proud veteran and truly one of the 
``Greatest Generation.''
    My father was also a state judge in Connecticut for more than 30 
years. He instilled in me the importance of public service and the 
concept of ``giving back.'' He believed that there was no higher 
calling than being in public service and working hard to make a 
difference in people's lives. I started my legal career in public 
service and have always desired to return to it. I cannot imagine a 
more meaningful or important role than the Inspector General of the 
Department of Veterans Affairs.
    The Mission Statement of the VA is to fulfill President Lincoln's 
promise: ``To care for him who shall have borne the battle and for his 
widow, and his orphan'' by serving and honoring the men and women who 
are America's veterans. The VA provides essential services and benefits 
to our Veterans, but it has more work to do to live up fully to 
President Lincoln's promise.
    This is a particularly critical time for the VA as it attempts to 
rebuild the trust and confidence it has lost from our Veterans, 
Congress, Veterans Service Organizations and the American public. The 
VA Inspector General plays a crucial and independent role in assisting 
the VA meet its mission and identifying the instances where it falls 
short. The need to eliminate waste, fraud and abuse and to promote 
efficiency and integrity at the VA may never have been greater. Recent 
public reports from the Office of Inspector General and elsewhere 
underscore the need for significant and prompt improvements in the way 
the VA is servicing our Veterans. If confirmed, I look forward to 
playing a role in strengthening the programs, policies and culture of 
the VA.
    I have had the opportunity recently to meet with many of you and to 
hear your thoughts and views about the VA and the workings of the 
Office of Inspector General. The discussions have been extremely 
constructive and valuable. I recognize your bipartisan approach to 
these issues and the great frustration in the VA not fully meeting its 
mission.
    Many of you discussed the important role that whistleblowers play 
in identifying potential issues. I also believe that whistleblowers are 
immensely important to the work of the VA Office of Inspector General. 
If confirmed, one of my goals will be to promote an improved 
environment in which whistleblowers have confidence that their concerns 
will be fairly and effectively considered by the Office of Inspector 
General and that their identities will be protected from disclosure. I 
will also take the necessary steps to ensure that whistleblowers are 
fully aware of their right to be free from reprisal for making 
protected disclosures and how to seek redress from appropriate 
authorities if reprisal occurs.
    I believe that I have the experience, skills, judgment and 
temperament to be a highly effective Inspector General. My professional 
career has provided me with valuable and extensive experience in 
investigations, audits and inspections, three of the primary functions 
of an Inspector General. I have successfully conducted a number of 
complex and high-profile investigations, including serving as the Lead 
Counsel to the Examiner in the WorldCom bankruptcy proceeding, Lead 
Counsel to the Independent Review Panel investigating the 60 Minutes 
Wednesday segment on President George W. Bush's Texas Air National 
Guard Service, assisting the Senate Select Committee on Ethics in its 
investigation of Senator John Ensign and being appointed by the 
Department of Justice to be the Examiner in the bankruptcy proceeding 
of New Century Financial, one of the largest originators of subprime 
mortgages. With respect to audits, I have routinely dealt with 
accounting principles and auditing standards and have chaired the 
Washington and Lee University Audit Committee. Finally, I have been 
involved in the inspections of various entities. This work included 
making recommendations on how to improve the efficiencies and 
effectiveness of the programs and policies of those entities.
    My service on the Management Committee of K&L Gates and my role as 
the co-Practice Area Leader of the Policy and Regulatory practices have 
provided me with significant management experience. One of the 
practices under my jurisdiction is the firm's national healthcare 
practice. As a co-Practice Area Leader, I am responsible for the 
performance of more than 200 policy and regulatory lawyers and 
professionals. Among other duties, I am involved in recruiting, 
professional development, evaluations, compensation determinations, 
risk management and strategic positioning of the practices. The 
Management Committee is also responsible for the overall business and 
operations of the firm, including developing a budget for a firm with 
over $1 billion in revenues.
    If confirmed, I pledge to work tirelessly and independently on 
behalf of our Veterans and the American public. I also pledge to work 
collaboratively with this Committee and other Members of Congress and 
their staff. Thank you for the opportunity to testify before you today 
and I look forward to your questions.
                                ------                                

    [The Committee questionnaire for Presidential nominees 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                ------                                

    [Letters from the Office of Government Ethics]
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                ------                                

    [Letter from the nominee to the Office of General Counsel, 
U.S. Department of Veterans Affairs]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Isakson. Thank you for your testimony. We will 
have 5-minute questions from each of the Members. We will 
alternate Republican and Democrat after Ranking Member 
Blumenthal has asked his questions, and I will open the initial 
questions.
    You were on the Management Committee at K&L Gates. Is that 
correct?
    Mr. Missal. That is correct.
    Chairman Isakson. How many people did you manage at K&L 
Gates?
    Mr. Missal. The firm is made up of about 2,000 attorneys 
and professionals.
    Chairman Isakson. How many did you manage yourself?
    Mr. Missal. As a practice area leader, I have a little more 
than 200 professionals and attorneys that I manage.
    Chairman Isakson. Do you know how many employees there are 
at the Inspector General's Office of the VA?
    Mr. Missal. There are about 650.
    Chairman Isakson. Almost 700, so you are about three times 
as many people as you manage at K&L. It is a big job.
    Your interest in this job, you did not apply for the 
position of Inspector General. Is that correct?
    Mr. Missal. I did apply through the Council of Inspectors 
General for a position as an Inspector General.
    Chairman Isakson. As an Inspector General, but not 
necessarily the one at the VA.
    Mr. Missal. Correct.
    Chairman Isakson. OK. You are aware that the Under 
Secretary for Benefits recently resigned from the Veterans 
Administration?
    Mr. Missal. I am.
    Chairman Isakson. That an employee of the Veterans 
Administration at the Charlie Norwood VA in my homestate of 
Georgia was indicted----
    Mr. Missal. I am aware of that.
    Chairman Isakson [continuing]. In relation to appointments?
    Mr. Missal. Yes.
    Chairman Isakson. That there are continued concerns about 
data manipulation, and, in fact, the IG reported recently there 
was a culture of manipulation of statistics within the VA to 
change the way things looked when they really were not 
represented properly, and continued concerns about retaliation 
against whistleblowers, which you will directly address in just 
a second, continues at the Veterans Administration?
    Mr. Missal. Correct.
    Chairman Isakson. Are you prepared to embrace aggressively 
all four of those particular problems that confront us today?
    Mr. Missal. I am.
    Chairman Isakson. What would you do in particular, starting 
with the manipulation of numbers for the purpose of earning 
bonuses or other things, end results that benefit the employee 
and are no benefit to the veteran? What would you do from your 
experience, and what would you implement or get the VA to 
implement that could help get us over this hump and get people 
doing things the right way for the right reasons?
    Mr. Missal. Sure. With respect to that particular issue, 
that seems to fall directly into the IG's mandate with respect 
to fraud, waste, and abuse. I would take a fair, objective, and 
aggressive look at it, and, if appropriate, take the necessary 
action. That would include making recommendations as well as to 
how to improve the system that is in place.
    Chairman Isakson. That is a question of data integrity, is 
it not?
    Mr. Missal. It could be, yes.
    Chairman Isakson. In your many investigations that you 
alluded to in your opening testimony, how many of them dealt 
with data integrity or the manipulation of data for the 
purposes of nefarious purposes?
    Mr. Missal. Several of them have.
    Chairman Isakson. How did they come out?
    Mr. Missal. They came out that we found that there was 
manipulation and that we worked through both the system, the 
automated systems in place, and the people in place.
    Chairman Isakson. The reason I am so insistent on this 
particular point is I have great regard for Bob McDonald and 
the people of the VA trying to do the best job that they can, 
but it has become obvious to me that there has been a culture 
of manipulation of statistics within the VA for a long period 
of time that has got to be stopped and ended. We have got to 
change it from a negative culture to a positive culture, which 
in the end, has got to be done from the outside. Quite frankly, 
the IG's Office is the closest thing to the outside we have got 
with an insider, and that is going to be the important thing 
you are going to have to do for this Committee and for the 
American taxpayer.
    Do you think you have the experience to tackle the job from 
the beginning and accomplish what is already in short supply, 
which is integrity within the VA?
    Mr. Missal. I do, sir.
    Chairman Isakson. What do you think is the most important 
quality that you bring to the job that will allow us to 
accomplish that where we have not before?
    Mr. Missal. I think I bring a number of different 
qualities: one is independence; second is aggressiveness; and, 
third, the skill set to do investigations to determine what 
actually happened.
    Chairman Isakson. You are also aware that we have had an 
acting IG Director now for about 18 months without a permanent 
one. Is that correct?
    Mr. Missal. That is correct.
    Chairman Isakson. The minute a permanent one is confirmed, 
and if it is you, there is going to be tremendous scrutiny and 
responsibility on your shoulders to turn the ship and get the 
VA and the IG's Office cooperating in fixing the wrongs and 
righting the rights within that organization. That will be your 
first order of business?
    Mr. Missal. That is right, sir.
    Chairman Isakson. That is what this Committee is going to 
look for you to do.
    Now I will turn to Senator Blumenthal for his questions. 
Richard?
    Senator Blumenthal. Thank you. As you know, a scheme was 
recently revealed that was carried out by a number of senior 
executives at the VBA to skirt the salary and bonus limitations 
in effect by unnecessarily relocating executives and using 
those moves to justify the increases in their pay and 
relocation benefits. The Inspector General, the acting person 
in that role, reported that employees ``improperly used their 
positions of authority for personal and financial benefit'' 
when they forced the transfers of lower-ranking officials and 
then filled the vacancies themselves.
    As you may also know, the Inspector General in this 
particular instance failed to share in a timely manner with the 
VA's Office of Accountability Review the information the IG 
used to make its recommendation that the VA consider 
administrative action against some senior executives.
    If confirmed, I would like you to commit that you will 
share information within the VA and with this Committee in as 
timely a way as possible so it can bring swift action to hold 
accountable anyone who has violated the law or the rules of the 
VA.
    Mr. Missal. I will commit to do so.
    Senator Blumenthal. As I mentioned earlier, one of my 
criticisms of the VA Inspector General Office has been the 
failure to work as closely as perhaps should have been done 
within the Department of Justice. As you know from your 
experience, the Department of Justice has powers that the VA 
Inspector General does not have. Could you outline for the 
Committee your view of the relative advantages of working 
closely with the Department of Justice and how you view those 
advantages going forward?
    Mr. Missal. Sure. Accountability is obviously a key issue. 
Bringing criminal sanctions is as strong an action of 
accountability as you are going to find. I see the Department 
of Justice as a strong partner of the Office of Inspector 
General. I would work with the appropriate people at the 
Department of Justice to make sure they understand how 
important this is to the VA and establish a good relationship 
with them.
    Senator Blumenthal. The Department of Justice can empower 
or empanel a grand jury, can it not?
    Mr. Missal. Correct.
    Senator Blumenthal. The Inspector General cannot.
    Mr. Missal. Correct.
    Senator Blumenthal. A grand jury can issue subpoenas and 
compel testimony, correct?
    Mr. Missal. Correct.
    Senator Blumenthal. Whereas, the Inspector General cannot.
    Mr. Missal. Correct.
    Senator Blumenthal. In my view, the Department of Justice 
is an important partner when there is a suspicion, a credible 
and substantial suspicion of criminal wrongdoing. I hope that 
you will involve the Department of Justice as a partner, where 
appropriate, in your efforts.
    As you know, last summer VA Secretary McDonald commendably 
established the Office of Accountability Review, which I 
referred to earlier, to ensure that there is leadership 
accountability for whistleblower retaliation. The VA has also 
improved its collaboration with the Office of Special Counsel, 
which is the independent office responsible for overseeing 
whistleblower disclosures and investigating whistleblower 
retaliation across the Federal Government.
    I think these steps are good ones. They are good first 
steps. More needs to be done to ensure that whistleblowers are 
not retaliated against and that disclosures of wrongdoing are 
properly addressed. I will be introducing legislation to 
achieve that goal. I hope it will be bipartisan legislation.
    Given your experience, very extensive and impressive 
experience with whistleblower investigations, could you give me 
your impression of the VA's methods in the past for receiving 
and protecting whistleblower complaints?
    Mr. Missal. Well, I know, based on published information I 
have seen, the Inspector General's Office believes 
whistleblowers are very important to their mission. However, 
there have been a number of reports out there that 
whistleblowers do not seem to be fully satisfied. One of the 
things I would do, which would be a priority, would be to try 
to create an environment where whistleblowers feel confident 
that their concerns are going to be looked at fully, fairly, 
and objectively, because I believe very strongly that 
whistleblowers can really aid in terms of getting the 
information necessary for the Inspector General.
    Senator Blumenthal. Thank you very much. My time has 
expired. I have a few more questions, but in deference to my 
colleagues, I am going to end here. We may come back to you if 
time permits. Thank you very, very much, and, again, my thanks 
to you and to your family for their service.
    Chairman Isakson. Senator Rounds.

        HON. MIKE ROUNDS, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Rounds. Thank you, Mr. Chairman.
    Mr. Missal, first of all, I want to thank you for taking 
the time to reach out to our office. I appreciated the 
opportunity to visit with you personally. As I told you in our 
first meeting, I questioned whether or not you had really 
thought this thing through, wanting to jump right into the 
middle of this. As Secretary McDonald has found out, I think 
this is like a swamp filled with gators. Every time you try to 
drain it, you have one more gator biting someplace that you do 
not like. Yet, at the same time, you are volunteering to step 
into this mess, where you can play an integral part in fixing 
this for veterans across the United States.
    I think there are some things here that are going to stand 
in your way of getting that done, and I would like to give you 
an opportunity to specifically address some of those for 
everyone here.
    You have got great private practice experience. You come 
with a wealth of private background, information, education, 
and so forth, and clearly, you have been successful. But, if 
you take a look at what has happened in the rest of 
Government--and I am not going to claim this to be successful 
in Government, but if you take a look at what has been the past 
practice, 6 out of the 11 Senate-confirmed IGs for Cabinet-
level agencies have first served as the IG for a smaller 
agency. You do not have any experience as an IG. Of the 
remaining five Senate-confirmed IGs for Cabinet-level agencies, 
two first served leadership roles at IG offices. The remaining 
three Senate-confirmed IGs for Cabinet-level agencies all first 
had significant experience with Federal criminal investigations 
or prosecutions. Since the VA became a Cabinet-level agency, 
every single Senate-confirmed IG has had prior experience as an 
IG in a leadership role at an IG office or in a Federal 
criminal investigation.
    Sell yourself. How are you going to make up for the lack of 
experience in an IG office walking in with a large group of 
over 650 members who are IGs and work in an IG office? How do 
you go about bringing them onto your team? Why do you have the 
capability and the private experience that would equal or 
surpass what we would expect from other individuals working 
through the experience in an IG's Office?
    Mr. Missal. Sure. Well, first of all, I have been in the 
Government before. I worked as a prosecutor at the Securities 
and Exchange Commission, so I have gotten that experience 
there.
    Since I have been in private practice, I have worked very 
extensively with Government officials, other regulators, 
prosecutors, and inspectors general as well. In addition, my 
experience in the private practice has been really focused on 
the three main areas that you are looking for in an IG, which 
are: investigations; audit; and inspections. I think I can take 
that experience and I can demonstrate to the office that I am 
somebody who could be a highly effective Inspector General.
    Senator Rounds. There has been a discussion already about 
data integrity and the fact that the Acting Inspector General 
now has testified that the Inspector General's office cannot 
trust VA self-reported data showing a reduction of the backlog 
of disability claims, and they move on through this process. I 
am sure you are aware of that. How do you go fixing this system 
if you cannot trust the data from the system itself? What would 
you recommend to begin getting accurate data so that you can 
make good recommendations?
    Mr. Missal. One thing you are going to want to do is to be 
testing it, testing whatever information you are getting, if 
you do have a question about it, to see if there are any red 
flags or other issues that raise a question. Then, in other 
situations, what has been done is they brought in a third party 
as well. If you cannot trust what you are getting in a certain 
situation, sometimes bringing in a third party, sometimes on a 
temporary basis, has been very helpful.
    Senator Rounds. A significant part of the VA's 
responsibilities has to do with the delivery of health care. Do 
you have a background in the delivery of health care or in 
reviewing and looking at health care delivery systems?
    Mr. Missal. I do. I have been involved in several cases 
involving health care. In addition, as part of my management 
responsibilities, I manage our nationwide health care practice.
    Senator Rounds. You have had several months now to look at 
the VA as an outsider looking in. As an Inspector General, what 
is the first thing you do when you walk in the door, should you 
be selected to do this job?
    Mr. Missal. The first thing I would do would be to immerse 
myself into the IG's Office, to review the practices, the 
policies, the priorities that they have, and to make any 
improvements that I believe are necessary.
    In addition, I think it is critically important to meet 
with senior management as well. I understand you need to be 
independent from management of the VA. There is a very 
important independence responsibility. On the other hand, I 
think you need to make sure that they understand that they have 
somebody who is going to look at things fairly and objectively, 
because I think you want to get out in front of some of these 
issues before they become bigger issues, and part of that is 
getting to talk to management and seeing what their issues are.
    Senator Rounds. My time has expired, but I would ask one 
last question, a yes or a no answer, I believe. You are going 
to need a plan. Would you commit that you will bring back to 
this Committee a plan for putting this in order so that you can 
actually lay out for the Secretary a pathway forward so that he 
can actually get things done in there? Would you commit to 
providing a plan of how you can be an effective IG when the 
time comes?
    Mr. Missal. Yes.
    Senator Rounds. Thank you.

    [See the posthearing response to question 12, for the full 
explanation.]

    Senator Rounds. Thank you, Mr. Chairman.
    Chairman Isakson. Senator Manchin.

     HON. JOE MANCHIN III, U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you, Mr. Chairman, and thank you, 
Mr. Missal. Also, I want to thank you for showing the courtesy 
of stopping by. We had a nice conversation. I enjoyed that. I 
also want to thank you for having the interest in public 
service. It is so hard to get people of your quality and your 
caliber that will give something back to their country. You did 
it on the beginning of your career and at the end of your 
career. You have made that commitment, and I thank you for it.
    In West Virginia--everyone here has a story of a VA 
catastrophe, if you will, if something has happened in their 
State with their veterans who we are supposed to take care of. 
In my State, this past April the Office of Special Counsel 
released a report that substantiated a whistleblower's 
allegation of the Beckley VA hospital switching antipsychotic 
drugs based on cost, which is against VA's policy. One of the 
recommendations provided by the investigators was to take 
appropriate action against the leadership and others as 
warranted. Beckley says, their M.D.,--that they remedied the 
situation, but as far as we can tell, no one has been held 
accountable at all. As a matter of fact, the person who was in 
charge of the VA in Beckley has been promoted to a higher 
position in the VA.
    These are things that just lead people to give up. Whether 
it be a whistleblower or not, they see wrongdoing, and they do 
not think anything will happen. I am not sure, because I just 
do not know what ability you will have to enforce this. Once 
you find wrongdoing, what is your role then?
    Mr. Missal. My role is to issue reports and, depending on 
the seriousness, perhaps talk to leadership, and ultimately 
come to Congress, if necessary.
    Senator Manchin. You would have the ability to come 
independently to us and say, ``Listen, these are the 
wrongdoings that we have seen. No action has been taken and I 
believe that there is justification to take action?'' If it is 
not being done within the VA, you are saying you would come to 
this Committee maybe or to an appropriate Committee and allow 
us to take action?
    Mr. Missal. Absolutely.
    Senator Manchin. That needs to be done. Also, I think that 
Senator Rounds hit on some good points. There is not that much 
time left in this administration, and for you to take on this 
task--it has been vacant for 16 months, I believe. You will 
have less than 16 months.
    I know you will be confirmed. With that being said, you 
have got to hit the ground running and to make a difference. I 
do not think you come here just to hold a place.
    I would just say again, as everyone has asked here, what is 
your first priority that you see the greatest attention needed 
in that job the first day you walk in?
    Mr. Missal. I think it is really to get to know the 
priorities, the practices, and really start to turn around the 
credibility issues that I believe some have with the VA. So, I 
think it is really to look and see what are the most important 
things.
    Senator Manchin. Do you believe the agency--I mean, in your 
department, do you believe that is top-heavy, close to 700 
people?
    Mr. Missal. I do not know if it is top-heavy. I know they 
are spread out, and they certainly issue a lot of reports.
    Senator Manchin. Not a whole lot is done with the reports. 
That is the problem that we are talking about.
    I noticed the past published work of your law firm and 
organization. You say it is not merely enough to have a 
whistleblower hotline; there has to be a real incentive and 
culture of trust for whistleblowers so they feel like they can 
come forward.
    Judging from the past testimony of whistleblowers who 
worked for the VA that we have had here and reports from 
organizations such as the Project on Government Oversight, the 
VA has a recorded history of reprisal against employees who 
dared to report wrongdoings. One could argue that the culture 
of trust is not only broken, but it is now absolutely 
nonexistent. I do not know how you repair that in 15 months.
    Mr. Missal. I think it is a challenge, but that is 
something I will focus on.
    Senator Manchin. Because people are not coming forward; I 
think they are afraid to come forward now.
    Mr. Missal. Hopefully I can persuade them that the 
environment is going to change, work hard and make sure they 
understand that their concerns are going to be fairly and 
appropriately reviewed.
    Senator Manchin. Thank you, Mr. Chairman. Thank you, sir.
    Chairman Isakson. Thank you, Senator Manchin.
    I am going to take the Chairman's privilege of just taking 
a follow-up on one thing that Senator Manchin just said. Your 
oblique answer that they issue a lot of reports with kind of a 
twinkle in your eye, I would like to make that a compound 
sentence and say we would like to see them come up with a lot 
of results. Anybody can report on problems and describe what is 
wrong. It is about time we started getting some results. 
Hopefully we can have an agency that is a catalyst for the 
Secretary and the employees of the VA to get those results. I 
just had to throw that in because it was a great lead-in. Thank 
you, Senator Manchin.
    Senator Boozman?

         HON. JOHN BOOZMAN, U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you, Mr. Chairman, and thank you for 
being here, Mr. Missal. I really enjoyed when you came by and 
we got to visit in the office. This is such a huge job. You 
know, we count on the IG to use its authority and really help 
make aware to Congress what is going on, make aware to the 
Secretary, so that we can, you know, all work together to fix 
the problems that we have.
    I guess one of the things that people wonder about--you are 
blessed, you have been part of the tremendously successful 
practice, you know, you have done lots of things. Why do you 
want to do this? There is mention of your dad and things like 
that. I appreciate the fact that you do want to do it, but what 
is driving you to really jump out? This is a huge task. Tell us 
why you want to do it.
    Mr. Missal. Sure. I have always thought I was going to be 
in public service my entire career. I took a detour. I thought 
I was going to be there for a short time. It turned out to be 
28 years. I have had a great practice. I have gotten a lot of 
skills and a lot of things that I have learned in those years 
in private practice.
    I have always wanted to go back, and I felt that my 
experience fits perfectly in with the responsibilities of an 
IG, and just seeing the issues at the VA, I am very committed 
to doing what I can to help out.
    Senator Boozman. You have had experience a lot in the 
financial sector, overseeing things like that. The VA is unique 
in the sense it has got so many things; so much of it is health 
care-related. You know, there is concern about your health care 
experience. Then, you have got the waste and fraud component, 
and then also the problem of the various programs that we have 
in place, actually making sure that those programs are working.
    Can you tell us again, based on your past experience--like 
I say, there is concern about your health care experience, 
experience in some of these matters. How does your past 
investigative experience, how does that all work together? Does 
that make sense?
    Mr. Missal. Yes.
    Senator Boozman. In other words, what is the common 
component to getting in and investigating something and doing a 
good job?
    Mr. Missal. I have been involved in investigations in a 
number of different industries and issues, and what you need to 
do is really learn those issues as well as the experts. I have 
done that in a number of different industries.
    For an investigation to be successful, you are trying to 
accomplish at least five things: you want it to be objective; 
you want it to be fair; you want it to be thorough; you want it 
to be timely; and you want it to be accurate. I think that goes 
across any kind of industry, whether it is health care, whether 
it is the financial sector, or any other sector.
    Senator Boozman. Just looking from the outside--and I know 
this is difficult, but, you know, we have these huge cost 
overruns and things like that. Can you comment about how you 
prevent things like that from happening? You know, what is the 
answer to actually jumping in there and trying to help us get 
control of that?
    Mr. Missal. Sure. I think every situation is going to be a 
little different. It is hard to say one solution fits 
everything.
    On the other hand, that is why you have audits: to take a 
look, test, and see at an early stage. If there are issues, if 
there are red flags that come up, you are then able to deal 
with them as quickly as possible before they become bigger 
problems.
    Senator Boozman. Thank you, Mr. Chairman. Thank you, Mr. 
Missal.
    Chairman Isakson. Thank you, Senator Boozman.
    Senator Tester?

           HON. JON TESTER, U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman.
    I want to echo what so many folks have said here. We 
appreciate your standing up to take the job. It is not going to 
be an easy job. I think that we all want you to do the very 
best you can because it is a very, very important job. So, we 
appreciate your willingness to take it on.
    How aware are you--I mean, you talked about K&L Gates 
having 200 direct management; there are 650, close to 700 in 
the VA. Have you had a chance to look at the structure within 
the IG of the VA to see--is that something you have been able 
to do yet, to see what kind of management team you will have 
around you in the IG's Office?
    Mr. Missal. Not in any great detail, no.
    Senator Tester. OK. Can you remember what K&L Gates' budget 
was for your department?
    Mr. Missal. For the Policy and Regulatory, it is a little 
more than $200 million, I believe,
    Senator Tester. $200 million?
    Mr. Missal. Yeah.
    Senator Tester. Really? Well, because I think we just 
passed a $71.2 billion budget for the VA. Is that correct? I do 
not know if we are quite there, but it is in that ballpark. If 
my staff is good at what they do, they told me that the budget 
for Office of Inspector General is about $127 million.
    Mr. Missal. That is correct.
    Senator Tester. Is that adequate?
    Mr. Missal. I believe that is what I have read in----
    Senator Tester. The question is not, is it accurate; is it 
adequate? Do you feel that is adequate if, in fact, K&L Gates, 
a $1 billion company--I think that is what you said--puts about 
a fifth of their resources into that.
    Mr. Missal. It is hard to say at this time. Obviously, that 
would be one of the things I would be looking at, is the 
adequacy of the budget, whether the resources are appropriate. 
Certainly, I would raise that issue if I felt that it was not.
    Senator Tester. OK. Look, you are going to be pounded by a 
lot of different folks from here and everywhere about 
inspections they want you to do. How do you remain independent 
without being influenced by the VA?
    Mr. Missal. That is a tenet of this job. It is critical to 
the job. It is one of the requirements under the Inspector 
General Act of 1978. You have to have the integrity to stand up 
and say, ``I am going to be independent and not be unduly 
influenced.'' I believe I can do that.
    Senator Tester. OK. So, how do you handle it if somebody 
comes in and says, ``You know, you are really barking up the 
wrong tree here, Inspector. You ought to just leave this alone 
and go a different direction''?
    Mr. Missal. It takes zero tolerance. I do not even like the 
appearance of not being independent. If necessary, take the 
appropriate action if somebody persists.
    Senator Tester. What would that appropriate action be?
    Mr. Missal. It could go as far as informing this Committee 
and Congress about it.
    Senator Tester. OK. You have had an extensive background as 
an investigator, as you have already talked about. What are the 
primary attributes to have a productive and effective 
investigation?
    Mr. Missal. I think what you want to do--it needs to meet 
certain criteria. You know, most importantly perhaps is you 
want it to be accurate. You need it to be timely so it is 
relevant to whatever you have. You need it to be objective and 
fair just so people believe that they have been given the right 
opportunity, and you do not want anybody attacking it saying 
that they have not been able to give information. Finally, it 
needs to be thorough. It really needs to cover the issue, 
because at the end of the day you do not want somebody coming 
in and saying, ``Well, it was good what you did, but we still 
have this whole other issue that you did not look at.''
    Senator Tester. I am going to ask you a really unfair 
question now. If it is a complex issue, for instance, what 
happened in Phoenix a few years back--and I do not know if you 
are familiar with that or not. How long should those 
investigations take?
    Mr. Missal. It is really hard to say. You can do sort of a 
quick assessment, you know, for something like a Phoenix 
situation in months, probably. But, it really depends on all 
the facts and circumstances as to how long it is going to take.
    Senator Tester. All right. Very good. Well, thank you for 
your willingness to do it. I would just say, Mr. Chairman, that 
I think the quicker the better as far as confirmation of this 
young man. Thank you.
    Chairman Isakson. Thank you, Senator Tester, and I am sure 
he appreciates the ``young man'' comment. [Laughter.]
    Senator Cassidy?

         HON. BILL CASSIDY, U.S. SENATOR FROM LOUISIANA

    Senator Cassidy. Hi, Mr. Missal. I enjoyed our meeting. 
Thank you for coming by the office.
    I am the physician on the Committee, so you might guess, I 
have become kind of like--people channel their physician-type 
concerns to me. Let me just kind of pursue this.
    We have had testimony from the physicians within the VA. 
They have made statements which plausibly seemed plausible. 
But, with my physician background, I knew enough to scratch a 
little bit deeper; with just that minimal bit of scratching, it 
was clear that there was a gross deficiency.
    Now, the folks who are concerned about your nomination--and 
I would be lying if I did not say there were some that are--say 
the fellow, speaking of you, not disrespectfully, may have as 
an attorney looked into a health care case, but if you look at 
your resume, that is a small part of your book of business, and 
other than that, you do not have health care. Whereas, I might 
say, ``Well, you have one pain management program in Cleveland, 
why is it only in Cleveland when you have a rate of opioid 
addiction which is way out of the norm.'' Their point would be, 
``Hmm, would this gentleman know that opioid addiction is an 
addiction? Maybe yes, but what about another issue which is 
less topical?''
    As Senator Rounds said, sell yourself. To those folks who 
are saying, ``Really a very small part of his resume is health 
care, and yet he is going to be leading the second largest 
agency in the U.S. Government, which is principally dedicated 
to health care,'' how would you respond to them?
    Mr. Missal. I would respond that, first of all, I have had 
health care experience. Second, I----
    Senator Cassidy. Now, the health care experience, though, 
to their point, would be that it is merely as an attorney--not 
minimizing the role of an attorney--but not as someone who 
organically--not a nurse or a hospital administrator or such 
like that.
    Mr. Missal. Correct. That is correct. Second, I manage 
health care lawyers and others at the firm. We have retained 
experts. I have worked with physicians and others in the health 
care industry. Third, and maybe most importantly, in any issue 
I have, immersed myself into it. I get to know it as well as 
anybody who has worked in that area. That is what I would 
expect to do in this situation. I would immediately get 
involved in all of the issues, which I am very confident that I 
can--to the extent I need additional education on it, that 
would come very quickly.
    Senator Cassidy. Now, let me ask--again, since we met I 
have been trying to learn more about this. I understand when 
the IG meets with Secretary McDonald, there is an iterative 
process, and that, if you will, they might push back; then you 
would push, they would push, and you would try to come to some 
sort of ``is this plausible or not?'' So, it does seem 
intuitively to me that the more organically that you know 
something, not as, ``Well, I have got a final exam,'' but, 
rather, ``I have been living this for 30 years,'' the more you 
would know when the person with whom you are speaking was 
speaking out of turn as opposed to, ``Hey, that sounds''--``I 
did not think about it that way.'' Do you follow what I am 
saying?
    Mr. Missal. Yes.
    Senator Cassidy. Now, knowing that you will immerse 
yourself, do you still feel as if you will have that sort of 
organic understanding of what, arguably, is one of the most 
complicated agencies in the Federal Government?
    Mr. Missal. Yes. In response to that question, on the IG's 
staff there are a number of physicians and other health care 
professionals, so I will rely heavily on them as well in terms 
of their expertise. I believe that the expertise is currently 
within the staff. To the extent it needs to be supplemented or 
expanded, then that is something to be looked at.
    Senator Cassidy. Now, I also see the IG as being the prime 
mover, that among every--it is a target-rich environment, 
right? I told someone my grandson could be the head of the IG, 
and he would find a lot wrong with the VA. I say that with a 
smile, and then I kind of, ``Oh, my gosh, isn't it true?''
    It will also be up to you, I presume, to prioritize. If you 
have limited resources which are stretched thin, including some 
physicians, nurses, et cetera, those with expertise, again, 
reassure them that you would be able to pick out, well, this is 
really a top priority, and this may be less so even though it 
might be egregious in its own right, in the relative degree 
this less so. How would you establish that pecking order, 
again, reassuring those who come to me and say, ``Listen, the 
fellow does not have that organic understanding.''
    Mr. Missal. Sure. I think that would be in consultation 
with others in the office to see what the current priorities 
are, and then to discuss it with them to see whether or not 
those priorities need to be changed in any way. I think it will 
be something that we are going to look at very carefully as to 
the various partners and ask, are we really focused on the 
right ideas.
    Senator Cassidy. I yield back. Thank you.
    Chairman Isakson. Thank you, Dr. Cassidy.
    Senator Brown?

           HON. SHERROD BROWN, U.S. SENATOR FROM OHIO

    Senator Brown. Thank you, Mr. Chairman. I join colleagues, 
Mr. Missal, in thanking you for doing this and for coming to 
each of our individual offices to talk to us.
    I want to emphasize a question that Senator Blumenthal 
asked about whistleblower retaliation. I know you answered 
that, and you answered in my office, too. I just want to 
emphasize and underscore how important that is.
    I listen to all of us at these hearings talk about all the 
problems with the VA, and we all were pretty outraged by some 
of the things that happened 2 or 3 years ago. I just think, 
though, it is important to kind of turn the blame not just on 
VA administration and a few, maybe more than a few, of the 
employees at the VA that did not do their jobs right. I get all 
that. But, I think it is also important to always put it in the 
context of when we went into Iraq, the President of the United 
States and many of the officials in the White House and the 
Department of Defense said this would be a--this war would not 
last very long. There was no interest in Congress--I should not 
say that. There was little interest in Congress and almost none 
in the White House that it is important to be able to scale up 
the VA, to take care of these soldiers, Marines, and airmen and 
women that were in the Middle East, that were in Iraq. The 
number of--none of them, none of the people that planned that 
war ever really came to Congress and said, ``It is important 
that the VA be equipped for these huge numbers of casualties,'' 
many more serious casualties than we had been used to from 
other wars, because those soldiers died on the battlefield 
before, now not so much. These survivors are going to live 
difficult and very-expensive-to-taxpayers lives in the future. 
We talked about little of that here because we had an 
administration that had no interest in exploring that.
    At the same time, we really did not see what was going to 
happen or we should have seen and planned for more of what was 
going to happen with Agent Orange, with presumptive 
eligibility, and all the veterans coming in the last 15 years 
to the VA.
    I think it is important to keep that context while we all 
point fingers at Government bureaucrats and point fingers at a 
Veterans Administration that has, frankly, done a pretty good 
job. When I visit community-based outpatient clinics--we have 
maybe 30 of them in Ohio, 29, 30, 31. I visit them in my 
hometown of Mansfield or Springfield or Parma or Akron and see 
what they do and go to the VA hospitals in Dayton and Cleveland 
and Cincinnati and see the work they do. It is pretty darn good 
most of the time. I just want to say that because I think it is 
important to put that in context.
    I have one comment/question based on the Chairman's 
question regarding transparency and confidence. All that aside, 
because politicians rarely talk about what we did not do, 
Congress and the President, a decade ago, we would rather 
always point to Government bureaucrats because that is always 
an easier attack. It makes it that much harder for you as a new 
Inspector General to figure out how you, bring transparency and 
build the kind of confidence that the public expects to have in 
the VA itself and in the Inspector General. Talk through and 
expand a little on what you said to Chairman Isakson. How are 
you going to do that? Because it is important that--for the VA 
to operate as well as it should, it is important that Americans 
have, that veterans and families of veterans have confidence in 
what you do and especially what the VA nurses, doctors, 
physical therapists, and psychologists do.
    Mr. Missal. Sure. I strongly believe that to improve the 
trust and confidence that people have in the Office of 
Inspector General, transparency is one of the ways that can 
assist there, which is making sure that the reports that are 
issued are clear, they cover the right areas, and they really 
focus on the issues.
    In addition, with respect to the working of the office, to 
the extent you do not necessarily have a report, there could be 
statements put out and other communications, just so people 
understand what the office is doing, the challenges it is 
having, the issues it is seeing, et cetera. So, I expect to 
have a highly-communicative office.
    Senator Brown. Thank you. Mr. Chairman, thank you.
    Chairman Isakson. Thank you, Senator Brown.
    Senator Sullivan?

          HON. DAN SULLIVAN, U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman, and thank you, 
Mr. Missal, for your willingness to serve. I was going to ask 
the question Senator Boozman mentioned about why do you want 
the job. I think that is always an important one, particularly 
a very important job like this, but as you have heard, a job 
that is probably going to not be easy by any stretch.
    Let me ask just a couple basic questions and maybe a 
hypothetical or two. As the IG, who do you think your most 
important client is?
    Mr. Missal. I think the most important clients are the 
veterans and the American public.
    Senator Sullivan. Good. Do you think our veterans have lost 
faith in the VA?
    Mr. Missal. Based on what I have read, a number of veterans 
seem to have lost faith in the VA.
    Senator Sullivan. So, how do we get it back?
    Mr. Missal. I think it is just making the VA a better 
agency, more effective, and part of the way you do that is by 
having an Inspector General's Office that is identifying 
issues, making recommendations, and having those 
recommendations be implemented.
    Senator Sullivan. How about the issue of accountability for 
the VA?
    Mr. Missal. I think that is an important issue, as well.
    Senator Sullivan. Do you think that--you know, you have 
been reading about it, veterans read about it, the American 
public reads about it, we read about it, big screwups in the 
VA, and then nobody ever, ever, ever seems to be accountable. 
Do you think that undermines the faith our veterans have in the 
VA?
    Mr. Missal. People are asking the questions, so it 
undermines it, yes.
    Senator Sullivan. To me, that would be one of the most 
important elements of the IG job, bringing back the issue of 
accountability. Would you agree with that?
    Mr. Missal. I agree.
    Senator Sullivan. Let me ask this, you mentioned a lot of 
the qualities. I think you have a lot of really important 
elements in your resume. You talked about skills, judgment, 
investigations, audits. I think another thing the IG has to 
have, though, is you mentioned independence. I also think 
aggressiveness needs to be part of those qualities. Can you 
provide some examples of that in your background, kind of tough 
examples where you need to be both tenacious and independent, 
maybe even independent of people who you ostensibly work for?
    Mr. Missal. Sure. In some of the large, complex 
investigations I have done, I have needed to be independent, 
needed to be aggressive, needed to be fair, which is key, and 
accurate. In all the investigations that I have done, they have 
all stood up to the test of time.
    Senator Sullivan. Give me an example more specific than 
just general.
    Mr. Missal. I was appointed by the Department of Justice to 
be the examiner in the bankruptcy proceeding of New Century 
Financial, which was one of the largest subprime lenders. I put 
out a report about how the company was originating subprime 
mortgages and about all the problems at New Century.
    Senator Sullivan. Let me ask more specifically. I think 
your relationship with the leadership of the VA, the IG, that 
is going to be really important. It is going to be kind of 
critical. I think a lot of us recognize that Secretary 
McDonald, Under Secretary Shulkin, and others are doing a good 
job, working hard, strong personalities there. But, let us say 
you went into the Secretary's office and said, ``You know, Mr. 
Secretary, I am going to need access here. I want to meet three 
times a month just to let you know what we are doing, what is 
important.'' He said, ``I am a busy guy. I do not want to meet 
with you three times a month.'' What would you say to the 
Secretary?
    Mr. Missal. If I felt strongly, I would say, ``Mr. 
Secretary, I believe it is important to meet three times a 
month.''
    Senator Sullivan. What would you say to the Secretary if 
you went to him on a big issue that you investigated and said, 
``Mr. Secretary, you need to take action on this. You need to 
fire five people in the VA,'' and he says, ``I am not going to 
do that.'' What would you do?
    Mr. Missal. It is his decision on those matters----
    Senator Sullivan. Is it, though? I mean, you are 
independent. Whose decision is it?
    Mr. Missal. It is his decision. I can make recommendations. 
I can put the facts out as I find them. It is ultimately his 
decision on what actions ultimately to take.
    Senator Sullivan. So, you know, when you are talking about 
transparency, we were talking about at what point you would 
come to Congress. At what point would you come to Congress on 
something like that? Let us say you tell the Secretary, ``You 
need to fire five people.'' He says, ``No.'' At what point do 
you say, ``I am going to use my independent judgment, keep 
accountability to the veterans''--you do not work for the 
Secretary. I could not agree more with your answer. You work 
for the veterans of the United States of America. At what point 
do you, in your judgment, have to say, ``I work for the 
veterans of the United States of America. The Secretary is not 
doing what I think is ethical. I am going to come to the 
Chairman of this Committee?'' When do you do that?
    Mr. Missal. I think, depending on the situation, a very 
serious matter may very well need to--but also you have the 
power of the pen to issue reports, to identify issues you think 
are important.
    Senator Sullivan. What if an investigation you had found 
some kind of fraud in the Secretary's office or fraud in the 
White House? What would you do then?
    Mr. Missal. I think that would be what I would consider a 
very serious situation and likely would be coming to this 
Committee.
    Senator Sullivan. Can you be more definitive on that? Fraud 
in the Secretary's office or fraud in the White House relating 
to our veterans.
    Mr. Missal. I think I would be coming to this Committee. It 
depends on the type of fraud, who was involved in the 
Secretary's office, the impact it had, et cetera. But, those 
sound like very serious situations.
    Senator Sullivan. Thank you.
    Mr. Chairman, I have a few more questions, but I will yield 
until there is another round, if that is OK.
    Chairman Isakson. Well, we are going to do a quick round. I 
have a comment and a question, and then Senator Blumenthal has 
a question. Then we will go to you.
    On the last question, I thought your answer was exactly 
correct, and I want to amplify on it for just a second. If you 
find fraud in the agency or if you find a less than cooperative 
spirit in the agency to cooperate with you, no matter how 
difficult the investigation, or if the Secretary found you to 
be very difficult to do business with from a standpoint of the 
way you were conducting your investigation, I would hope either 
one of you would come to this Committee, because we are the 
independent third-party arbiter if there is a difficulty. There 
should never be a case of fraud or criminal conduct or lack of 
cooperation between the agency and the Inspector General that 
does not ultimately come to us if it cannot be dealt with by 
both of you. I think that was an excellent question by Senator 
Sullivan. I appreciate very much him asking it, and I think 
your response was spot on, because I do not think that 
happens--I have not seen evidence that that has happened very 
much. I have seen evidence of where the IG's reports fell on 
deaf ears and the Secretary never thought about coming over to 
see us and tell us they fell on deaf ears and why.
    I have seen cases where we have raised the question when 
they did not. I think it is absolutely appropriate for you to 
not air grievances with this Committee just because you have a 
grievance. So, if you see a case of fraud or you see a case of 
failure to carry out the responsibilities of the job, you come 
to us. I would expect the Secretary to do the same thing if it 
was with your office. I just want the record to be clear.
    Now, I have one question for you which only requires a yes 
or no answer. Will you promise at all times to be responsive to 
this Committee and fulfill any requests for information that we 
might make in a timely fashion?
    Mr. Missal. Yes.
    Chairman Isakson. Senator Blumenthal.
    Senator Blumenthal. Mr. Missal, I want to help you out a 
little bit here. If you find fraud in the VA, at whatever 
level, or in the White House, the place you are going to go is 
the Department of Justice or the FBI. Correct?
    Mr. Missal. Correct.
    Senator Blumenthal. Because they are the ones who have law 
enforcement responsibility, they can investigate, and they can 
prosecute. This Committee cannot. We can make a lot of noise. 
We can embarrass people. We can shame them. But, we cannot 
prosecute them, and ultimately it is prosecution we want with 
appropriate criminal punishment, whether it is fines or 
imprisonment. Correct?
    Mr. Missal. Correct.
    Senator Blumenthal. I appreciate your being responsive to 
Senator Sullivan's question, but I would hope that you would 
bring that information to this Committee at the appropriate 
time, but that first and foremost you would go to law 
enforcement authorities, the Federal Bureau of Investigation 
and other appropriate criminal enforcement authorities, because 
fraud is a violation of criminal law. Correct?
    Mr. Missal. Correct.
    Senator Blumenthal. Let me ask you about the budget that 
Senator Tester asked you about. I should have raised it myself 
before he did, but I will give you my opinion and ask you 
whether you agree with it.
    That amount of money, which is a fraction, a minute 
fraction, $120-plus million out of a total of $71 billion, in 
my view, is sadly inadequate. Would you agree? You can delete 
the word ``sadly'' and just say whether you think it is 
adequate or not.
    Mr. Missal. I just do not think I know enough yet to know 
whether or not it is inadequate. That is one of the things I 
will look at very quickly and certainly would bring it to your 
attention if I thought it was inadequate.
    Senator Blumenthal. I would like to ask you that you report 
back to us about your opinion as soon as you are able to form 
it. I am assuming that you are going to be confirmed. I will 
support you. When you take office--I hope it will be soon--I am 
asking that you report back to us as to your independent 
assessment as to whether that budget gives you sufficient 
investigative and other professional resources to do your job 
as proactively and aggressively as you think is appropriate. 
Would you agree to do that?
    Mr. Missal. I will.
    Senator Blumenthal. You can eliminate the word ``sadly'' 
and add your own objective. I would say ``sadly and egregiously 
inadequate,'' but if you report back to us, I would appreciate 
it. Thank you.
    Mr. Missal. Thank you.
    Chairman Isakson. Just so the record is clear, and I 
completely understand where Richard is coming from, but I do 
think the Committee is the appropriate place to come 
immediately upon the concern of fraud or some violation of 
moral turpitude or the law in the Veterans Administration. 
Obviously, the Attorney General is going to be the prosecutor 
or the investigator. I am the one that sent them to Augusta and 
got the first indictment by the Justice Department of a VA 
employee. But, I think one of the problems this Committee has 
had on certain occasions is things happened outside our 
knowledge, and we ended up being questioned about it, while we 
did not know. I think our need to know is important. I am not 
arguing with what was said there, but I think our need to know 
is equally important. Their ability to prosecute is ultimately 
where it takes place, but we would like to be in the loop at 
the beginning and not at the end.
    Senator Blumenthal. I agree, Mr. Chairman. I did not mean 
to imply that the Inspector General should not come to us, but 
at the same time, or at the appropriate time, that information 
should be brought to the prosecutorial and investigative 
authorities within the Department of Justice.
    Chairman Isakson. Right.
    Senator Blumenthal. The Chairman and I are in accord.
    Chairman Isakson. Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    Just a few more questions, Mr. Missal. One is kind of a 
more local question with broader national implications. In 
Alaska, we have more vets per capita than any State in the 
country, so your position is very important, and a lot of 
people are going to be focused on it, because we have had, like 
a lot of States, a lot of problems.
    We actually had a real problem with the implementation of 
the Choice Act. I will not bore you with the details, but a lot 
of the ideas in the Choice Act actually came from some of the 
things that were actually working in Alaska, remote delivery of 
services, et cetera. Yet, when it was implemented, the new 
Choice Act, was completely botched in my State, unequivocally. 
We have held hearings. The Chairman and the Ranking Member have 
been very helpful on that. In the State, I took Dr. Shulkin 
across Alaska in August with a bunch of his team to hear, 
listen, see what the problems are. He saw it firsthand. He 
completely recognizes that there is an enormous problem with 
the implementation of the Choice Act in Alaska, to such a 
degree that he committed to me to work on an Alaska-specific 
plan that the Veterans Administration is presently working.
    Now, this is almost a year that we have been having these 
problems. I was coming back on a flight from Alaska on Sunday 
night, just my flight. Within the place I was sitting on the 
airplane, three different veterans on this plane from Alaska to 
Minneapolis said to me, ``Gee, Senator, it is good to see you 
sitting on a plane with us. This Choice Act is a disaster.'' 
Three within three rows of me. Then, the other guy, ``Yeah, it 
is. Holy cow, I thought you were going to fix this. I thought 
you guys were going to fix this.'' Just on one plane in one 
little area.
    My question, the broader question, is--so I have been 
working with the Secretary, Dr. Shulkin, on this, but at what 
point do we--and this is more your sense, my sense--I do not 
know what the right answer here is. At what point should 
someone like myself, who is very focused on these issues 
because it matters so much to my constituents and to all 
veterans throughout the country, should we keep working with 
the leadership or at a certain point turn to you and say, 
``Gosh darn it, I need an investigation on this. What the heck 
is wrong with the implementation of the Choice Act in my 
State?'' When do we quit, when do we give up with them and come 
to you? What is your sense of that? Because I do not want to do 
that, but I am not going to wait forever. I am not going to sit 
on more airplanes where half the plane are Alaska veterans and 
they are not getting the care that they need. So, how would you 
advise us on at what point do we turn to you and ask for an 
independent assessment on how we fix this?
    Mr. Missal. Right. Well, I obviously do not know the 
specific details of it all.
    Senator Sullivan. Oh, I know.
    Mr. Missal. But, if they are working through the 
implementation and they feel there are still other things that 
can be done, it seems like that should be implemented through 
the agency. To the extent you reach a point where you just say 
something is wrong here, I am just not getting the answers, or 
the answers I am getting do not seem right, then at that point 
it may be appropriate to have the IG look into it.
    Senator Sullivan. So, when do we call? When do you think, 
in general good guidance for us--because you are going to get a 
lot of requests--for us to call on you and your services?
    Mr. Missal. In that situation, if you think you have 
reached a dead end or the information you are getting is not 
correct or you just do not think it is what you are looking 
for, then that could be something the IG should be looking 
into.
    Senator Sullivan. Just one final question--it is a question 
that everybody has been asking here today--on transparency. I 
am sure you saw the October 2 USA Today report naming you to be 
tapped by the President as the new VA watchdog. It said that 
the agency and the IG's Office has been criticized following a 
USA Today report in March of this year that showed that the VA 
Inspector General ``had failed to publicly release the findings 
of more than 140 investigations of veterans health care, 
including cases of harm and death.'' I think that is why you 
are seeing such a concern among everybody here on transparency.
    What are going to be the principles, if you are confirmed, 
that will guide you in terms of transparency? Why do you think 
140 investigations of veterans health care, which I am assuming 
were requested by the Congress, were not publicly released?
    Mr. Missal. I do not know the specific details of that, but 
my preference would be to err on the side of disclosure as 
opposed to nondisclosure, because I agree that transparency is 
a really critical issue and it is one to increase the trust and 
confidence that people will have in the Office of Inspector 
General.
    Senator Sullivan. Finally, on my previous round or theme of 
questions, if I do get to the point where this Choice Act 
implementation in my State continues to be completely screwed 
up, would you commit to me to undertake an investigation if it 
was the appropriate time--and I am not saying it is right now, 
but it will be at some point--to do that?
    Mr. Missal. I will.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chair.
    Chairman Isakson. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman. I think the 
discussion about, you know, conveying feelings, talking to the 
Committee was really a good one. The strength that the 
Committee has as being probably the least partisan Committee in 
Congress, as you can tell by Senator Blumenthal and Senator 
Isakson. They do a tremendous job of leading that way, leading 
together. So, again, I hope that you will commit to when in 
doubt, come forward. You can get great advice from these guys, 
get great advice from the Committee. As you said earlier, you 
know, it is all about serving veterans, serving the public.
    Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Boozman.
    We appreciate your time and your commitment and your 
willingness to serve, and we will have a confirmation hearing 
at the appropriate time, we have had the hearing today, but we 
will have a vote at the appropriate time. I do not know when 
that will be exactly, but it will be at the appropriate time.
    Just again to acknowledge Richard Thornburgh's presence 
today. Mr. Attorney General, we are delighted that you are here 
today and appreciate your support for the nominee and 
appreciate your service to the United States of America.
    To the family, thank you for being good supporters of your 
husband, your father, and your loved one, because he is going 
to be a busy man if he gets confirmed for this job.
    This hearing stands adjourned.
    [Whereupon, at 3:48 p.m., the Committee was adjourned.]
                                ------                                

 Response to Posthearing Questions Submitted by Hon. Johnny Isakson to 
Michael J. Missal, Nominee to be the Inspector General, U.S. Department 
                          of Veterans Affairs
    Question 1.  As was mentioned at the hearing, since the Department 
of Veterans Affairs (VA) became a cabinet-level agency, each Senate-
confirmed Inspector General has had prior experience as an Inspector 
General or in a leadership role at an Inspector General's office or had 
extensive experience in Federal criminal investigations. Also, 6 out of 
11 of the Senate-confirmed Inspectors General for cabinet-level 
agencies served as the Inspector General of a smaller agency before 
being elevated to the Inspector General for the cabinet-level agency 
and two others previously held leadership positions at an Inspector 
General's office.
    A. Without experience at an Inspector General's office, how steep 
of a learning curve do you think you would face, how would you plan to 
combat that learning curve, and how long do you estimate it would take 
to become fully proficient in this role?
    Response. I do not think it would be a steep learning curve. I have 
worked with Inspectors General offices during my professional career 
and believe that I have a good understanding of the role, objectives 
and practices of an Inspector General. I also believe that my extensive 
experience in regulatory matters, including conducting internal 
investigations and inspections and familiarity with accounting 
principles, will further assist me in getting up to speed as quickly as 
possible. In addition, I have met with a number of current or former 
Inspectors General to learn more about their experiences and to obtain 
their guidance on preparing for this position. These meetings have 
confirmed my belief that I have the experience, skills, judgment and 
temperament to be a highly effective Inspector General.
    If confirmed, I will take a number of steps in the first 90 days. 
Among other things, I will immerse myself at the OIG to familiarize 
myself better with the policies, practices and priorities of the 
office. I will also meet with senior management at the VA to learn more 
about their responsibilities, issues and concerns. Moreover, I will 
continue to meet with other Inspectors General to get their input on 
the position. I will also meet with other government officials with 
whom I would expect to work, including the Office of Special Counsel 
and the Department of Justice. I believe that these steps will enhance 
my abilities to serve as the VA Inspector General and will assist me in 
becoming fully proficient in the role as quickly as possible.

    B. Since being nominated, what steps have you already taken to 
prepare for possibly serving as the VA Inspector General?
    Response. Since being nominated, I have done a number of things to 
prepare for the possibility of serving as the VA Inspector General. 
These matters include extensive reading of publicly available 
information about the VA and the VA OIG. I have also familiarized 
myself further with applicable statutes and regulations, including the 
Inspectors General Act of 1978, as amended. In addition, I have spoken 
with several current and former Inspectors General. Further, I have met 
with a number of people at the VA and the VA OIG about their work. All 
such meetings were limited to publicly available information.

    C. What additional steps do you believe you need to take to ensure 
your ability to perform the duties of the Inspector General?
    Response. Aside from the steps I intend to take in the first 90 
days as outlined above, I will also become active in the Council of the 
Inspectors General on Integrity and Efficiency (``CIGIE''). One of the 
goals of CIGIE is to develop policies, standards, and approaches to aid 
Inspectors General. I will also meet with members of the OIG staff who 
are located outside of the Washington, DC area. In addition, I will 
meet with Veterans Service Organizations to obtain their input on 
relevant issues.

    D. Would you please describe how well you believe your extensive 
experience at K&L Gates would translate into serving as the VA 
Inspector General, including what you consider to be the similarities 
and the differences between conducting internal investigations and 
audits for clients and serving as the watchdog for a large agency?
    Response. I believe that my experience at K&L Gates will serve me 
extremely well in serving as the VA Inspector General. There are great 
similarities in conducting investigations in the public and private 
sectors, as the goals for both are to be thorough, objective, fair, 
timely and accurate. As an example, I was appointed by the Department 
of Justice to conduct an investigation of New Century Financial. I 
conducted that investigation in a similar manner to the ones I 
conducted on behalf of clients of K&L Gates. I also expect my 
management of large investigations will be transferable to serving as 
the VA Inspector General.
    There are also similarities in audits, as both the public and 
private sectors audits provide for accountability and transparency. 
However, Inspectors General apply Government Auditing Standards, which 
are different than those used in the private sector. I believe that I 
would be able to manage effectively the audit function of the VA OIG 
using Government Auditing Standards.

    Question 2.  Last year, the VA Inspector General received 38,098 
hotline contacts identifying areas of possible fraud, waste, and abuse. 
The Inspector General currently has 219 open reports with 1,372 open 
and unimplemented recommendations to VA. This does not even address the 
new issues that seem to arise daily at VA.
    What are your plans and priorities, not only for these outstanding 
issues, but where will you begin to allocate resources to investigate 
issues at VA? On day one, where will you focus your efforts?
    Response. Addressing the large number of hotline contacts would be 
a priority for me. I would promptly determine how they are currently 
being handled and the resources devoted to them. I would also determine 
how they are being prioritized. I would further determine if some of 
the hotline contacts should be more appropriately handled by others at 
the VA and if so, refer them to the appropriate group. In addition, I 
would determine whether there were additional resources within the OIG 
that could be assigned to handle them.

    Question 3.  As you are aware, the Veterans Health Administration 
(VHA) continues to be in the news because of the long wait to receive 
care. The Committee, in part, relies on the Inspector General's reports 
on VHA as an independent voice in conducting oversight of the 
Department. VA's Inspector General not only provides oversight of 
waste, fraud, and abuse problems but also examines whether programs 
that deliver care to veterans are providing that care effectively and 
in a timely manner.
    A. Please describe any experience you have in conducting health 
care investigations, including details about any relevant 
investigations and the resolution of those investigations.
    Response. The most recent health care investigation in which I am 
currently involved is particularly relevant to the work of the OIG. 
This confidential matter is for a health care company that employs 
hundreds of physicians across the country. The primary issue is whether 
there was over-utilization of a test for a particular form of cancer. I 
led an investigation to determine whether the test was medically 
necessary for a large number of patients. This included conducting an 
audit of the utilization of the test and hiring medical experts to 
analyze the medical necessity of the tests. The investigation concluded 
that a few physicians over utilized the test. These physicians were 
held accountable and their employment with the company was terminated.
    I have also been involved in other investigations and matters 
related to issues similar to those covered by the VHA, including 
matters related to the application for the approval of drugs by the 
FDA, medical research, the Health Insurance Portability and 
Accountability Act (HIPAA) and other medical procedures. All 
investigations were successfully completed.

    B. Please describe how you believe any of the investigations you 
conducted would help prepare you to conduct oversight of VHA.
    Response. I believe that these investigations have given me a broad 
knowledge of health care issues and matters. They have also given me 
exposure to large and complex heath care organizations. Further, they 
have given me a better understanding of health care professionals and 
the culture of health care organizations.

    C. Please describe what experience in your background would be 
relevant to ensure VHA's programs are providing care effectively, 
including details about relevant investigations you have conducted.
    Response. Aside from my knowledge gained in working on the health 
care matters described above, I also have experience in consulting with 
health care experts on issues of patient care. I would expect to rely 
as appropriate on health care professionals on the delivery of 
effective health care.

    D. In your view, what experience in your background would be 
relevant to conducting oversight of VHA's access issues? Please 
describe any relevant investigations you have conducted.
    Response. There are a number of matters in my background that would 
be relevant to conducting oversight of VHA's access issues. First, my 
experience in conducting investigations would be valuable if additional 
investigations need to be conducted. Second, my knowledge of accounting 
principles and audits will be important in testing the access issue. 
Third, I have been involved in following up on recommendations to make 
sure they have been properly implemented. This experience will be 
useful in determining whether the previously made recommendations on 
the access issues have been implemented fully and effectively.

    E. Would you please share your priorities for providing oversight 
of VHA's ability to deliver care?
    Response. If confirmed, one of my priorities would be to focus on 
the VHA's ability to deliver quality health care promptly. I would 
quickly take the necessary steps to assess which areas need the 
greatest attention. Based on published reports, three areas related to 
the VHA that deserve continued attention are the access to quality 
health care, the delivery of mental health services and the 
prescription of drugs.

    Question 4.  You mentioned at the hearing the need for independence 
in a successful Inspector General and were asked for a specific example 
where you had to be both tenacious and independent, including against 
people you work for. You cited that you were appointed to examine the 
bankruptcy proceeding of New Century Financial. Would you please 
expound upon that answer by describing how you demonstrated 
independence and aggressiveness, including any specific examples?
    Response. I was appointed by the Department of Justice to be the 
independent Examiner in the New Century Financial bankruptcy 
proceeding. My appointment was confirmed by the bankruptcy judge, who 
was satisfied with my independence to conduct the investigation. I 
worked aggressively on the matter and completed a large and complex 
matter in the time period required by the judge. I ensured that the 
integrity and independence of the investigation process were 
maintained, despite the fact that others, including the Department of 
Justice, the Creditors Committee and the Securities and Exchange 
Commission were also conducting investigations on the same subject. The 
report of findings of the investigation that I issued was fair, 
objective, thorough and accurate.

    Question 5.  In your written testimony, you made this statement: 
``Recent public reports from the Office of Inspector General and 
elsewhere underscore the need for significant and prompt improvements 
in the way the VA is servicing our Veterans. If confirmed, I look 
forward to playing a role in strengthening the programs, policies and 
culture of the VA.'' Would you please expound on what you believe needs 
improving, what programs need strengthening, and what role you would 
envision playing in changing the culture at VA?
    Response. The reports to which I was referring include the ones 
related to access to health care, scheduling practices, integrity of 
data, delivery of mental health services, prescription drugs, treatment 
of whistleblowers and backlog of benefits. I would do a number of 
things in an attempt to improve the culture at the VA. Among other 
actions, I would prioritize creating an environment where 
whistleblowers feel comfortable that their concerns are being fairly 
and effectively addressed. Another step is to try to anticipate issues 
before they become large problems through vigorous inspections and 
examinations. I would also meet with senior management to get their 
initial perspectives on potential issues, while maintaining my 
independence. This could assist in identifying at an early stage what 
otherwise could turn into a wide scale problem. Accountability of 
individuals is also a key part to enhancing the culture. If there is a 
suspicion of criminal conduct, then individuals need to be investigated 
and prosecuted as appropriate. Criminal prosecutions serve as a strong 
deterrent. In addition, it may be appropriate to identify individuals 
in OIG administrative reports. This would be done as appropriate, 
consistent with fundamental fairness and privacy issues.

    Question 6.  One of the many issues when I took over as Chairman 
was the lack of criminal indictments for employees engaging in unlawful 
behavior at VA. As you know, one of the first indictments has since 
occurred at the Charlie Norwood VA Hospital in Augusta, GA. I believe 
very strongly that more of these employees who are knowingly committing 
fraud at VA need to be referred to the Justice Department for criminal 
prosecution.
    A. Would you please describe any experience you have in making 
criminal referrals or in investigations that resulted in criminal 
prosecutions?
    Response. When I worked at the SEC, I investigated and prosecuted 
several matters that were referred to the Department of Justice for 
criminal prosecutions. Perhaps the most well known prosecution was U.S. 
v. Carpenter et al., 484 U.S. 19 (1987), a Supreme Court criminal case 
which helped define the law of insider trading. Since I have been in 
the private sector, I have been involved in many criminal 
investigations and prosecutions. For example, I was Lead Counsel for 
the Examiner in the WorldCom bankruptcy proceeding. In that capacity, I 
worked closely with the Criminal Division of the Department of Justice, 
which successfully prosecuted a number of individuals. I also worked 
with the Criminal Division of the Department of Justice when I was the 
Examiner in the New Century Financial bankruptcy proceeding. I have 
further represented witnesses in a number of other investigations that 
resulted in criminal prosecutions.

    B. What will your philosophy be, if confirmed, when investigating 
employees and making referrals to the Department of Justice?
    Response. If confirmed, my philosophy will be to refer employees to 
the Department of Justice for criminal investigations and potential 
prosecutions if appropriate. Criminal prosecutions can serve as a 
strong deterrent. I would also promote a strong working relationship 
with the Criminal Division of the Department of Justice.

    Question 7.  As you may know, some concerns were raised about 
whether the prior acting Inspector General may have changed a 
conclusion in an Inspector General report at the request of VA 
leadership.
    A. Under what circumstances do you think that would be appropriate?
    Response. The work and reports of the OIG need to be independent. 
However, it may be appropriate to get input from others at the VA about 
a report if it promotes the accuracy or fairness of the report and does 
not negatively impact the integrity of the OIG investigative process. 
The conclusion of any report issued by the OIG should be that of only 
the OIG, as supported by the findings of the OIG.

    B. What steps would you take to ensure that the work of the 
Inspector General's office is not unduly influenced by VA leadership?
    Response. I would make sure that there are constant reminders 
within the office concerning the importance of the independence of the 
OIG. I would also assess and enhance as appropriate any training of the 
OIG staff. I would further take steps to ensure that I am notified if 
there is even an appearance of a lack of independence.
                                 ______
                                 
  Response to Posthearing Questions Submitted by Hon. Dean Heller to 
Michael J. Missal, Nominee to be the Inspector General, U.S. Department 
                          of Veterans Affairs
    Question 8.  Mr. Missal, many Members of this Committee wrote to 
the VA Secretary regarding the Inspector General report about the 
Veterans Benefits Administration employees abusing their authority.
    What do you think is the best way to hold these employees 
accountable in light of the Inspector General's findings?
    Response. I have read the Inspector General Report about the 
relocation of Veterans Benefits Administration employees, Diana Rubens 
and Kimberly Graves. The Report noted that criminal referrals were made 
against both Ms. Rubens and Ms. Graves. This is a strong and effective 
way to hold these employees accountable. Any further action to hold 
them accountable would come from the Department.

    Question 9.  As Co-Chair of the VA Backlog Working Group, one of my 
top issues on this Committee is eliminating the VA claims backlog. The 
VA Regional Office in Nevada had some serious leadership problems, and 
the Inspector General's Office assisted in identifying poor management 
as part of the problem.
    If you are confirmed to this position, will you commit to holding 
every VA employee accountable and identifying when poor leadership or 
poor employee performance is contributing to untimely benefits or 
health care?
    Response. I commit to identifying any VA employee whose poor 
leadership or poor performance contributes to untimely benefits or 
health care, consistent with privacy rules and fundamental fairness. I 
also commit to making any appropriate recommendation against an 
individual who exhibits poor leadership or engages in poor performance 
that contributes to untimely benefits or health care.
    If finding such an instance, how will you follow-up at these 
facilities to ensure that reforms at the leadership levels have been 
made?
    The audit and inspection functions review all facilities on a 
periodic basis. The implementation of any recommendation of reform of 
leadership should be reviewed as appropriate as part of the next audit 
or inspection. In addition, for the implementation of a recommendation 
for a significant leadership position, there should be a more prompt 
follow-up review.

    Question 10.  What have you identified as the top three issues at 
the VA that need to be closely monitored by the Inspector General's 
office?
    Response. Among the most significant issues to be closely monitored 
by the Inspector General's office are (i) rebuilding the trust and 
confidence in the VA and the OIG. This would include focusing on the 
prompt delivery of quality health care, the reduction of the backlog of 
disability claims, mental health services and prescription drugs; (ii) 
creating an improved environment in which whistleblowers have 
confidence that their concerns will be fairly and effectively 
considered by the OIG and that their identities will be protected from 
disclosure. I also will take the necessary steps to ensure that 
whistleblowers are fully aware of their right to be free from 
retaliation for making protected disclosures and how to seek redress 
from appropriate authorities if retaliation occurs; and (iii) 
anticipating issues before they become larger problems. Some of the 
ways to do this is through vigorous inspections and examinations and 
meeting with senior management.

    Question 11.  How would you approach the task of leading the 
Inspector General's office?
    Response. I would lead with the overriding principle that I treat 
others as I would like to be treated. I would lead by example and 
emphasize integrity and respect for others. I would have a great deal 
of personal interaction with my team and communicate regularly with 
them about my ideas, expectations and goals. I would promote strong 
teamwork and would provide opportunities for professional growth and 
advancement. I would always be open to ideas from various sources, 
including our Veterans, VSOs and Congress, on how to improve the 
quality of work and processes of the OIG.
                                 ______
                                 
  Response to Additional Posthearing Questions Submitted by Hon. Dean 
Heller to Michael J. Missal, Nominee to be the Inspector General, U.S. 
                     Department of Veterans Affairs
    At the nomination hearing, this dialog took place between you and 
Senator Rounds:

          Senator Rounds. My time has expired, but I would ask one last 
        question, a yes or a no answer, I believe. You are going to 
        need a plan. Would you commit that you will bring back to this 
        Committee a plan for putting this in order so that you can 
        actually lay out for the Secretary a pathway forward so that he 
        can actually get things done in there? Would you commit to 
        providing a plan of how you can be an effective IG when the 
        time comes?
          Mr. Missal. Yes.

    Your VA liaison later provided this information to the Committee:

          ``Mr. Missal did commit to have a plan when the time comes. 
        It will be after his confirmation and after he gets into his 
        job to learn more about the issues.''

    Senator Rounds then followed up with a posthearing question that in 
part included this request:

          ``Would you commit to providing a plan on how you can be an 
        effective [Inspector General] before we take a nomination 
        vote?''

    Question 12.  The response discussed the steps you have taken to 
get a better understanding of the role of the Inspector General but 
does not include such a plan. Would you please provide that plan for 
the Committee?
    Response. My plan to be an effective Inspector General includes a 
number of different action items. If confirmed, the more significant 
steps I would take at the outset would include the following. I would 
immerse myself at the OIG to better understand the policies, practices 
and priorities of the office. I would make any improvements and changes 
that are appropriate and necessary based on my assessment. I would also 
review the current investigation, audit and healthcare inspection plans 
of the OIG. A particular focus would be on any significant plans 
related to the prompt delivery of quality health care, the backlog of 
disability claims, the provision of mental health services and the 
prescription of drugs. I would further assess the adequacy of the 
resources and technology of the OIG and determine whether additional 
funding or enhancements are necessary for the OIG to better meet its 
mission.
    In addition, I would meet with senior management of the VA to learn 
more about their responsibilities, issues and concerns. It is important 
to have a strong, but independent, working relationship with VA senior 
management to enhance the effectiveness of the OIG. I would also review 
with VA senior management the status of the implementation of the more 
important and older outstanding OIG recommendations. I would also meet 
with other Inspectors General to obtain the benefit of their 
experiences, including best practices on issues of mutual interest. I 
would further meet with other government officials with whom I would 
expect to work, including the Office of Special Counsel and the 
Department of Justice, to discuss priorities and to promote an 
effective working relationship. Moreover, I would meet with Veterans 
Service Organizations to obtain their perspectives and views.
    Whistleblowers should play an important role for the OIG. I would 
examine the processes and practices of communications with 
whistleblowers. It is critically important to have an environment in 
which whistleblowers feel comfortable in expressing their concerns and 
that they have confidence that their concerns will be fairly and 
effectively addressed. I would further review how the OIG hotline 
contacts are being handled. I recognize that there are a large number 
of contacts to the hotline and would determine how best to address 
them. This would include speaking with other agencies that have a large 
number of contacts to their hotlines and identifying best practices.
    As I engage in these steps, I will have further information for 
consideration. I expect that the action plan will be continually 
supplemented and enhanced.
                                 ______
                                 
  Response to Posthearing Questions Submitted by Hon. Mike Rounds to 
Michael J. Missal, Nominee to be the Inspector General, U.S. Department 
                          of Veterans Affairs
    Question 13.  Would you commit to providing a plan on how you can 
be an effective IG before we take a nomination vote? Specifically, the 
Committee would like to know what steps you've taken to get an 
understanding of an IG's role.
    Response. I have taken a number steps to get a better understanding 
of an IG's role. Among other things, I have done extensive reading of 
publicly available information about the VA and the VA OIG. This 
includes the OIG's Semiannual Reports to Congress, Reports of 
Investigations, Reports of VHA Audits and Evaluations, Reports of VBA 
Audits and Evaluations, Congressional Testimony and news reports. I 
have also familiarized myself further with applicable statutes and 
regulations, including the Inspectors General Act of 1978, as amended. 
In addition, I have met with several current and former Inspectors 
General. Their insights on the position have been invaluable. Further, 
I have met with a number of people at the VA and the VA OIG about their 
work. All such meetings were limited to publicly available information.

    Question 14.  How would you plan to manage the massive open and 
pending reports?
    Response. I assume the question refers to the large number of 
recommendations that have not been implemented. I would first review 
the recommendations and prioritize the more significant and older ones. 
I would then meet with senior management to get an understanding of the 
timetable for the implementation of the outstanding recommendations. I 
would further follow up with senior management on the implementation 
plan.

    Question 15.  What are your strategic audit and improvement goals 
for health care delivery, benefit processing, financial management, 
information management, and procurement practices?
    Response. If confirmed, one of my priorities would be to review in 
detail the current audit and inspection plans for health care delivery, 
benefit processing, financial management, information management and 
procurement practices. I would also review any recommendations that 
have been made by the OIG, but have not yet been implemented. I would 
further have discussions with senior management to understand better 
their priorities and plans for improving health care delivery, benefit 
processing, financial management, information management and 
procurement practices. Once I obtain all relevant information, I would 
make any changes or enhancements to the audit and inspection plans for 
those areas.
      

                                  [all]
</pre></body></html>
